i
TABLE OF APPENDICES
Page
Appendix A – Opinion of the United States
Court of Appeals for the District of Columbia
Circuit (Jan. 19, 2021)...................................... App. 1
Appendix B – 42 U.S.C. § 7411 ........................ App. 216
Appendix C – North Dakota v. U.S. EPA, Application by the State of North Dakota for
Immediate Stay of Final Agency Action Pending Appellate Review, 15A793 (U.S. Jan. 29,
2016) ............................................................. App. 232

App. 1
APPENDIX A
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

Argued October 8, 2020

Decided January 19, 2021

No. 19-1140
AMERICAN LUNG ASSOCIATION AND
AMERICAN PUBLIC HEALTH ASSOCIATION,
PETITIONERS
V.

ENVIRONMENTAL PROTECTION AGENCY AND
ANDREW WHEELER, ADMINISTRATOR,
RESPONDENTS
AEP GENERATING COMPANY, ET AL.,
INTERVENORS
-----------------------------------------------------------------------

Consolidated with 19-1165, 19-1166, 19-1173,
19-1175, 19-1176, 19-1177, 19-1179, 19-1185,
19-1186, 19-1187, 19-1188
-----------------------------------------------------------------------

On Petitions for Review of a Final Action
of the Environmental Protection Agency
(Filed Jan. 19, 2021)
Steven C. Wu, Deputy Solicitor General, Office of
the Attorney General for the State of New York, and
Michael J. Myers, Senior Counsel, argued the cause for
the State and Municipal petitioners and intervenor
Nevada. With them on the briefs were Letitia James,

App. 2
Attorney General, Barbara D. Underwood, Solicitor
General, Matthew W. Grieco, Assistant Solicitor General, Andrew G. Frank, Assistant Attorney General of
Counsel, Xavier Becerra, Attorney General, Office of
the Attorney General for the State of California, Robert
W. Byrne, Senior Assistant Attorney General, David A.
Zonana, Supervising Deputy Attorney General, Jonathan A. Wiener, M. Elaine Meckenstock, Timothy E.
Sullivan, Elizabeth B. Rumsey, and Theodore A.B.
McCombs, Deputy Attorneys General, William Tong,
Attorney General, Office of the Attorney General for
the State of Connecticut, Matthew I. Levine and Scott
N. Koschwitz, Assistant Attorneys General, Kathleen
Jennings, Attorney General, Office of the Attorney
General for the State of Delaware, Valerie S. Edge,
Deputy Attorney General, Philip J. Weiser, Attorney
General, Office of the Attorney General for the State
of Colorado, Eric R. Olson, Solicitor General, Robyn L.
Wille, Senior Assistant Attorney General, Clare E.
Connors, Attorney General, Office of the Attorney General for the State of Hawaii, William F. Cooper, Deputy
Attorney General, Kwame Raoul, Attorney General,
Office of the Attorney General for the State of Illinois,
Matthew J. Dunn and Daniel I. Rottenberg, Assistant
Attorneys General, Aaron M. Frey, Attorney General,
Office of the Attorney General for the State of Maine,
Laura E. Jensen, Assistant Attorney General, Brian E.
Frosh, Attorney General, Office of the Attorney General for the State of Maryland, John B. Howard, Jr.,
Joshua M. Segal, and Steven J. Goldstein, Special Assistant Attorneys General, Maura Healey, Attorney
General, Office of the Attorney General for the

App. 3
Commonwealth of Massachusetts, Melissa A. Hoffer
and Christophe Courchesne, Assistant Attorneys General, Megan M. Herzog and David S. Frankel, Special
Assistant Attorneys General, Dana Nessel, Attorney
General, Office of the Attorney General for the State of
Michigan, Gillian E. Wener, Assistant Attorney General, Keith Ellison, Attorney General, Office of the Attorney General for the State of Minnesota, Peter N.
Surdo, Special Assistant Attorney General, Aaron D.
Ford, Attorney General, Office of the Attorney General
for the State of Nevada, Heidi Parry Stern, Solicitor
General, Gurbir S. Grewal, Attorney General, Office of
the Attorney General for the State of New Jersey, Lisa
J. Morelli, Deputy Attorney General, Hector Balderas,
Attorney General, Office of the Attorney General for
the State of New Mexico, Tania Maestas, Chief Deputy
Attorney General, Joshua H. Stein, Attorney General,
Office of the Attorney General for the State of North
Carolina, Asher Spiller, Assistant Attorney General,
Ellen F. Rosenblum, Attorney General, Office of the
Attorney General for the State of Oregon, Paul Garrahan, Attorney-in-Charge, Steve Novick, Special Assistant Attorney General, Josh Shapiro, Attorney
General, Office of the Attorney General for the Commonwealth of Pennsylvania, Ann R. Johnston, Senior
Deputy Attorney General, Aimee D. Thomson, Deputy
Attorney General, Peter F. Neronha, Attorney General,
Office of the Attorney General for the State of Rhode
Island, Gregory S. Schultz, Special Assistant Attorney
General, Thomas J. Donovan, Jr., Attorney General,
Office of the Attorney General for the State of Vermont,
Nicholas F. Persampieri, Assistant Attorney General,

App. 4
Mark Herring, Attorney General, Office of the Attorney General for the Commonwealth of Virginia,
Donald D. Anderson, Deputy Attorney General, Paul
Kugelman, Jr., Senior Assistant Attorney General and
Chief, Environmental Section, Caitlin Colleen Graham
O’Dwyer, Assistant Attorney General, Robert W. Ferguson, Attorney General, Office of the Attorney General
for the State of Washington, Christopher H. Reitz and
Emily C. Nelson, Assistant Attorneys General, Joshua
L. Kaul, Attorney General, Office of the Attorney General for the State of Wisconsin, Gabe Johnson-Karp,
Assistant Attorney General, Karl A. Racine, Attorney
General, Office of the Attorney General for the District
of Columbia, Loren L. AliKhan, Solicitor General, Tom
Carr, City Attorney, Office of the City Attorney for the
City of Boulder, Debra S. Kalish, Senior Counsel, Mark
A. Flessner, Corporation Counsel, Office of the Corporation Counsel for the City of Chicago, Benna Ruth
Solomon, Deputy Corporation Counsel, Jared Policicchio, Supervising Assistant Corporation Counsel,
Kristin M. Bronson, City Attorney, Office of the City Attorney for the City and County of Denver, Lindsay S.
Carder and Edward J. Gorman, Assistant City Attorneys, Michael N. Feuer, City Attorney, Office of the
City Attorney for the City of Los Angeles, Michael J.
Bostrom, Assistant City Attorney, James E. Johnson,
Corporation Counsel, New York City Law Department,
Christopher G. King, Senior Counsel, Marcel S. Pratt,
City Solicitor, City of Philadelphia Law Department,
Scott J. Schwarz and Patrick K O’Neill, Divisional Deputy City Solicitors, and Thomas F. Pepe, City Attorney,
City of South Miami. Morgan A. Costello and Brian M.

App. 5
Lusignan, Assistant Attorneys General, Office of the
Attorney General for the State of New York, Gavin G.
McCabe, Deputy Attorney General, Anne Minard, Special Assistant Attorney General, Office of the Attorney
General for the State of New Mexico, Cynthia M. Weisz,
Assistant Attorney General, Office of the Attorney
General for the State of Maryland, entered appearances.
Kevin Poloncarz argued the cause for Power Company Petitioners. With him on the briefs were Donald
L. Ristow and Jake Levine.
Mark W. DeLaquil argued the cause for Coal Industry Petitioners. With him on the briefs were Shay
Dvoretzky, Charles T. Wehland, Jeffery D. Ubersax,
Robert D. Cheren, and Andrew Grossman.
Theodore Hadzi-Antich argued the cause for Robinson Enterprises Petitioners. With him on the briefs
were Robert Henneke and Ryan D. Walters.
Sean H. Donahue argued the causes for Public
Health and Environmental Petitioners. On the briefs
were Ann Brewster Weeks, James P. Duffy, Susannah
L. Weaver, Joanne Spalding, Andres Restrepo, Vera
Pardee, Clare Lakewood, Howard M. Crystal, Elizabeth Jones, Brittany E. Wright, Jon A. Mueller, David
Doniger, Benjamin Longstreth, Melissa J. Lynch, Lucas
May, Vickie L. Patton, Tomas Carbonell, Benjamin Levitan, Howard Learner, and Scott Strand. Alejandra
Nunez entered an appearance.

App. 6
David M. Williamson argued the cause and filed
the briefs for Biogenic Petitioners.
Gene Grace, Jeff Dennis, and Rick Umoffwere on
the brief for petitioners American Wind Energy Association, et al.
Theodore E. Lamm and Sean B. Hecht were on the
brief for amicus curiae Thomas C. Jorling in support of
petitioners.
Gabriel Pacyniak, Brent Chapman, and Graciela
Esquivel were on the brief for amici curiae the Coalition to Protect America’s National Parks and the National Parks Conservation Association in support of
petitioners.
Deborah A. Sivas and Matthew J. Sanders were on
the brief for amici curiae Administrative Law Professors in support of petitioners.
Hope M. Babcock was on the brief for amici curiae
the American Thoracic Society, et al. in support of petitioners.
Richard L. Revesz and Jack Lienke were on the
brief for amicus curiae the Institute for Policy Integrity
at New York University School of Law in support of
petitioners.
Steph Tai was on the brief for amici curiae Climate
Scientists in support of petitioners.
Michael Burger and Collyn Peddie were on the
brief for amici curiae the National League of Cities, et
al. in support of petitioners.

App. 7
Keri R. Steffes was on the brief for amici curiae
Faith Organizations in support of petitioners.
Shaun A. Goho was on the brief for amici curiae
Maximilian Auffhammer, et al. in support of petitioners.
Ethan G. Shenkman and Stephen K Wirth were on
the brief for amici curiae Patagonia Works and Columbia Sportswear Company in support of petitioners.
Mark Norman Templeton, Robert Adam Weinstock,
Alexander Valdes, and Benjamin Nickerson were on
the brief for amicus curiae Professor Michael Greenstone in support of petitioners.
Nicole G. Berner and Renee M. Gerni were on the
brief for amicus curiae the Service Employees International Union in support of petitioners.
Elizabeth B. Wydra, and Brianne J. Gorod were on
the brief for amici curiae Members of Congress in support of petitioners.
Jonas J. Monast was on the brief for amici curiae
Energy Modelers in support of petitioners.
Katherine Konschnik was on the brief for amici curiae Former Commissioners of the Federal Energy Regulatory Commission in support of petitioners.
Michael Landis, Elizabeth S. Merritt, and Wyatt G.
Sassman were on the brief for amici curiae Environment America and National Trust for Historic Preservation in support of petitioners.

App. 8
Cara A. Horowitz was on the brief for amici curiae
Grid Experts in support of petitioners.
Eric Alan Isaacson was on the brief for amici curiae U.S. Senators in support of petitioners.
Jonathan D. Brightbill, Principal Deputy Assistant Attorney General, U.S. Department of Justice, and
Meghan E. Greenfield and Benjamin Carlisle, Attorneys, argued the causes for respondents. With them on
the brief was Jeffrey Bossert Clark, Assistant Attorney
General.
Lindsay S. See, Solicitor General, Office of the Attorney General for the State of West Virginia, argued
the cause for State and Industry intervenors in support of respondents regarding Affordable Clean Energy
Rule. With her on the brief were Patrick Morrisey,
Attorney General, Thomas T. Lampman, Assistant
Solicitors General, Thomas A. Lorenzen, Elizabeth B.
Dawson, Rae Cronmiller, Kevin G. Clarkson, Attorney
General at the time the brief was filed, Office of the
Attorney General for the State of Alaska, Clyde Sniffen
Jr., Attorney General, Leslie Rutledge, Attorney General, Office of the Attorney General for the State of
Arkansas, Nicholas J. Bronni, Solicitor General, Vincent M. Wagner, Deputy Solicitor General, Dylan L.
Jacobs, Assistant Solicitor General, Steve Marshall,
Attorney General, Office of the Attorney General for
the State of Alabama, Edmund G. LaCour, Jr., Solicitor
General, Christopher M. Carr, Attorney General, Office of the Attorney General for the State of Georgia,
Andrew A. Pinson, Solicitor General, Derek Schmidt,

App. 9
Attorney General, Office of the Attorney General for
the State of Kansas, Jeffrey A. Chanay, Chief Deputy
Attorney General, Curtis T. Hill, Jr., Attorney General,
Office of the Attorney General of Indiana, Thomas M.
Fisher, Solicitor General, Andrew Beshear, Governor,
Office of the Governor for the Commonwealth of Kentucky, S. Travis Mayo, Chief Deputy General Counsel,
Taylor Payne, Deputy General Counsel, Joseph A. Newberg, Deputy General Counsel and Deputy Executive
Director, Jeff Landry, Attorney General, Office of the
Attorney General for the State of Louisiana, Elizabeth
B. Murrill, Solicitor General, Harry J. Vorhoff, Assistant Attorney General, Eric S. Schmitt, Attorney General, Office of the Attorney General for the State of
Missouri, D. John Sauer, Solicitor General, Julie Marie
Blake, Deputy Solicitor General, Timothy C. Fox, Attorney General at the time the brief was filed, Office of
the Attorney General for the State of Montana, Matthew T. Cochenour, Deputy Solicitor General, Wayne
Stenehjem, Attorney General, Office of the Attorney
General for the State of North Dakota, Paul M. Seby,
Special Assistant Attorney General, Douglas J. Peterson, Attorney General, Office of the Attorney General
for the State of Nebraska, Justin D. Lavene, Assistant
Attorney General, Dave Yost, Attorney General, Office
of the Attorney General of the State of Ohio, Benjamin
M. Flowers, Solicitor General, Cameron F. Simmons,
Principal Assistant Attorney General, Mike Hunter,
Attorney General, Office of the Attorney General for
the State of Oklahoma, Mithun Mansinghani, Solicitor General, Jason R. Ravnsborg, Attorney General,
Office of the Attorney General for the State of South

App. 10
Dakota, Steven R. Blair, Assistant Attorney General,
Alan Wilson, Attorney General, Office of the Attorney
General for the State of South Carolina, James Emory
Smith, Jr., Deputy Solicitor General, Ken Paxton, Attorney General, Office of the Attorney General for the
State of Texas, Kyle D. Hawkins, Solicitor General,
Sean Reyes, Attorney General, Office of the Attorney
General for the State of Utah, Tyler R. Green, Solicitor
General, Bridget Hill, Attorney General, Office of the
Attorney General for the State of Wyoming, James
Kaste, Deputy Attorney General, Todd E. Palmer, William D. Booth, Obianuju Okasi, Carroll W. McGuffey,
III, Misha Tseytlin, C. Grady Moore, III, Julia Barber,
F. William Brownell, Elbert Lin, Allison D. Wood, Scott
A. Keller, Jeffrey H. Wood, Jeremy Evan Maltz, Steven
P. Lehotsky, Michael B. Schon, Emily Church Schilling,
Kristina R. Van Bockern, David M. Flannery, Kathy G.
Beckett, Edward L. Kropp, Amy M. Smith, Janet J.
Henry, Melissa Horne, Angela Jean Levin, Eugene M.
Trisko, John A. Rego, Reed W. Sirak, Michael A. Zody,
Jacob Santini, Robert D. Cheren, Mark W. DeLaquil,
and Andrew M. Grossman. C. Frederick Beckner, III,
James R. Bedell, Margaret C. Campbell, Erik D. Lange,
and John D. Lazzaretti entered an appearance.
James P. Duffy, argued the cause for Public Health
and Environmental Intervenors in support of respondents. With him on the brief were Ann Brewster
Weeks, Sean H. Donahue, Susannah L. Weaver, Joanne
Spalding, Andres Restrepo, Vera Pardee, Clare Lakewood, Elizabeth Jones, Brittany E. Wright, Jon A. Mueller, David Doniger, Benjamin Longstreth, Melissa J.

App. 11
Lynch, Lucas May, Vickie L. Patton, Tomas Carbonell,
Benjamin Levitan, Howard Learner, and Scott Strand.
Letitia James, Attorney General, Office of the Attorney General for the State of New York, Michael J.
Myers, Senior Counsel, Brian Lusignan, Assistant Attorney General of Counsel, Barbara D. Underwood, Solicitor General, Steven C. Wu, Deputy Solicitor General,
Matthew W. Grieco, Assistant Solicitor General, Xavier
Becerra, Attorney General, Office of the Attorney General for the State of California, Robert W. Byrne, Senior
Assistant Attorney General, David A. Zonana, Supervising Deputy Attorney General, Jonathan A. Wiener,
M. Elaine Meckenstock, Timothy E. Sullivan, Elizabeth
B. Rumsey, and Theodore A.B. McCombs, Deputy Attorneys General, William Tong, Attorney General,
Office of the Attorney General for the State of Connecticut, Matthew I. Levine and Scott N. Koschwitz,
Assistant Attorneys General, Kathleen Jennings, Attorney General, Office of the Attorney General for the
State of Delaware, Valerie S. Edge, Deputy Attorney
General, Philip J. Weiser, Attorney General, Office of
the Attorney General for the State of Colorado, Eric R.
Olson, Solicitor General, Robyn L. Wille, Senior Assistant Attorney General, Clare E. Connors, Attorney
General, Office of the Attorney General for the State
of Hawaii, William F. Cooper, Deputy Attorney General, Kwame Raoul, Attorney General, Office of the
Attorney General for the State of Illinois, Matthew J.
Dunn and Daniel I. Rottenberg, Assistant Attorneys
General, Aaron M. Frey, Attorney General, Office of
the Attorney General for the State of Maine, Laura E.

App. 12
Jensen, Assistant Attorney General, Brian E. Frosh,
Attorney General, Office of the Attorney General for
the State of Maryland, John B. Howard, Jr., Joshua M.
Segal, and Steven J. Goldstein, Special Assistant Attorneys General, Maura Healey, Attorney General, Office
of the Attorney General for the Commonwealth of Massachusetts, Melissa A. Hoffer and Christophe Courchesne, Assistant Attorneys General, Megan M. Herzog
and David S. Frankel, Special Assistant Attorneys
General, Dana Nessel, Attorney General, Office of the
Attorney General for the State of Michigan, Gillian
E. Wener, Assistant Attorney General, Keith Ellison,
Attorney General, Office of the Attorney General for
the State of Minnesota, Peter N. Surdo, Special Assistant Attorney General, Aaron D. Ford, Attorney General, Office of the Attorney General for the State of
Nevada, Heidi Parry Stern, Solicitor General, Gurbir
S. Grewal, Attorney General, Office of the Attorney
General for the State of New Jersey, Lisa J. Morelli,
Deputy Attorney General, Hector Balderas, Attorney
General, Office of the Attorney General for the State
of New Mexico, Tania Maestas, Chief Deputy Attorney General, Joshua H. Stein, Attorney General,
Office of the Attorney General for the State of
North Carolina, Asher Spiller, Assistant Attorney
General, Ellen F. Rosenblum, Attorney General, Office
of the Attorney General for the State of Oregon,
Paul Garrahan, Attorney-in-Charge, Steve Novick,
Special Assistant Attorney General, Josh Shapiro, Attorney General, Office of the Attorney General for the
Commonwealth of Pennsylvania, Ann R. Johnston,
Senior Deputy Attorney General, Aimee D. Thomson,

App. 13
Deputy Attorney General, Peter F. Neronha, Attorney
General, Office of the Attorney General for the State of
Rhode Island, Gregory S. Schultz, Special Assistant Attorney General, Thomas J. Donovan, Jr., Attorney General, Office of the Attorney General for the State of
Vermont, Nicholas F. Persampieri, Assistant Attorney
General, Mark Herring, Attorney General, Office of the
Attorney General for the Commonwealth of Virginia,
Donald D. Anderson, Deputy Attorney General, Paul
Kugelman, Jr., Senior Assistant Attorney General and
Chief, Environmental Section, Caitlin Colleen Graham
()Dwyer, Assistant Attorney General, Robert W. Ferguson, Attorney General, Office of the Attorney General
for the State of Washington, Christopher H. Reitz and
Emily C. Nelson, Assistant Attorneys General, Karl A.
Racine, Attorney General, Office of the Attorney General for the District of Columbia, Loren L. AliKhan, Solicitor General, Tom Carr, City Attorney, Office of the
City Attorney for the City of Boulder, Debra S. Kalish,
Senior Counsel, Mark A. Flessner, Corporation Counsel, Office of the Corporation Counsel for the City of
Chicago, Benna Ruth Solomon, Deputy Corporation
Counsel, Jared Policicchio, Supervising Assistant Corporation Counsel, Kristin M. Bronson, City Attorney,
Office of the City Attorney for the City and County of
Denver, Lindsay S. Carder and Edward J. Gorman, Assistant City Attorneys, Michael N. Feuer, City Attorney,
Office of the City Attorney for the City of Los Angeles,
Michael J. Bostrom, Assistant City Attorney, James E.
Johnson, Corporation Counsel, New York City Law
Department, Christopher G. King, Senior Counsel,
Marcel S. Pratt, City Solicitor, City of Philadelphia Law

App. 14
Department, Scott J. Schwarz and Patrick K O’Neill,
Divisional Deputy City Solicitors, and Thomas F. Pepe,
City Attorney, City of South Miami were on the brief
for the State and Municipal Intervenors in support of
respondents. Jeremiah Langston, Assistant Attorney
General, Office of the Attorney General for the State of
Montana, Stephen C. Meredith, Solicitor, Office of the
Attorney General for the Commonwealth of Kentucky,
Margaret I. Olson, Assistant Attorney General, Office
of the Attorney General for the State of North Dakota,
and Erik E. Petersen, Assistant Attorney General, Office of the Attorney General for the State of Wyoming,
and Robert A. Wolf entered appearances.
Patrick Morrisey, Attorney General, Office of the
Attorney General for the State of West Virginia, Lindsay S. See, Solicitor General, Thomas T. Lampman,
Assistant Solicitor General, Scott A. Keller, Jeffrey H.
Wood, Jeremy Evan Maltz, Steven P. Lehotsky, Michael B. Schon, Thomas A. Lorenzen, Elizabeth B.
Dawson, Rae Cronmiller, Steve Marshall, Attorney
General, Office of the Attorney General for the State
of Alabama, Edmund G. LaCour, Jr., Solicitor General,
Kevin G. Clarkson, Attorney General, Office of the Attorney General for the State of Alaska at the time the
brief was filed, Clyde Sniffen, Jr., Attorney General,
Leslie Rutledge, Attorney General, Office of the Attorney General for the State of Arkansas, Nicholas J.
Bronni, Solicitor General, Vincent M. Wagner, Deputy
Solicitor General, Dylan L. Jacobs, Assistant Solicitor
General, Christopher M. Carr, Attorney General, Office of the Attorney General for the State of Georgia,

App. 15
Andrew A. Pinson, Solicitor General, Derek Schmidt,
Attorney General, Office of the Attorney General for
the State of Kansas, Jeffrey A. Chanay, Chief Deputy
Attorney General, Curtis T. Hill, Jr., Attorney General,
Office of the Attorney General of Indiana, Thomas M.
Fisher, Solicitor General, Andrew Beshear, Governor,
Office of the Governor for the Commonwealth of Kentucky, S. Travis Mayo, Chief Deputy General Counsel,
Taylor Payne, Deputy General Counsel, Joseph A. Newberg, Deputy General Counsel and Deputy Executive
Director, Jeff Landry, Attorney General, Office of the
Attorney General for the State of Louisiana, Elizabeth
B. Murrill, Solicitor General, Harry J. Vorhoff, Assistant Attorney General, Eric S. Schmitt, Attorney General, Office of the Attorney General for the State of
Missouri, D. John Sauer, Solicitor General, Julie Marie
Blake, Deputy Solicitor General, Timothy C. Fox, Attorney General at the time the brief was filed, Office of
the Attorney General for the State of Montana, Matthew T. Cochenour, Deputy Solicitor General, Wayne
Stenehjem, Attorney General, Office of the Attorney
General for the State of North Dakota, Paul M. Seby,
Special Assistant Attorney General, Douglas J. Peterson, Attorney General, Office of the Attorney General
for the State of Nebraska, Justin D. Lavene, Assistant
Attorney General, Dave Yost, Attorney General, Office
of the Attorney General of the State of Ohio, Benjamin
M. Flowers, Solicitor General, Cameron F. Simmons,
Principal Assistant Attorney General, Mike Hunter,
Attorney General, Office of the Attorney General for
the State of Oklahoma, Mithun Mansinghani, Solicitor
General, Jason R. Ravnsborg, Attorney General, Office

App. 16
of the Attorney General for the State of South Dakota,
Steven R. Blair, Assistant Attorney General, Alan Wilson, Attorney General, Office of the Attorney General
for the State of South Carolina, James Emory Smith,
Jr., Deputy Solicitor General, Ken Paxton, Attorney
General, Office of the Attorney General for the State of
Texas, Kyle D. Hawkins, Solicitor General, Sean Reyes,
Attorney General, Office of the Attorney General for
the State of Utah, Tyler R. Green, Solicitor General,
Bridget Hill, Attorney General, Office of the Attorney
General for the State of Wyoming, James Kaste, Deputy Attorney General, Todd E. Palmer, William D.
Booth, Obianuju Okasi, Carroll W. McGuffey, III,
Misha Tseytlin, C. Grady Moore, III, Julia Barber, F.
William Brownell, Elbert Lin, Allison D. Wood, Emily
Church Schilling, Kristina R. Van Bockern, David M.
Flannery, Kathy G. Beckett, Edward L. Kropp, Amy M.
Smith, Janet J. Henry, Melissa Horne, Angela Jean
Levin, Eugene M. Trisko, John A. Rego, Reed W. Sirak,
Michael A. Zody, Jacob Santini, Robert D. Cheren,
Mark W. DeLaquil, and Andrew M. Grossman were on
the brief for State and Industry Intervenors in support of respondents regarding Clean Power Plan Repeal.
Wayne Stenehjem, Attorney General, Office of the
Attorney General for the State of North Dakota, and
Paul M. Seby, Special Assistant Attorney General,
were on the brief for intervenor State of North Dakota
in support of the respondents. Jerry Stouck entered an
appearance.

App. 17
Thomas J. Ward, Megan H. Berge, and Jared R.
Wigginton were on the brief for amicus curiae National
Association of Builders in support of respondents.
Before: MILLETT, PILLARD, and WALKER, Circuit
Judges.
Opinion for the Court filed PER CURIAM.
Opinion concurring in part, concurring in the judgment in part, and dissenting in part filed by Circuit
Judge WALKER.
TABLE
I.

OF

CONTENTS

Background ............................................. 17
A. The Clean Air Act ................................ 17
B. Electricity and Climate Change .......... 21
1. Electricity ....................................... 21
2. Climate Change and the Federal
Government .................................... 24
C. The Clean Power Plan ......................... 29
D. The ACE Rule ...................................... 32
1. Repeal of the Clean Power Plan ......

32

2. Best System of Emission Reduction .... 33
3. Degree of Emission Limitation
Achievable....................................... 36
4. Implementing Regulations ............. 38
E. Petitions for Review ............................ 38
F. Jurisdiction and Standard of Review ....

39

App. 18
II.

Section 7411............................................. 40
A. Statutory Context ................................ 40
1. Text ................................................. 46
2. Statutory History, Structure, and
Purpose ........................................... 59
3. Compliance Measures ..................... 71
B. The Major Questions Doctrine ............ 74
1. The EPA’s Regulatory Mandate .......

75

2. Best System of Emission Reduction .... 80
C. Federalism ........................................... 92
III.

The EPA’s Authority to Regulate Carbon Dioxide Emissions Under Section
7411 ........................................................... 98
A. The Coal Petitioners’ Challenges ........ 98
1. Endangerment Finding .................. 99
2. Section 7411 and Section 7412’s
Parallel Operation ............................ 111
B. The Robinson Petitioners’ Challenges .... 132

IV.

Amendments to the Implementing
Regulations ............................................. 138

V.

Vacatur and Remand ............................. 146

VI.

Conclusion ............................................... 147

As the Supreme Court recognized nearly fourteen years ago, climate change has been called
“the most pressing environmental challenge of our
time.” Massachusetts v. EPA, 549 U.S. 497, 505 (2007)
(formatting modified). Soon thereafter, the United
States government determined that greenhouse gas

App. 19
emissions are polluting our atmosphere and causing
significant and harmful effects on the human environment. Endangerment and Cause or Contribute Findings for Greenhouse Gases Under Section 202(a) of the
Clean Air Act (2009 Endangerment Finding), 74 Fed.
Reg. 66,496, 66,497–66,499 (Dec. 15, 2009). And both
Republican and Democratic administrations have
agreed: Power plants burning fossil fuels like coal “are
far and away” the largest stationary source of greenhouse gases and, indeed, their role in greenhouse gas
emissions “dwarf[s] other categories[.]” EPA Br. 169;
see also Standards of Performance for Greenhouse Gas
Emissions from New, Modified, and Reconstructed
Stationary Sources: Electric Utility Generating Units
(New Source Rule), 80 Fed. Reg. 64,510, 64,522 (Oct.
23, 2015) (fossil-fuel-fired power plants are “by far the
largest emitters” of greenhouse gases).
The question in this case is whether the Environmental Protection Agency (EPA) acted lawfully in
adopting the 2019 Affordable Clean Energy Rule (ACE
Rule), 84 Fed. Reg. 32,520 (July 8, 2019), as a means of
regulating power plants’ emissions of greenhouse
gases. It did not. Although the EPA has the legal authority to adopt rules regulating those emissions, the
central operative terms of the ACE Rule and the repeal
of its predecessor rule, the Clean Power Plan, 80 Fed.
Reg. 64,662 (Oct. 23, 2015), hinged on a fundamental
misconstruction of Section 7411(d) of the Clean Air
Act. In addition, the ACE Rule’s amendment of the
regulatory framework to slow the process for reduction
of emissions is arbitrary and capricious. For those

App. 20
reasons, the ACE Rule is vacated, and the record is remanded to the EPA for further proceedings consistent
with this opinion.
I.
A.

BACKGROUND

THE CLEAN AIR ACT

In 1963, Congress passed the Clean Air Act, 42
U.S.C. § 7401 et seq., “to protect and enhance the quality of the Nation’s air resources so as to promote the
public health and welfare and the productive capacity
of its population[,]” id. § 7401(b)(1). Animating the Act
was Congress’ finding that “growth in the amount and
complexity of air pollution brought about by urbanization, industrial development, and the increasing use of
motor vehicles[ ] has resulted in mounting dangers to
the public health and welfare[.]” Id. § 7401(a)(2).
Section 111 of the Clean Air Act, which was added
in 1970 and codified at 42 U.S.C. § 7411, directs the
EPA to regulate any new and existing stationary
sources of air pollutants that “cause[ ], or contribute[ ]
significantly to, air pollution” and that “may reasonably be anticipated to endanger public health or welfare.” 42 U.S.C. § 7411(b)(1)(A); see id. § 7411(d), (f )
(providing that the EPA Administrator “shall” regulate
existing and new sources of air pollution). A “stationary source” is a source of air pollution that cannot
move, such as a power plant. See id. § 7411(a)(3) (defining “stationary source” as “any building, structure,
facility, or installation which emits or may emit any air
pollutant[ ]”). An example of a common non-stationary

App. 21
source of air pollution is a gas-powered motor vehicle.
See Utility Air Regulatory Group v. EPA (UARG), 573
U.S. 302, 308 (2014).
Within 90 days of the enactment of Section 7411,
the EPA Administrator was to promulgate a list of stationary source categories that “cause[ ], or contribute[ ]
significantly to, air pollution[.]” 42 U.S.C. § 7411(b)(1)(A).
In 1971, the Administrator included fossil-fuel-fired
steam-generating power plants on that list. Air Pollution Prevention and Control: List of Categories of Stationary Sources, 36 Fed. Reg. 5,931 (March 31, 1971);
see also New Source Rule, 80 Fed. Reg. at 64,52764,528. Today’s power plants fall in that same category.
ACE Rule, 84 Fed. Reg. at 32,557 n.250.
Once a stationary source category is listed, the Administrator must promulgate federal “standards of
performance” for all newly constructed sources in the
category. 42 U.S.C. § 7411(b)(1)(B). The Act defines a
“standard of performance” as
a standard for emissions of air pollutants
which reflects the degree of emission limitation achievable through the application of the
best system of emission reduction which (taking into account the cost of achieving such reduction and any nonair quality health and
environmental impact and energy requirements) the Administrator determines has
been adequately demonstrated.
Id. § 7411(a)(1).

App. 22
Once such a new source regulation is promulgated,
the Administrator also must issue emission guidelines
for already-existing stationary sources within that
same source category. 42 U.S.C. § 7411(d)(1)(A)(ii);
see also American Elec. Power Co., Inc. v. Connecticut
(AEP), 564 U.S. 410, 424 (2011).
While the new source standards are promulgated
and enforced entirely by the EPA, the Clean Air Act
prescribes a process of cooperative federalism for the
regulation of existing sources. Under that structure,
the statute delineates three distinct regulatory steps
involving three sets of actors—the EPA, the States,
and regulated industry—each of which has a flexible role in choosing how to comply. See 42 U.S.C.
§ 7411(a)(1), (d). This allows each State to work with
the stationary sources within its jurisdiction to devise
a plan for meeting the federally promulgated quantitative guideline for emissions. See id. § 7411(d).
The process starts with the EPA first applying its
expertise to determine “the degree of emission limitation achievable through the application of the best system of emission reduction” that “has been adequately
demonstrated.” 42 U.S.C. § 7411(a)(1); see 40 C.F.R.
§ 60.22a. That system must “tak[e] into account the
cost of achieving such reduction and any nonair quality
health and environmental impact and energy requirements[.]” 42 U.S.C. § 7411(a)(1). Once the Administrator identifies the best system of emission reduction,
she then determines the amount of emission reduction that existing sources should be able to achieve
based on the application of that system and adopts

App. 23
corresponding emission guidelines. Id.; see also, e.g.,
ACE Rule, 84 Fed. Reg. at 32,523; Clean Power Plan,
80 Fed. Reg. at 64,719.
Each State then submits to the EPA a plan that
(i) establishes standards of performance for that
State’s existing stationary sources’ air pollutants (excepting pollutants already subject to separate federal
emissions standards), and (ii) “provides for the implementation and enforcement of such standards of performance[ ]” by the State. 42 U.S.C. § 7411(d)(1); see 40
C.F.R. § 60.23a. The standards of performance must
“reflect[ ]” the emission targets that the EPA has determined are achievable. 42 U.S.C. § 7411(a)(1). In this
context, a state standard need not adopt the best system identified by the EPA to “reflect[ ]” it. Id.; see 40
C.F.R. § 60.24a(c). Instead, the Clean Air Act affords
States significant flexibility in designing and enforcing
standards that employ other approaches so long as
they meet the emission guidelines prescribed by the
Agency.
If a State fails to submit a satisfactory plan, the
EPA may prescribe a plan for that State. 42 U.S.C.
§ 7411(d)(2)(A); see 40 C.F.R. § 60.27a(c)-(e). Similarly,
if the State submits a plan but fails to enforce it,
the EPA itself may enforce the plan’s terms. Id.
§ 7411(d)(2)(B).
The third and final set of relevant actors are the
regulated entities themselves, to which, under the Act,
the States may afford leeway in crafting compliance

App. 24
measures. See Clean Power Plan, 80 Fed. Reg. at
64,666; ACE Rule, 84 Fed. Reg. at 32,555.
The EPA has exercised its authority under Section
7411 over the years to set emission limitations for different types of air pollution from various categories of
existing sources. See 42 Fed. Reg. 12,022 (March 1,
1977) (fluorides from phosphate fertilizer plants); 42
Fed. Reg. 55,796 (Oct. 18, 1977) (acid mist from sulfuric
acid plants); 44 Fed. Reg. 29,828 (May 22, 1979) (total
reduced sulfur from haft pulp plants); 45 Fed. Reg.
26,294 (April 17, 1980) (fluorides from primary aluminum plants); 60 Fed. Reg. 65,387 (Dec. 19, 1995) (various pollutants from municipal waste combustors); 61
Fed. Reg. 9905 (March 12, 1996) (landfill gases from
municipal solid waste landfills); 70 Fed. Reg. 28,606
(May 18, 2005) (mercury from coal-fired power plants).
The Clean Air Act is a comprehensive statute that
includes a variety of regulatory programs for tackling
air pollution in addition to Section 7411. Regulated
parties may be subject to one or more programs. As
relevant here, the National Ambient Air Quality
Standards (NAAQS) provisions, 42 U.S.C. §§ 7408–
7410, govern the levels of specified air pollutants that
may be present in the atmosphere to protect air quality
and the public health and welfare. The Hazardous
Air Pollutants program, id. § 7412, directs the EPA to
establish strict emission limitations for the most dangerous air pollutants emitted from major sources. Section 7411’s cooperative federalism program for existing
sources operates as a gap-filler, requiring the EPA to

App. 25
regulate harmful emissions not controlled under those
other two programs. Id. § 7411(d)(1)(i).
B.

ELECTRICITY
1.

AND

CLIMATE CHANGE

Electricity

Electricity powers the world. Chances are that
you are reading this opinion on a device that consumes electricity. Yet two distinct characteristics of
electricity make its production and delivery in the
massive quantities demanded by consumers an exceptionally complex process. First, unlike most products,
electricity is a perfectly fungible commodity. Grid Experts Amicus Br. 6. A watt of electricity is a watt of
electricity, no matter who makes it, how they make it,
or where it is purchased. Second, at least as of now, this
highly demanded product cannot be effectively stored
at scale after it is created. Paul L. Joskow, Creating a
Smarter U.S. Electricity Grid, 26 J. ECON. PERSP. 29,
31–33 (2012).1 Instead, electricity must constantly be
Change in storage capacity is picking up speed. See generally Richard L. Revesz & Burcin Unel, Managing the Future of the
Electricity Grid: Energy Storage and Greenhouse Gas Emissions,
42 HARV. ENV’T L. REV. 139, 140–141 (2018) (describing ongoing
declines in cost of storage); LAZARD, LAZARD’S LEVELIZED COST OF
STORAGE ANALYSIS—VERSION 6.0 (2020) (noting “storage costs
have declined across most use cases and technologies, particularly for shorter-duration applications, in part driven by evolving
preferences in the industry”). Nevertheless, the grid’s production capacity still far exceeds its present storage capacity. Univ.
of Mich. Ctr. for Sustainable Sys., U.S. GRID ENERGY STORAGE
(Sept. 2020), http://css.umich.edu/sites/default/files/US%20Grid%
20Energy%20Storage_CSS15-17_e2020.pdf (last visited Jan. 11,
1

App. 26
produced, and is almost instantaneously consumed.
See Clean Power Plan, 80 Fed. Reg. at 64,677, 64,692;
Grid Experts Amicus Br. 8.
Those unique attributes led to the creation of the
American electrical grid.2 The grid has been called the
“supreme engineering achievement of the 20th century,” MASS. INST. OF TECH., THE FUTURE OF THE ELECTRIC GRID 1 (2011) (formatting modified), and it is an
exceptionally complex, interconnected system. “[A]ny
electricity that enters the grid immediately becomes a
part of a vast pool of energy that is constantly moving[.]” New York v. FERC, 535 U.S. 1, 7 (2002). That
means that units of electricity as delivered to the user
are identical, no matter their source. On the grid, there
is no coal-generated electricity or renewable-generated
electricity; there is just electricity. See Clean Power
Plan, 80 Fed. Reg. at 64,692; Grid Experts Amicus Br.
7–8. Also, because storing electricity for any length of
time remains technically challenging and often costly,
the components of the grid must operate as a perfectly
calibrated machine to deliver the amount of electricity
that all consumers across the United States need at
the moment they need it. Grid Experts Amicus Br. 8,
2021) (United States has 1,100 gigawatts of installed generation
capacity and just 23 gigawatts of storage capacity).
2
Technically, “grids.” There are three regional grids in the
contiguous United States: Eastern, Western, and Texas. Grid
Experts Amicus Br. 9; see also United States Dep’t of Energy,
North American Electric Reliability Corporation Interconnections,
https://www.energy.gov/oe/downloads/north-american-electricreliability-corporation-interconnections (last visited Jan. 11,
2021).

App. 27
10–11; see also 80 Fed. Reg. at 64,677. “If [someone] in
Atlanta on the Georgia [leg of the] system turns on a
light, every generator on Florida’s system almost instantly is caused to produce some quantity of additional electric energy which serves to maintain the
balance in the interconnected system[.]” Federal Power
Comm’n v. Florida Power & Light Co., 404 U.S. 453, 460
(1972) (citation omitted). “Like orchestra conductors
signaling entrances and cut-offs, grid operators use
automated systems to signal particular generators to
dispatch more or less power to the grid as needed over
the course of the day, thus ensuring that power pooled
on the grid rises and falls to meet changing demand.”
Grid Experts Amicus Br. 11.
Most generators of electricity on the American
grid create power by burning fossil fuels like coal, oil,
and natural gas. See United States Energy Information Administration (EIA), Frequently Asked Questions: What Is U.S. Electricity Generation by Energy
Source? (Nov. 2, 2020), https://www.eia.gov/tools/faqs/
faq.php?id=427&t=3 (last visited Jan. 11, 2021) (fossil
fuels represented 62.6 percent of electricity generation
in 2019). Some of those power plants take a fossil fuel
(usually coal) and burn it in a water boiler to make
steam. Other power plants take a different fossil fuel
(usually natural gas), mix it with highly compressed
air, and ignite it to release a combination of super-hot
gases. Either way, that steam or superheated mixture
is piped into giant turbines that catch the gases and
rotate at extreme speeds. Those turbines turn generators, which spin magnets within wire coils to produce

App. 28
electricity. EIA, Electricity Explained (Nov. 9, 2020),
https://www.eia.gov/energyexplained/electricity/howelectricity-is-generated.php (last visited Jan 11, 2021).
2. Climate Change and
the Federal Government
Electrical power has become virtually as indispensable to modern life as air itself. But electricity generation has come into conflict with air quality in ways
that threaten human health and well-being when
power generated by burning fossil fuels emits carbon
dioxide and other polluting greenhouse gases into the
air.
Since the late 1970s, the federal government has
focused “serious attention” on the effects of carbon dioxide pollution on the climate. Massachusetts v. EPA,
549 U.S. at 507. In 1978, Congress adopted the National Climate Program Act, Pub. L. No. 95-367, 92
Stat. 601, which directed the President to study and
devise an appropriate response to “man-induced climate processes and their implications[,]” id. § 3; see
Massachusetts v. EPA, 549 U.S. at 507–508. In response, the National Academy of Sciences’ National
Research Council reported “no reason to doubt that
climate changes will result” if “carbon dioxide continues to increase,” and “[a] wait-and-see policy may mean
waiting until it is too late.” Massachusetts v. EPA, 549
U.S. at 508 (quoting CLIMATE RESEARCH BOARD, CARBON
DIOXIDE & CLIMATE: A SCIENTIFIC ASSESSMENT, at viii
(1979)).

App. 29
In 1987, Congress passed the Global Climate Protection Act, which found that “manmade pollution[,]”
including “the release of carbon dioxide, * * * may be
producing a long-term and substantial increase in the
average temperature on Earth[.]” Pub. L. No. 100-204,
Title XI, §1102(1), 101 Stat. 1407, 1408 (codified at 15
U.S.C. § 2901 note). The Climate Protection Act directed the EPA to formulate a “coordinated national
policy on global climate change.” Id. § 1103(b), 101
Stat. at 1408; see Massachusetts v. EPA, 549 U.S. at
508.
It was not until the Supreme Court’s 2007 decision
in Massachusetts v. EPA, however, that the Court confirmed that carbon dioxide and other greenhouse gas
emissions constituted “air pollutant[s]” covered by the
Clean Air Act. See 549 U.S. at 528. The Supreme Court
explained that the Clean Air Act’s “sweeping definition
of ‘air pollutant’ includes ‘any air pollution agent or
combination of such agents, including any physical,
chemical . . . substance or matter which is emitted into
or otherwise enters the ambient air[.]’ ” Id. at 528-529
(quoting 42 U.S.C. § 7602(g)). The Act, the Supreme
Court held, “is unambiguous” in that regard. Id. at 529.
“On its face, the definition embraces all airborne compounds of whatever stripe, and underscores that intent
through the repeated use of the word ‘any.’ ” Id. And
“[c]arbon dioxide” and other common greenhouse gases
are “without a doubt” chemical substances that are
“emitted into . . . the ambient air.” Id. (quoting 42
U.S.C. § 7602(g)).

App. 30
Given that statutory command, the Supreme
Court ruled that the EPA “can avoid taking further action” to regulate such pollution “only if it determines
that greenhouse gases do not contribute to climate
change” or offers some reasonable explanation for not
resolving that question. Massachusetts v. EPA, 549 U.S.
at 533.
Taking up the mantle, the EPA in 2009 found
“compelling[ ]” evidence that emissions of greenhouse
gases are polluting the atmosphere and are endangering human health and welfare by causing significant
damage to the environment. 2009 Endangerment
Finding, 74 Fed. Reg. at 66,497; see id. (“[T]he Administrator finds that greenhouse gases in the atmosphere
may reasonably be anticipated both to endanger public
health and to endanger public welfare. * * * The Administrator has determined that the body of scientific
evidence compellingly supports this finding.”); id. at
66,497–66,499. The EPA concluded that “ ‘compelling’
evidence supported the ‘attribution of observed climate
change to anthropogenic’ [that is, human-influenced]
emissions of greenhouse gases[.]” AEP, 564 U.S. at 417
(quoting 74 Fed. Reg. at 66,518). The “[c]onsequent
dangers of greenhouse gas emissions,” the EPA determined, include
increases in heat-related deaths; coastal inundation and erosion caused by melting icecaps
and rising sea levels; more frequent and intense hurricanes, floods, and other “extreme
weather events” that cause death and destroy
infrastructure; drought due to reductions in

App. 31
mountain snowpack and shifting precipitation patterns; destruction of ecosystems supporting animals and plants; and potentially
“significant disruptions” of food production.
Id. (quoting 74 Fed. Reg. at 66,524–66,535).
Not long thereafter, the Supreme Court ruled that
the significant greenhouse gas pollution caused by fossil-fuel-fired power plants is subject to regulation under Section 7411 of the Clean Air Act. AEP, 564 U.S. at
424 (holding that Section 7411 “speaks directly to
emissions of carbon dioxide from [fossil-fuel-fired]
plants[ ]”) (internal quotation marks omitted). The
Court concluded that the EPA’s expertise made it “best
suited to serve as primary regulator of greenhouse gas
emissions.” Id. at 428.
In 2015, with the 2009 carbon dioxide endangerment finding continuing in effect, the EPA reaffirmed
that greenhouse gases “endanger public health, now
and in the future.” New Source Rule, 80 Fed. Reg. at
64,518. The EPA explained that, “[b]y raising average
temperatures, climate change increases the likelihood
of heat waves, which are associated with increased
deaths and illnesses[,]” particularly among “[c]hildren, the elderly, and the poor[.]” Id. at 64,517. In addition, the EPA found that “[c]limate change impacts
touch nearly every aspect of public welfare.” Id. Among
the “multiple threats caused by human emissions
of [greenhouse gases],” the EPA pointed to climate
changes that “are expected to place large areas of the
country at serious risk of reduced water supplies,

App. 32
increased water pollution, and increased occurrence of
extreme events such as floods and droughts.” Id. The
EPA “emphasize[d] the urgency of reducing [greenhouse gas] emissions due to * * * projections that show
[greenhouse gas] concentrations climbing to ever-increasing levels in the absence of mitigation[,]” citing
independent assessments finding that, “without a reduction in emissions, CO2 concentrations by the end of
the century would increase to levels that the Earth has
not experienced for more than 30 million years.” Id. at
64,518.
The federal government’s consistent recognition
of the danger to public health and welfare caused by
climate change, and the signal contribution of greenhouse gas emissions from power plants to global warming, continues to the present. In 2018, President
Trump’s administration concluded that “Earth’s climate is now changing faster than at any point in the
history of modern civilization, primarily as a result of
human activities.” U.S. GLOBAL CHANGE RESEARCH PROGRAM, FOURTH NATIONAL CLIMATE ASSESSMENT, VOLUME
II: IMPACTS, RISKS, AND ADAPTATION IN THE UNITED
STATES (REPORT-IN-BRIEF ) 24 (2018). The administration added that “the evidence of human-caused climate
change is overwhelming and continues to strengthen,”
and “the impacts of climate change are intensifying
across the country[.]” Id. at 26 (emphasis omitted).
“Climate-related changes in weather patterns and associated changes in air, water, food, and the environment are affecting the health and well-being of
the American people, causing injuries, illnesses, and

App. 33
death.” Id. at 102. The administration’s report concluded that urgent action is needed to mitigate these
dangers because “[f ]uture risks from climate change
depend primarily on decisions made today.” Id. at 13.
In preparing the ACE Rule, the EPA expressly
acknowledged its continued adherence to the 2015 endangerment finding. 84 Fed. Reg. at 32,533 (The 2015
New Source Rule “continues to provide the requisite
predicate for applicability of [Clean Air Act] section
111(d).”); id. at 32,557 n.250; see also Emission Guidelines for Greenhouse Gas Emissions from Existing
Electric Utility Generating Units; Revisions to Emission Guideline Implementing Regulations; Revisions
to New Source Review Program: Proposed Rule, 83
Fed. Reg. 44,746, 44,751 (Aug. 31, 2018) (confirming that the 2015 New Source Rule “remains on the
books[ ]”); EPA Br. 217.
That endangerment finding provided the essential
factual foundation—and triggered a statutory mandate—for the EPA to regulate greenhouse gas emissions from both new and existing power plants. See
New Source Rule, 80 Fed. Reg. at 64,527, 64,52964,532; Clean Power Plan, 80 Fed. Reg. at 64,68364,690; see also 42 U.S.C. §§ 7411(b)(1)(A)–(B) (duty to
regulate new stationary sources that contribute significantly to dangerous pollution identified in endangerment finding), 7411(d)(1)(A)(ii) (duty to regulate existing stationary sources that would be regulated
under § 7411(b) if they were new stationary sources).
Recall, Section 7411(b)(1)(A) provides that the EPA
Administrator “shall” regulate any category of sources

App. 34
that, “in his judgment * * * causes, or contributes significantly to, air pollution which may reasonably be
anticipated to endanger public health or welfare.”
The EPA endangerment findings reflect such wellestablished risks.
C.

THE CLEAN POWER PLAN

In the last decade, the EPA has heavily focused its
regulation of greenhouse gases on the power sector because “power plants are far and away the largest stationary-category source of greenhouse gases[,]” and
“power plants’ contributions to CO2 pollution * * *
dwarf[ ] other categories[.]” EPA Br. 169.
In October 2015, the EPA issued greenhouse gas
emission standards for new and modified power plants.
See New Source Rule, 80 Fed. Reg. at 64,510. In so doing, the EPA found that, “[a]ll told, these fossil fuelfired [power plants] emit almost one-third of all U.S.
[greenhouse gas] emissions, and are responsible for almost three times as much as the emissions from the
next ten stationary source categories combined.” Id. at
64,531. That rule and finding remain in effect and are
not challenged in this litigation.
The EPA then turned to the regulation of existing
power plants. The EPA began, as the Clean Air Act requires, by determining the best system of emission reduction that has been adequately demonstrated for
existing fossil-fuel-fired power plants. See 42 U.S.C.
§ 7411(a)(1); Clean Power Plan, 80 Fed. Reg. at 64,718.
In identifying that system, the EPA chose to build on

App. 35
the established grid system and methods of operation
already adopted by and familiar to the power sector.
See 80 Fed. Reg. at 64,725, 64,727–64,728. The regulations and standards that the EPA formulated came to
be known as the Clean Power Plan. Id. at 64,663.
In the Clean Power Plan, the EPA determined that
a combination of three existing methods of emission reduction—which the Plan referred to as building blocks,
80 Fed. Reg. at 64,667—formed the “best system of
emission reduction,” 42 U.S.C. § 7411(a)(1).
First, the system incorporated heat-rate improvements—that is, technological measures that improve
efficiency at coal-fired steam power plants and, in that
way, reduce the amount of coal that must be burned to
produce each watt of electricity to the grid. 80 Fed. Reg.
at 64,667.
Second, the system added the “substitut[ion of ]
increased generation from lower-emitting existing natural gas combined cycle units for generation from
higher-emitting affected steam generating” power
plants, which are mostly coal-fired. 80 Fed. Reg. at
64,667.
Third, the system prioritized the use of electricity generated from zero-emitting renewable-energy
sources over electricity from the heavily greenhousegas-polluting fossil-fuel-fired power plants. 80 Fed.
Reg. at 64,667.
Those second and third methods of emission
control are often referred to as “generation shifting”

App. 36
because the reductions occur when the source of power
generation shifts from higher-emission power plants to
less-polluting sources of energy. See Clean Power Plan,
80 Fed. Reg. at 64,728–64,729. As the EPA observed,
such shifts in generation already occur all the time as
a matter of grid mechanics That is, within the grid’s
“Constrained Least-Cost Dispatch” system, production
from “generators with the lowest variable costs” will be
dispatched “first, as system operational limits allow,
until all demand is satisfied.” Grid Experts Amicus Br.
12. “[R]enewable energy generators typically receive
dispatch priority because they have lower variable
costs than fossil-fuel-fired generators, which must purchase fuel.” Id. at 13 (citing 80 Fed. Reg. at 64,693). The
EPA found that most electricity is generated by diversified utilities that could achieve most or all of the shift
to lower- or no-emission generation by reassessing the
dispatch priority of their own assets. See 80 Fed. Reg.
at 64,796, 64,804.
As required by Section 7411(a)(1), the EPA then
quantified the degree of emission reduction achievable
under that three-tier best system for the relevant fossil-fuel-fired power plants and translated it into statespecific emissions goals for 2030. Clean Power Plan, 80
Fed. Reg. at 64,824–64,825. To permit additional flexibility, the Plan actually provided two alternative types
of targets: rate-based goals, reflecting the rate of emission per certain amount of generation, and mass-based
goals, reflecting the total emission from a State’s
sources. Id. at 64,820, 64,824–64,825 Tables 12, 13. The
alternative metrics were an added source of flexibility

App. 37
for States in choosing how they would meet the federal
limits.
Under the Clean Air Act, States could then propose plans that set standards of performance for their
existing power plants that would meet those emission
goals. Clean Power Plan, 80 Fed. Reg. at 64,664. In doing so, the States and their power plants were under
no obligation to use the three specific methods that the
EPA had identified in determining the best system of
emission reduction. Rather, consistent with Section
7411(d)’s cooperative federalism approach, States were
free to choose any measures, approaches, or technologies that they deemed appropriate to meet the federal
guidelines. For example, they could adopt technological
controls already in use by some power plants like carbon capture and sequestration (by which carbon dioxide is captured from the plant’s flue gas before it is
emitted and then securely stored so it cannot reach the
atmosphere) or co-firing (where fuels that release less
carbon dioxide are burned alongside fuels that release
more to reduce the amount of the latter used). See id.
at 64,883. The EPA also suggested that States might
rely on emissions-trading programs (often referred to
as cap-and-trade) and other potential compliance
strategies. Id. at 64,887.
The EPA found that its proposed approach was
“consistent with, and in some ways mirrors, the interconnected, interdependent and highly regulated nature of the utility power sector[ ]” and its grid, as well
as “the daily operation of affected [power plants]
within this framework, and the critical role of utilities

App. 38
in providing reliable, affordable electricity at all times
and in all places within this complex, regulated system.” Clean Power Plan, 80 Fed. Reg. at 64,678.
The Clean Power Plan was challenged in this
court. West Virginia v. EPA, No. 15-1363 (and consolidated cases) (D.C. Cir. Oct. 23, 2015). After we heard
argument en banc, but before we issued a decision, that
litigation was held in abeyance and ultimately dismissed as the EPA reassessed its position. No. 15-1363,
Docs. 1673071, 1806952.
D.

THE ACE RULE

In 2019, the EPA issued a new rule that repealed
and replaced the Clean Power Plan: The Affordable
Clean Energy (ACE) Rule. See Repeal of the Clean
Power Plan; Emission Guidelines for Greenhouse Gas
Emissions from Existing Electric Utility Generating
Units; Revisions to Emission Guidelines Implementing
Regulations, 84 Fed. Reg. 32,520 (July 8, 2019). That
Rule is the subject of this litigation.
1.

Repeal of the Clean Power Plan

At the outset, the ACE Rule repealed the Clean
Power Plan. The EPA explained that it felt itself statutorily compelled to do so because, in its view, “the
plain meaning” of Section 7411(d) “unambiguously”
limits the best system of emission reduction to only
those measures “that can be put into operation at
a building, structure, facility, or installation.” ACE

App. 39
Rule, 84 Fed. Reg. at 32,523-32,524. Because the Clean
Power Plan’s best system was determined by using
some emission control measures that the EPA characterized as physically operating off the site of coal-fired
power plants—such as some forms of generation shifting and emissions trading—the EPA concluded that it
had no choice but to repeal the Plan. Id. The EPA emphasized “that [its] action is based on the only permissible reading of the statute and [it] would reach that
conclusion even without consideration of the major
question doctrine,” while adding that application of
that latter doctrine “confirms the unambiguously expressed intent” of Section 7411. Id. at 32,529.
2.

Best System of Emission Reduction

Considering its authority under Section 7411 to be
confined to physical changes to the power plants themselves, the EPA’s ACE Rule determined a new best system of emission reduction for coal-fired power plants
only. The EPA left unaddressed in this rulemaking (or
elsewhere) greenhouse gas emissions from other types
of fossil-fuel-fired power plants, such as those fired by
natural gas or oil. ACE Rule, 84 Fed. Reg. at 32,533.
The EPA’s proposed system relied solely on heatrate improvement technologies and practices that
could be applied at and to existing coal-fired power
plants. ACE Rule, 84 Fed. Reg. at 32,525, 32,537. The
EPA selected only seven heat-rate improvement techniques as components of its best system. Id. at
32,537. Six of those measures were new-to-the-plant

App. 40
technologies or “equipment upgrades.” Id. at 32,536–
32,537 (naming as part of the best system (1) adding
or upgrading neural networks and intelligent sootblowers; (2) upgrading boiler feed pumps; (3) replacing
or upgrading air heater and duct leakage control devices; (4) adding variable frequency drives in feed
pumps and induced-draft fans; (5) blade path upgrades; and (6) redesigning or replacing economizers).
The seventh measure was the use of “best operating
and maintenance practices” implementing heat-rate
improvement techniques. Id. at 32,537, 32,540. The
EPA limited itself to techniques that could be “applied
broadly” to the Nation’s coal-fired plants, which primarily amounted to upgrades to existing equipment.
Id. at 32,536.
The EPA explained that only five of the seven
listed techniques directly reduce the heat rate of power
plants. See ACE Rule, 84 Fed. Reg. at 32,538–32,540.
The other two techniques—replacing or upgrading the
boiler feed pump and installing variable frequency
drives—serve to reduce the amount of energy that a
power plant must use to run its own general operations. Id. at 32,538–32,539.3 So those two techniques
3

The boiler feed pump is a device that is used to pump water
into the boiler. 84 Fed. Reg. at 32,538. It consumes a “large fraction” of the power used to run the plant. Id. Because the boiler
feed pump requires so much energy, the EPA suggested that
“maintenance on these pumps should be rigorous to ensure both
reliability and high-efficiency operation.” Id. Variable frequency
drives “enable[ ] very precise and accurate speed control” of both
boiler feed pumps and “induced draft (ID) fans,” which “maintain
proper flue gas flow through downstream air pollutant control

App. 41
do not make a power plant more efficient in turning
coal into power, but instead allow power plants to dispatch more of the power they produce to the grid rather than using it internally. Id.
The EPA identified two of its other chosen techniques—blade path and economizer upgrades—as the
measures that, of all the considered technologies, were
“expected to offer some of the largest [heat-rate] improvements.” ACE Rule, 84 Fed. Reg. at 32,537 (showing table predicting highest heat-rate improvement
range in economizer redesign or replacements and
blade path upgrades).4
But the EPA then stated that it expected some
power plants would not adopt those two technologies
because their use could trigger additional regulation
that the companies would find burdensome. 84 Fed.
Reg. at 32,537 (“[B]ased on public comments * * *,
[blade path upgrades and economizer redesign or replacement] are [heat-rate improvement] technologies
that have the most potential to trigger [New Source
Review] requirements.”). In fact, the EPA did not
model those two techniques in its regulatory impact
analysis precisely because it was unlikely that they
would be adopted. J.A. 1656–1657.

equipment[.]” Id. at 32,539. This precise control would reduce the
excess use of fans and pumps, requiring less energy. See id.
4
“Blade path upgrades” consist of upgrades to the steam turbine. Economizers are heat-exchange devices that “capture waste
heat from boiler flue gas” and use that captured heat to help heat
the boiler feedwater. Id. at 32,540.

App. 42
Finally, the EPA acknowledged that the proposed
technologies could create a “rebound effect.” ACE Rule,
84 Fed. Reg. at 32,542. A rebound effect means that net
carbon dioxide emissions actually increase as a result
of the efficiency improvements made by power plants.
Id. This happens because, as the efficiency upgrades
make coal-based energy cheaper to produce, coal-fired
power plants will have an incentive to run more often,
thereby increasing their overall emissions. Id. The
EPA found that risk of increased emissions irrelevant because its best system of emission reduction “is
aimed at improving a source’s emissions rate performance at the unit-level,” rather than reducing the
overall volume of emissions by individual sources. Id.
at 32,543.
In choosing its seven proposed power-plant-based
heat-rate improvement technologies, the EPA excluded
from its best system several other suggested methods
of reducing emissions, including (1) natural gas co-firing, repowering, and refueling; (2) biomass co-firing;
and (3) carbon capture and storage technologies. ACE
Rule, 84 Fed. Reg. at 32,543–32,547. The EPA rejected
biomass co-firing primarily because “any potential net
reductions in emissions from biomass use occur outside of the regulated source,” and so do not fall within
the EPA’s reading of Section 7411(d) as confined to
emission limits imposed at and to individual plants. Id.
at 32,546. The EPA excluded natural gas co-firing and
carbon capture and storage from its own best system,
citing cost, geographical, and operational concerns. Id.
at 32,544–32,545, 32,547–32,548. The EPA provided

App. 43
that sources could choose to use natural gas co-firing
or carbon capture—but not biomass co-firing—to
meet state-established standards of performance. Id.
at 32,555.
3.

Degree of Emission Limitation Achievable

Having determined its best system of emission reduction, the EPA then purported to prescribe the “degree of emission limitation achievable,” which States
could use to create their own standards of performance. 42 U.S.C. § 7411(a)(1). What the EPA produced
as its emission guidelines was a chart that prescribed
heat-rate improvement “ranges” for each of the EPA’s
chosen heat-rate improvement technologies, organized
by power plants of differing sizes. ACE Rule, 84 Fed.
Reg. at 32,537. The ranges show how much heat-rate
improvement can be “expected” from use of each of the
identified technologies. Id.
The EPA was explicit, though, that the “potential” range of heat-rate reduction was only illustrative
and that the actual reduction for each of the EPA’s chosen technologies would be “unit-specific” and would
“depend upon a range of unit-specific factors.” ACE
Rule, 84 Fed. Reg. at 32,537–32,538. In that way, the
ACE Rule made States responsible for evaluating
“[heat-rate improvement] potential, technical feasibility, and applicability for each of the [best system
of emission reduction] candidate technologies” on a
power-plant–by–power-plant basis. Id. at 32,538. The
ACE Rule expressly left States free to establish their

App. 44
own standards of performance for their power plants
that “reflect a value of [heat-rate improvement] that
falls outside” the ranges provided in the EPA’s chart.
Id. (emphasis added). In other words, the minimums
listed in the EPA’s emission-reduction chart were only
suggestions.
The EPA explained that its non-mandatory ranges
of efficiency reduction were valid because the applicability of the heat-rate improvement techniques to different plants and the effectiveness of each power
plant’s existing technology may vary. See ACE Rule, 84
Fed. Reg. at 32,538 (stating that “not all” of the technologies would be “applicable or warranted at the level
of a particular facility due to source-specific factors
such as the site-specific operational and maintenance
history, the design and configuration, [or] the expected
operating plans”).
The EPA predicted that its ACE Rule would reduce carbon dioxide emissions by less than 1% from
baseline emission projections by 2035. J.A. 1651. That
calculation did not reflect emission increases that could
result from the rebound effect.
4.

Implementing Regulations

The ACE Rule included some new regulations under Section 7411(d). ACE Rule, 84 Fed. Reg. at 32,57532,584 (codified at 40 C.F.R. pt. 60, subpart Ba). As relevant here, the regulations significantly extend the
States’ deadlines for the development and submittal of
their plans for emission reduction from nine months to

App. 45
three years. See 40 C.F.R. § 60.23a(a)(1). Similarly, the
new regulations extend the EPA’s deadline to act on
those plans from four months to one year. 40 C.F.R.
§ 60.27a(b). The new regulations also extend the EPA’s
deadline to substitute its own plan for a noncompliant
State’s plan from six months after the submission
deadline to two years after a finding that the plan
was incomplete, disapproved, or unsubmitted. See 40
C.F.R. § 60.27a(c). Finally, the requirement that States
demonstrate compliance progress is now triggered
only where a State’s compliance schedule stretches
more than two years from when its plan was originally
due, as opposed to the one-year period in the prior regulations. See 40 C.F.R. § 60.24a(d).
E.

PETITIONS

FOR

REVIEW

Twelve petitions for review of the ACE Rule were
timely filed in this court and consolidated in this case.
Nos. 19-1140 (lead case), 19-1165, 19-1166, 19-1173,
19-1175, 19-1176, 19-1177, 19-1179, 19-1185, 19-1186,
19-1187, 19-1188. The petitioners fall into three
groups.
The first grouping consists of petitioners who seek
review of the ACE Rule’s conclusion that Section 7411
only permits emission reduction measures that can
be implemented at and applied to the source. Those
petitioners include (i) a coalition of State and municipal governments; (ii) power utilities; (iii) trade associations from the renewable energy industry; and (iv)

App. 46
several public health and environmental advocacy
groups.5
The second grouping is petitioners who challenge
the ACE Rule’s imposition of any emission limits as
unlawful because, in their view, (i) the EPA failed to
make a specific endangerment finding for carbon dioxide emitted from existing power plants; (ii) the EPA’s
regulation of mercury emissions from coal-fired power
plants under Section 7412 precludes the regulation of
greenhouse gas emissions under Section 7411; and (iii)
the EPA should have regulated carbon dioxide from
stationary sources, including power plants, under the
NAAQS program, 42 U.S.C. §§ 7408–7410.
The third petitioner group is the Biogenic CO2 Coalition. They object only to the ACE Rule’s determination that States may not count biomass co-firing as a
method of complying with numerical emission limits.
F.

JURISDICTION

AND

STANDARD

OF

REVIEW

This court has jurisdiction to review these petitions under the Clean Air Act. 42 U.S.C. § 7607(b)(1);
see also Sierra Club v. EPA, 955 F.3d 56, 61 (D.C. Cir.
2020).
We may set aside the ACE Rule if it is “arbitrary,
capricious, an abuse of discretion, or otherwise not
in accordance with law.” 42 U.S.C. § 7607(d)(1)(C),
5

The public health and environmental advocacy groups also
challenge the third prong of the ACE Rule—the new implementing regulations—as arbitrary and capricious.

App. 47
(d)(9)(A); see also Maryland v. EPA, 958 F.3d 1185,
1196 (D.C. Cir. 2020) (“[W]e apply the same standard
of review under the Clean Air Act as we do under the
Administrative Procedure Act.”) (quoting Allied Local
& Reg’l Mfrs. Caucus v. EPA, 215 F.3d 61, 68 (D.C. Cir.
2000)).
II.
A.

SECTION 7411

STATUTORY CONTEXT

In enacting the Clean Air Act, “Congress delegated
to EPA the decision whether and how to regulate carbon-dioxide emissions from powerplants.” American
Elec. Power Co. v. Connecticut (AEP), 564 U.S. 410, 426
(2011). As the Supreme Court has observed, 42 U.S.C.
§ 7411 “speaks directly to” and outlines the framework
for that regulation. Id. at 424 (internal quotation
marks omitted). Specifically, Section 7411 marks out a
pair of distinct regulatory tracks for stationary sources
of air pollutants. See 42 U.S.C. § 7411(a)(2), (6). The
first track applies to new sources, id. § 7411(b), and the
second to existing sources, id. § 7411(d). The statute
calls for federal-state cooperation in regulating existing sources, affording distinct roles to the federal and
state agencies in arriving at what Section 7411 calls
“standards of performance” for the emission of air pollutants. Id. § 7411(a)(1), (c), (d)(1).
The regulatory regimes for new and existing
sources differ in the process by which such standards
are established—and the roles played by the respective
regulatory actors. The Act assigns the EPA the main

App. 48
regulatory role in specifying the new-source pollution
controls: After the EPA determines that a particular
“category of sources * * * causes, or contributes significantly to, air pollution which may reasonably be
anticipated to endanger public health or welfare,”
it publishes regulations establishing standards of
performance for new sources in that category. Id.
§ 7411(b)(1).
The process for regulating existing sources—
which raise distinct concerns about sunk costs and the
health and environmental effects of older processes—
involves more actors and steps. Regulation of a given
category of existing sources is triggered by the same
EPA air-pollution determination as for new sources.
But for existing sources the Act adopts a cooperativefederalism approach that leaves the States discretion
in determining how their State and industry can best
meet quantitative emissions guidelines established by
the EPA. See AEP, 564 U.S. at 424. Under Section
7411(d), the EPA and the States thus have distinct but
complementary roles subject to different procedures
and limitations. See 42 U.S.C. § 7411(a)(1), (d)(1). This
case concerns the mechanics of that cooperative framework for existing sources and, specifically, restrictions
the Agency now claims the statute imposes on regulation of the air pollutants those sources emit.
Two provisions of Section 7411 shape the existingsource framework. Subsection (a)(1) defines a standard
of performance, by reference to the “degree of emission
limitation” that the EPA determines is “achievable,” as:

App. 49
a standard for emissions of air pollutants
which reflects the degree of emission limitation achievable through the application of the
best system of emission reduction which (taking into account the cost of achieving such reduction and any nonair quality health and
environmental impact and energy requirements) the Administrator determines has
been adequately demonstrated.
42 U.S.C. § 7411(a)(1).
Subsection (d)(1), in turn, requires the Administrator to set up a system by which willing States can
submit to the EPA “a plan which [ ] establishes standards of performance for any existing source.” 42 U.S.C.
§ 7411(d)(1). Only “where [a] State fails to submit a
satisfactory plan” may the EPA step in and directly
promulgate standards of performance for existing
sources. Id. § 7411(d)(2).
Putting these two provisions together results in
what are best understood as three distinct steps involving three sets of actors, each exercising a degree of
leeway in choice of control measures. See ACE Rule, 84
Fed. Reg. at 32,533, 32,549–32,550; Clean Power Plan,
80 Fed. Reg. at 64,665–64,666.
First, under subsection (a)(1), the EPA determines
the “best system of emission reduction” that is “adequately demonstrated,” taking into consideration certain enumerated statutory criteria: cost, any nonair
quality health and environmental impacts, and energy
requirements. 42 U.S.C. § 7411(a)(1). The Agency then

App. 50
issues emission guidelines that quantify the “degree of
emission limitation achievable through the application
of the best system” it has identified. Id.; 40 C.F.R.
§ 60.22a; see AEP, 564 U.S. at 424; EPA Br. 21–22; ACE
Rule, 84 Fed. Reg. at 32,523, 32,551.
Second, under subsection (d)(1), States issue
standards of performance for existing sources that
comply with the EPA’s emission guidelines and “reflect” the achievable degree of emission limitation set
in those guidelines. AEP, 564 U.S. at 424; 42 U.S.C.
§ 7411(d)(1); 40 C.F.R. § 60.23a; see also Clean Power
Plan, 80 Fed. Reg. at 64,666. That the standards must
“reflect” the emission guidelines does not mean that
they must embody the methods EPA contemplated in
identifying the best system; rather, the States have
flexibility in determining the specifics of the standards
they issue so long as they accomplish the “degree of
emission limitation” the EPA calculated based on its
“best system.”
Third, the operators of regulated stationary
sources implement measures to ensure they will in
practice comply with the standards of performance
their state agency has established for them. See ACE
Rule, 84 Fed. Reg. at 32,555. States often grant regulated entities some discretion in how they meet those
standards. See, e.g., N.Y. COMP. CODES R. & REGS. Tit. 6
§ 201-6.4(f ) (2013) (describing the “operational flexibility” afforded to Title V facility owners in New York
State to “propose a range of operating conditions that
will allow flexibility [for a facility] to operate under
more than one operating scenario”).

App. 51
The issue before us arises at the first step—the
EPA’s determination of the best system of emission reduction. In the Clean Power Plan, the Agency determined that the best system was one that both
improved the heat rate at power plants and prioritized
generation from lower-emitting plants ahead of highemitting plants. Clean Power Plan, 80 Fed. Reg. at
64,707. The EPA then calculated specific emission reductions achievable through application of that best
system that it published as emission guidelines for
States. Id. Had the Clean Power Plan gone into effect,
States would then have submitted to the EPA plans
based on the Agency’s guidelines that established
standards of performance for sources in their jurisdictions, as provided for in subsection (d)(1). The Clean
Power Plan left States flexibility in the measures they
included in their plans, so long as they achieved a reduction in emissions at least as great as that achieved
by EPA-established quantitative guidelines. See, e.g.,
id. at 64,665, 64,756–64,757, 64,734–64,737, 64,832–
64,837. And it further allowed States, at their option,
to give leeway to sources to select alternate compliance
measures to make the requisite reductions. See id. at
64,834–64,835.
Based on what it now perceives to be an express
and unambiguous textual limitation in Section 7411
that it says the Clean Power Plan overlooked, the EPA
repealed that Plan and replaced it with the ACE Rule.
The EPA’s new reading of the statute requires the
Agency, in modeling its “best system of emission reduction,” to consider only emission-reduction measures

App. 52
that “can be applied at and to a stationary source.”
ACE Rule, 84 Fed. Reg. at 32,534; see also id. at
32,526–32,532.
We address below the EPA’s arguments regarding
how the text and structure of Section 7411 purportedly
support this limitation. That discussion is necessarily
somewhat abstract and technical. So, for starters, it is
worth bringing the matter more concretely into view.
Consider the effect the EPA’s new statutory interpretation had on its resulting Rule. First, because generation shifting is not, in the EPA’s view, a measure
that can be applied “at and to” any one individual
source, the ACE Rule limits the best system of emission reduction to heat-rate improvements alone. 84
Fed. Reg. at 32,534–32,535. Then, instead of publishing
emission guidelines quantifying emission reductions
achievable through application of the best system, the
ACE Rule identifies what the Agency has determined
are the most effective heat-rate technologies available and a potential range of heat-rate improvements
achievable through application of each of those technologies. Id. 32,535–32,537.
As under the Clean Power Plan, the ACE Rule
grants States flexibility in establishing standards of
performance for sources pursuant to the Agency’s
emission guidelines. Unlike the Clean Power Plan,
however, the ACE Rule does not require that the States
reach any specified minimum emission reduction. Instead, States must merely “evaluate the applicability
of each of the candidate technologies” to sources within

App. 53
their jurisdiction and report their conclusions back to
the Agency. ACE Rule, 84 Fed. Reg. at 32,550, 32,538–
32,561.
The Rule recites that regulated entities have
“broad discretion” in meeting state-established standards, ACE Rule, 84 Fed. Reg. at 32,555, yet at the same
time the Rule deems impermissible any compliance
measure that cannot be applied at and to the source,
id. The ACE Rule thereby disqualifies compliance by,
for example, burning biofuel, id. at 32,557–32,558,
which emits recently captured carbon dioxide, in contrast to fossil fuels’ release of carbon dioxide stored
away millions of years ago. See generally Center for Biological Diversity v. EPA, 722 F.3d 401, 405–406 (D.C.
Cir. 2013).
The question here is a relatively discrete one. We
are not called upon to decide whether the approach of
the ACE Rule is a permissible reading of the statute as
a matter of agency discretion. Instead, the sole ground
on which the EPA defends its abandonment of the
Clean Power Plan in favor of the ACE Rule is that the
text of Section 7411 is clear and unambiguous in constraining the EPA to use only improvements at and to
existing sources in its best system of emission reduction.
The EPA contends that its current interpretation
is “the only permissible interpretation of the scope of
the EPA’s authority.” ACE Rule, 84 Fed. Reg. at 32,535.
Our task is to assess whether Section 7411 in fact
compels the EPA’s new interpretation. And because

App. 54
“deference to an agency’s interpretation of a statute is
not appropriate when the agency wrongly believes that
interpretation is compelled by Congress,” Peter Pan
Bus Lines, Inc. v. Fed. Motor Carrier Safety Admin., 471
F.3d 1350, 1354 (D.C. Cir. 2006) (quoting PDK Labs.,
Inc. v. DEA, 362 F.3d 786, 798 (D.C. Cir. 2004) (internal
quotation marks omitted)), we may not defer to the
EPA’s reading if it is but one of several permissible interpretations of the statutory language, see Negusie v.
Holder, 555 U.S. 511, 521 (2009). That is, the “regulation must be declared invalid, even though the agency
might be able to adopt the regulation in the exercise of
its discretion, if it ‘was not based on the agency’s own
judgment but rather on the unjustified assumption
that it was Congress’ judgment that such a regulation
is desirable” or required. Prill v. NLRB, 755 F.2d 941,
948 (D.C. Cir. 1985) (quoting FCC v. RCA Commc’ns,
346 U.S. 86, 96 (1953) (formatting modified)); accord
Arizona v. Thompson, 281 F.3d 248, 259 (D.C. Cir. 2002)
(quoting Prill, 755 F.2d at 948).
For the reasons explained below, Section 7411 does
not, as the EPA claims, constrain the Agency to identifying a best system of emission reduction consisting
only of controls “that can be applied at and to a stationary source.” ACE Rule, 84 Fed. Reg. at 32,534. The EPA
here “failed to rely on its own judgment and expertise,
and instead based its decision on an erroneous view of
the law.” Prill, 755 F.2d at 956. We accordingly must
vacate and remand to the Agency “to interpret the statutory language anew.” Peter Pan Bus Lines, 471 F.3d at
1354.

App. 55
1.

Text

As just noted, Section 7411 contemplates distinct
roles for the EPA and the States in regulating existing
stationary sources. See 42 U. S.C. § 7411(a)(1) (granting authority to the EPA to designate the best system
and determine achievable degree of emissions reduction); id. § 7411(d)(1) (outlining the States’ role in
setting standards of performance for their sources).
Nevertheless, the EPA now contends that language in
Section 7411(a)(1) and (d)(1) “unambiguously limits
the [best system of emission reduction] to those systems that can be put into operation at a building, structure, facility, or installation.” ACE Rule, 84 Fed. Reg. at
32,524 (emphasis in original); see id. at 32,528; EPA Br.
70.
In the Agency’s current view, the only pollutioncontrol methods the Administrator can consider in selecting the “best system of emission reduction” within
the meaning of Section 7411(a) are add-ons or retrofits confined to the level of the individual fossil-fuelfired power plant. ACE Rule, 84 Fed. Reg. at 32,524.
That is so even though the record before the EPA
shows that generation shifting to prioritize use of the
cleanest sources of power is one of the most costeffective means of reducing emissions that plants have
already adopted and that have been demonstrated to
work, and that generation shifting is capable of achieving far more emission reduction than controls physically confined to the source. See, e.g., Clean Power Plan,
80 Fed. Reg. at 64,693, 64,728–64,729; 2 J.A. 598; Grid
Experts Amicus Br. 13–16. In other words, the EPA

App. 56
reads the statute to require the Agency to turn its back
on major elements of the systems that the power sector
is actually and successfully using to efficiently and
cost-effectively achieve the greatest emission reductions. See Grid Experts Amicus Br. 22 (observing that
the ACE Rule “imposes greater abatement costs on industry than other approaches would to achieve the
same effect”).
The Clean Power Plan could not stand, the EPA
now concludes, because its consideration of generation
shifting exceeded the Agency’s narrow authority under
Section 7411’s plain text. ACE Rule, 84 Fed. Reg. at
32,526-32,527. In promulgating the Clean Power Plan,
the EPA read “system of emission reduction” to mean
“a set of measures that work together to reduce emissions and that are implementable by the sources themselves.” Clean Power Plan, 80 Fed. Reg. at 64,762. And
it concluded that both heat-rate improvements and
generation shifting “are components of a best system
of emission reduction for the affected [electricity generating units] because they entail actions that the affected [units] may themselves undertake that have the
effect of reducing their emissions.” Id. at 64,709 (internal quotation marks omitted).
All of that is wrong, the EPA has since decided.
“[T]he Agency now recognizes that Congress’ spoke
to the precise question’ of the scope of U.S.C.
§ 7411](a)(1) and clearly precluded the unsupportable
reading of that provision asserted in the [Clean Power
Plan].” ACE Rule, 84 Fed. Reg. at 32,527. The EPA

App. 57
insists that its current reading is mandated by the
statutory text.
It is the EPA’s current position that is wrong.
Nothing in Section 7411(a)(1) itself dictates the “at and
to the source” constraint on permissible ingredients of
a “best system” that the Agency now endorses. For the
EPA to prevail, its reading must be required by the
statutory text. Peter Pan Bus Lines, 471 F.3d at 1354.
It fails for at least three reasons, any of which is alone
fatal.
First, the plain language of Section 7411(a)(1), the
root of the EPA’s authority to determine the best system, announces its own limitations. Those limitations
simply do not include the source-specific caveat that
the EPA now interposes and casts as unambiguous.
Second, there is no basis—grammatical, contextual, or otherwise—for the EPA’s assertion that the
source-specific language of subsection (d)(1) must be
read upstream into subsection (a)(1) to equate the
EPA’s “application of the best system” with the controls
States eventually will apply “at and to” an individual
source. As the EPA at times acknowledges, the two
subsections address distinct steps in the regulatory
process, one focused on the EPA’s role and the other
focused on the States’. Any question as to which limitations pertain to each regulatory actor cannot reasonably be said to have been resolved by Congress in
favor of the unambiguous meaning the EPA now advocates.

App. 58
Third, even if subsections (a)(1) and (d)(1) were
read together in the way the EPA proposes, they would
not confine the EPA to designating a best system consisting of at-the-source controls. The EPA’s entire theory hinges on the Agency’s unexplained replacement
of the preposition “for” in “standards of performance
for any existing source” with the prepositions “at” and
“to.” Yet the statutory text calls for standards of performance “for” existing sources. Emission-reduction
measures “for” sources may readily be understood to go
beyond those that apply physically “at” and “to” the individual source. Emissions trading, for example, might
be a way “for” a source to meet a standard of performance.
The shortcomings of its statutory interpretation
are more than enough to doom the Agency’s claim that
Section 7411 announces an unambiguous limit on the
best system of emission reduction. The issue is not
whether the EPA’s counterarguments to each of these
points might show its interpretation to be permissible
as an exercise of discretion. Again, the EPA has not
claimed to be exercising any such discretion here. It insists instead that the unambiguous terms of the statute tie its hands.
After reviewing what Section 7411 clearly says
about the nature and limits of the “best system of emission reduction” that Congress called on the EPA to determine, we take up each of the EPA’s arguments to
show why Section 7411 does not unambiguously support its at-the-source restriction.

App. 59
a.

Section 7411(a) Defines the Best System

The EPA acknowledges, as it must, that Section
7411(a) is the source of the EPA’s authority and responsibility to determine the best system of emission
reduction for existing sources and set corresponding
emission guidelines. See, e.g., ACE Rule, 84 Fed Reg. at
32,534. Indeed, that is the only subsection in which
the term “best system of emission reduction” appears.
But the EPA offers no reading of subsection (a)(1) itself.
Section 7411(a)(1) expresses Congress’ expectation that the EPA will study all “adequately demonstrated” means of emission reduction. And it directs
the EPA to draw on “adequately demonstrated” methods to determine the “best” system to reduce emissions.
Congress imposed no limits on the types of measures
the EPA may consider beyond three additional criteria:
cost, any nonair quality health and environmental impacts, and energy requirements. 42 U.S.C. § 7411(a)(1).
Congress largely called on the expert judgment of the
EPA to determine for a particular source category and
pollutant which already-demonstrated methods compose the “best system.”
Because it did not set out separate definitions for
either “system” or “best,” those words take their ordinary meanings. See Sandifer v. United States Steel
Corp., 571 U.S. 220, 227 (2014). Webster’s Dictionary
offers a representative definition of “system” contemporaneous with the Act’s adoption: “[A] complex unity
formed of many often diverse parts subject to a

App. 60
common plan or serving a common purpose.” System,
WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY OF
THE ENGLISH LANGUAGE UNABRIDGED 2322 (2d ed.
1968). The superlative “best” as applied to a “system of
emission reduction” plainly places a high priority on
efficiently and effectively reducing emissions. See Best,
Merriam-Webster, https://www.merriam-webster.com/
dictionary/best (last visited Jan. 11, 2021) (“excelling
all others,” “offering or producing the greatest advantage, utility, or satisfaction”).
The ordinary meanings of these terms “reflect[ ] an
intentional effort to confer the flexibility necessary” for
effective regulation appropriate to the context. Massachusetts v. EPA, 549 U.S. 497, 532 (2007). As the Supreme Court has acknowledged, “the degree of agency
discretion that is acceptable varies according to the
scope of the power congressionally conferred.” Whitman v. American Trucking Ass’n, 531 U.S. 457, 475
(2001); see Gaughf Props., L.P. v. Commissioner, 738
F.3d 415, 424–425 (D.C. Cir. 2013); Sabre, Inc. v. Department of Transp., 429 F.3d 1113, 1122, 1124–1125
(D.C. Cir. 2005). Congress in Section 7411 deliberately charged the EPA with identifying the best system of emission reduction to keep pace with escalating
threats to air quality, and, within expressed limits, empowered it to make the judgments how best to do so.
The Agency simply ignores how the statutory text
defines the “best system of emission reduction,” asserting instead that definitional language does not confer
regulatory authority. See, e.g., EPA Br. 58–59 (“[I]t is
not Section 7411(a) (‘Definitions’) that grants the

App. 61
agency authority to act.”). Section 7411(a)(1)’s designation as a definitional provision deprives it of
standalone meaning, the EPA contends. The EPA instead reads it as “subsidiary” to Section 7411(d), regarding state standards of performance for existing
sources. EPA Br. 58. But Congress does indeed use definitional provisions to confer regulatory authority. See,
e.g., Weinberger v. Bentex Pharm, Inc., 412 U.S. 645,
652-653 (1973) (holding that the statutory definition of
“new drug” confers authority upon the FDA). That is
precisely what it did in Section 7411(a)(1). See Sierra
Club v. Costle, 657 F.2d 298, 321 (D.C. Cir. 1981) (describing Section 7411(a)(1) as authorizing the EPA to
determine the best system of emission reduction and
regulate accordingly); 40 C.F.R. 60.22a.
The EPA offers no support—apart from its own
newfound version of “statutory interpretation 101,”
EPA Br. 65—for ignoring how the Act itself defines and
limits the “best system” determination. Nor does it offer any sound justification for importing language from
a different provision governing States’ “standards of
performance.” The EPA’s “at and to the source” limitation on “best system” finds no footing in the text of Section 7411(a)(1).
b. Section 7411(d)(1)
Does Not Change the Definition
Even taking the EPA’s argument on its own terms
does not work because Section 7411(d)(1)’s text and
statutory context get it no further. To support its

App. 62
narrow reading of the EPA’s authority to determine
the “best system,” the Agency focuses on the phrase
“through the application of ” in Section 7411(a)(1). That
provision defines a “standard of performance” as an
emission standard that “reflects the degree of emission
limitation achievable through the application of the
best system of emission reduction[.]” The EPA says the
“application” phrase “requires both a direct object and
an indirect object.” ACE Rule, 84 Fed. Reg. at 32,524;
accord EPA Br. 66–68. And, it continues, Congress cannot have meant to leave its indirect object undefined.
The EPA says that, grammatically speaking, someone
must apply something (the direct object) to something
else (the indirect object). EPA Br. 115–116, 118–119. It
then picks its preferred, narrow indirect object from a
different statutory subsection and casts that object as
the only statutorily permissible choice. See 84 Fed Reg.
at 32,524.
The EPA locates an indirect object in Section
7411(d). Unlike subsection (a)(1), subsection (d)—entitled “Standards of performance for existing sources”—
explicates an indirect object. 42 U.S.C. § 7411(d). Borrowing from subsection (d), then, the EPA imports into
subsection (a)(1) a limitation of the “best system of
emission reduction” to measures that can be applied
“to and at an individual existing source—i.e., any
building or facility subject to regulation.” EPA Br. 58
(emphasis added); see also ACE Rule, 84 Fed. Reg. at
32,534.
But the language to which the EPA points supplies
the indirect object only of “standards of performance”

App. 63
adopted by States pursuant to Section 7411(d)(1), not
of the EPA’s “best system of emission reduction” determined pursuant to Section 7411(a)(1). The latter
phrase does not even appear in Section 7411(d)(1). To
reach its preferred result, the Agency invokes surmise
rather than statutory text. It insists that the limitations on States’ standards of performance in Section
7411(d)(1)—the second step in the regulatory process—must be read upstream to limit the EPA’s “best
system of emission reduction” in subsection (a)(1).
Nothing in the statute so requires.
In the text, States’ standards of performance need
only “reflect” the emission guidelines (or “degree of
emission limitation achievable”) the EPA calculates
based on the “best system of emission reduction” it determines. As laid out in the statute and explained
above, those state-developed “standards of performance” follow on but are legally and functionally distinct from the “best system” that the EPA develops. The
EPA is simply wrong that the statute clearly and unambiguously requires that the unstated indirect object
of “application of the best system of emission reduction” under Section 7411(a)(1) must be the same as the
indirect object of States’ standards of performance as
stated in Section 7411(d)(1).
Neither does the grammatical rule the EPA invokes to bridge the gap between these subsections hold
up. The crux of the EPA’s textual argument is that “the
verb ‘to apply,’ requires both a direct object and an
indirect object.” ACE Rule, 84 Fed. Reg. at 32,524;
EPA Br. 66–68. The first obvious problem is that, in

App. 64
the relevant passage of Section 7411(a)(1), Congress
did not use the verb “apply,” but rather the noun “application.” The EPA acknowledges this distinction in
passing in the ACE Rule, but dismisses it without discussion, offering only that “ ‘application’ is derived
from the verb ‘to apply[.]’ ” 84 Fed. Reg. at 32,524. That
is, of course, true, as far as it goes. The phrase “application of the best system of emission reduction” is what
is called a nominalization, a “result of forming a noun
or noun phrase from a clause or a verb.” Nominalization, Merriam-Webster Dictionary https://www.merriamwebster.com/dictionary/nominalization (last visited Jan.
11, 2021). Grammar assigns direct or indirect objects
only to verbs—not nouns. No objects are needed to
grammatically complete the actual statutory phrase.
So much for the grammatical imperative.
Even if we were to take the EPA’s leap to the verb
“apply” from the noun “application” that actually appears in the statute, the Agency comes up short. The
EPA is incorrect to insist that the verb “apply” requires
an indirect object. There is nothing ungrammatical
about the sentence “In its effort to reduce emissions,
the EPA applied the best system of emission reduction.” The verb “apply,” like its nominalization, may
properly be used in a sentence with or without an explicit indirect object. See Apply, THOMAS HERBST ET AL.,
A VALENCY DICTIONARY OF ENGLISH 41–42 (Ian F. Roe
et al. eds., 2004) (listing examples of grammatically

App. 65
correct uses with and without direct and indirect objects).6
The EPA’s shift from nominalization to verb does
not, in any event, accomplish much. Either way, the
lack of an explicit indirect object in Section 7411(a)(1)
does not require that one be borrowed from Section
7411(d)(1). Equally logical indirect objects include, for
example, the entire category of stationary sources, or
the air pollutant to be limited. In any event, the best
system cannot reasonably be said to be unambiguously applicable only to the indirect object the EPA
suggests.
The EPA faults the Clean Power Plan for reading
“application of to be functionally equivalent to “implementation of,” because “implement” “does not require
an indirect object.” EPA Br. 73. But neither does “application.” So “application” textually supports adoption
of the Clean Power Plan just as well as “implementation.” Again, so much for grammar mandating the
EPA’s result.

6

Take, for instance, the following sentences: “It appears to
violate GATT regulations, but the rules for applying the regulations are vague and the Netherlands has so far escaped censure”;
“This information may not apply in Scotland, which has a different legal system.” Apply, THOMAS HERBST ET AL., A VALENCY DICTIONARY OF ENGLISH 41–42 (examples from sections D1 and D5).
Additional examples abound. See, e.g., Apply, OXFORD ENGLISH
DICTIONARY (3d ed. 2008) (def. I.9) (“Crest bought the firm[,] and,
by applying its marketing and distribution muscle, has turned it
into a $200 million category killer.”).

App. 66
The argument fails either way, but the fact is that
Congress used the nominalization “application of the
best system of emission reduction. A nominalization
enables the drafter to leave certain information unspecified—namely, who is acting and where their action is directed. See, e.g., George D. Gopen, Who Done
It? Controlling Agency in Legal Writing, Part II, 39
LITIG. 12, 12–13 (Spring 2013) (describing how nominalizations create ambiguity). Legal writers, including
Congress, employ nominalizations all the time. And
they do so with the full awareness that their use preserves flexibility.
Congress reasonably built in leeway for the EPA
to exercise technical expertise in applying Section
7411, given the variety of pollution problems that it
covers and the importance of allowing States maneuvering room under the cooperative federalism scheme.
Congress may avoid specifying subjects, objects, or
other grammatical information because a degree of
adaptability suits the statutory role and purpose. One
way Congress can denote that it has delegated to an
agency’s judgment the task of filling in the on-theground details of a statutorily defined program is
by declining to dictate grammatically optional information, see Lehrfeld v. Richardson, 132 F.3d 1463,
1465–1466 (D.C. Cir. 1998); Appalachian Power Co. v.
EPA, 135 F.3d 791, 808–810 (D.C. Cir. 1998), including
an indirect object that the rules of grammar do not require be explicitly stated, see, e.g., Peter Pan Bus Lines,
471 F.3d at 1353–1354.

App. 67
Even if an implicit indirect object can be surmised,
there is more than one plausible candidate here, and
the statute does not unambiguously dictate the object. There certainly is no rule—grammatical or otherwise—that the specific indirect object must be the one
to which the EPA now points. At the least, other contextually appropriate indirect objects of the “best system” include the source category or the emissions. The
EPA has failed to establish that the sole and unambiguous indirect object must be the individual source. The
EPA, of course, “may fill the gap[s] the Congress left,”
and any such “regulation is entitled to deference.”
Gaughf Props., 738 F.3d at 424; see also Appalachian
Power, 135 F.3d at 811–812. But in the ACE Rule and
in its briefing here, the EPA has assiduously denied the
existence of any gap at all. That was error.
c.

EPA’s Reading Itself Falls Short

The third and equally fatal flaw in the EPA’s textual analysis is its unexplained substitution of the
prepositions “at” and “to” where the text it would have
us borrow from subsection (d)(1) actually says “for” in
referencing “standards of performance for any existing
source.” See, e.g., ACE Rule, 84 Fed. Reg. at 32,534. As
we do with any words enacted by Congress, we must
give effect to the preposition it chose. Cf. Telecommunications Res. & Action Ctr. v. FCC, 801 F.2d 501, 517–
518 (D.C. Cir. 1986) (finding decisive Congress’ use of
the preposition “under” instead of “by”). The word Congress actually used—“for” the source—lacks the sitespecific connotation on which the EPA’s case depends.

App. 68
In its brief, the EPA presents the compound construction it says inexorably follows from reading text
from subsection (a)(1) together with text from subsection (d)(1), and says it is restricted to determining a
“best system of emission reduction for any building,
structure, facility, or installation.” EPA Br. 56 (formatting modified) (quoting 42 U.S.C. § 7411(a)(1), (a)(3),
(a)(6), (d)(1)). The Agency then asserts that “the natural reading” of its proffered construction is that “the
methods planned would be ‘for’ and act at the level of
the singular, individual source.” Id. at 62 (emphasis
added).
In the preamble to the ACE Rule, the EPA went
further, fully substituting the prepositions “at” and “to”
in place of the preposition “for” that actually appears
in the text the Agency says must be borrowed from subsection (d)(1). ACE Rule, 84 Fed. Reg. at 32,534. It relies on that further substitution to insist that the best
system of emission reduction designated by the EPA
must be limited to controls “that can be applied at and
to,” not “for,” “a stationary source.” Id.; see also id. at
32,524 (“at”); id. at 32,532, 32,534, 32,556 (“at and to”);
id. at 32,555, 32,529 (“to and at”); id. at 32,543 (“at or
to”); id. at 32,526 n.65 (“to or at”); EPA Br. 4, 58, 74.
But nowhere in the ACE Rule does the EPA explain
this swap of one preposition for two meaningfully more
restrictive ones. See, e.g., 84 Fed. Reg. at 32,523–
32,524, 32,534–32,535.
The EPA rewrites rather than reads the plain statutory text. Section 7411(a)(1), even if cross-referenced
to subsection (d)(1) in the way the EPA says it must be,

App. 69
calls for the Agency to determine “the degree of emission limitation achievable through the application of
the best system of emission reduction for any existing
source”—not the application of the best system “at”
and “to” such a source. And the word “for” lacks the
physical on-site connotation that is so critical to the
EPA’s reading of the statutory text. Indeed, a standard
of performance or system of emission reduction “for” a
source just means that the system is “with regard or
respect to” or “concerning” the source. See For, OXFORD
ENGLISH DICTIONARY (2d ed. 1989) (def. 26). In contrast,
“at” and “to” tend to connote direct physical proximity
or contact. See At, OXFORD ENGLISH DICTIONARY (3d ed.
2008) (def. 1.a) (“usually determining a point or object
with which a thing or attribute is practically in contact”); To, OXFORD ENGLISH DICTIONARY (3d. ed 2008)
(def. 5.a) (“Into (or in) contact with; on, against”). A best
system “for” a source thus might entail a broader array
of controls that concern but are not immediately physically proximate to the source—such as, for instance,
generation shifting.
***
In sum, the straitened vision of the EPA’s best
system that the Agency espies in Section 7411 is
simply not supported by the text, let alone plainly and
unambiguously required by it. The Act calls on the EPA
to determine the degree of emission limitation achievable through “application of the best system of emission reduction” without specifying the system’s indirect
object, and uses the preposition “for” when it calls
on the States to develop “standards of performance

App. 70
for existing sources.” 42 U.S.C. § 7411(a), (d). It simply
does not unambiguously bar a system of emission reduction that includes generation shifting.
The EPA’s position depends critically on words
that are not there. It erroneously treats a nominalization of a verb as requiring an indirect object, collapses
two separate functions and provisions of the Act in order to supply a borrowed indirect object, does so without any evidence that the borrowed indirect object was
what Congress necessarily intended, and narrowly focuses the Agency’s authority on that indirect object by
using a different preposition from the one that actually
appears in the borrowed text. Each of those interpretive moves was a misstep. Read faithfully, Section
7411(a)(1) lacks the straitjacket that the EPA imposes.
Policy priorities may change from one administration to the next, but statutory text changes only when
it is amended. The EPA’s tortured series of misreadings of Section 7411 cannot unambiguously foreclose
the authority Congress conferred. The EPA has ample
discretion in carrying out its mandate. But it may not
shirk its responsibility by imagining new limitations
that the plain language of the statute does not clearly
require.
2.

Statutory History, Structure, and Purpose

Even looking beyond the text does nothing to substantiate the EPA’s proposed reading of Section 7411.
See Kiewit Power Constructors Co. v. Secretary of Labor, 959 F.3d 381, 395 (D.C. Cir. 2020) (Henderson, J.)

App. 71
(“To discern the Congress’s intent, we generally examine the statutory text, structure, purpose and its legislative history.”) (quoting Lindeen v. SEC, 825 F.3d
646, 653 (D.C. Cir. 2016)). These other tools of statutory
interpretation underscore the flexibility of Section
7411(a)’s text, not the cabined reading the EPA proposes.
We begin by acknowledging Section 7411’s role
within the Clean Air Act. It is a catch-all, intended to
ensure that the Act achieves comprehensive pollution
control by guaranteeing that there are “no gaps in control activities pertaining to stationary source emissions that pose any significant danger to public health
or welfare.” S. REP. NO. 91-1196, at 20 (1970). In other
words, Section 7411 is intended to reach pollutants
that do not fit squarely within the ambit of the Act’s
other regulatory provisions. It authorizes regulation of
pollutants not controlled by the other programs under
the Act. The EPA does not contest that greenhouse
gases emitted by powerplants fit that description.
The Agency points to statutory structure and history for evidence that Congress restricted the “best
system of emission reduction” under Section 7411(a) to
physical controls that are applied “at and to” an existing source. But the history and structure only confirm
what the text shows: Nothing the EPA has identified
suggests that Congress in Section 7411 meant to so
constrict what might be part of a “best system of emission reduction.”

App. 72
The Congress that enacted Section 7411 was well
aware that what a “best system” might comprise is
necessarily dynamic and evolving. Congress’ main
limitation was that the “best system” selected by the
EPA must be “adequately demonstrated.” 42 U.S.C.
§ 7411(a)(1). And it stated three other key criteria—
cost, nonair quality health and environmental impact,
and energy requirements—as factors the EPA must
take into account. See id. With those parameters in
place, Congress largely left the identification of the
best system of emission reduction to the Agency’s expert scientific judgment.
Consider cues from the Clean Air Act as a whole.
In contrast to other systemic benchmarks in the Act,
Section 7411(a)(1)’s prescription of the “best system of
emission reduction” is striking for its paucity of restrictive language. References to more specific categories of emission-reduction tools appear elsewhere in
the Act. A provision governing the Nitrogen Oxides
Emissions Reduction Program, for example, directs the
Administrator to establish limits based on the “degree
of reduction achievable through the retrofit application of the best system of continuous emission reduction, taking into account available technology[.]” 42
U.S.C. § 7651f(b)(2) (emphasis added). The Act’s regional haze program is likewise specific in its call
for use of the “best available retrofit technology.” Id.
§ 7491(b)(2)(A), (g)(2). The specificity of those other
provisions highlights the comparative generality of
Section 7411(a)’s reference to the “best system of emission reduction.”

App. 73
The sole provision the EPA highlights to shore up
its at-the-source theory only further undermines it.
The EPA points to the Act’s Prevention of Significant
Deterioration (PSD) program, 42 U.S.C. § 7475, and its
requirement of controls at least as stringent as limits
set under Section 7411, see id. § 7479(3), to argue that
that “the interrelationship between the two types of
standards”—the best system of emission reduction and
the best available control technology—“is only intelligible if the standards are in pari materia.” EPA Br. 85.
But the distinct roles of the two provisions make clear
that the limits in Section 7475 have no place in Section
7411(a)(1).
To qualify for a permit under the PSD program
before a source may be built or modified, an applicant must affirm that it will apply to each source
the “best available control technology,” or BACT, to
limit its emissions. 42 U.S.C. § 7475(a)(4). The statute
defines BACT as the degree of control that the permitting agency “determines is achievable for such
[major emitting] facility through application of production processes and available methods, systems,
and techniques, including fuel cleaning, clean fuels, or
treatment or innovative fuel combustion techniques[.]”
Id. § 7479(3). The statute further provides that BACT
cannot “result in emissions of any pollutants which
will exceed the emissions allowed by any applicable
standard established pursuant to [S]ection 7411 or
7412 of this title.” Id. § 7479(3). The listed BACT options, EPA observes, are all physically applicable to the
source unit. EPA Br. 85.

App. 74
But the EPA ignores a critical detail: The BACT
requirement applies only to newly constructed or modified sources. See Alaska Dep’t of Env’t Conservation v.
EPA, 540 U.S. 461, 472 (2004) (describing 42 U.S.C.
§ 7475). Any standard established under Section 7411
and also “applicable,” per the statutory cross-reference,
to a facility regulated for prevention of significant deterioration under Section 7475 would be a standard for
new or modified sources established pursuant to Section 7411(b). The BACT requirement does not apply to
the existing sources covered by the provision at issue
here, Section 7411(d). See New York v. EPA, 413 F.3d 3,
13 (D.C. Cir. 2005). Even if Section 7475 tracks Section
7411(b), there is simply no conflict between, on one
hand, requiring new source construction to employ the
newest and best at-the-source control technologies
and, on the other, empowering the EPA to look to a
wider range of ways to reduce emissions when it regulates older, existing sources.
The anomaly of looking to Section 7475(a)(4) to
confine Section 7411 is highlighted by the fact that
BACT permits are required only in so-called “attainment” areas of the country. See 42 U.S.C. §§ 7407, 7472,
7474. We are unpersuaded that Congress buried a
limit on the EPA’s Section 7411 authority to address
pollution from existing sources throughout the Nation
by making reference to a floor for certain new facilities
in certain parts of the country.
The statutory history of the BACT requirement
further demonstrates that Congress did not intend
that it weaken Section 7411(d). Sections 7475 and 7479

App. 75
were enacted in the 1977 Clean Air Amendments, Pub.
L. No. 95-95, §§ 165, 169, 91 Stat. 685, 735-742 (Aug. 7,
1977). In the very same legislation, Congress restricted
the best system of emission reduction for new sources
to technological methods while explicitly allowing the
best system for existing sources to include non-technological methods. § 109(c)(1)(A), 91 Stat. at 700. If Congress wanted to confine Section 7411 to at-the-source
technologies, it would have done so directly rather
than hiding such a substantial limitation in an implicit
inference from a more remote statutory provision.
The Clean Air Act’s legislative history, including
the history of the 1970 enactment of Section 7411 and
the 1977 and 1990 amendments, further shows that
Congress never imposed on the “best system of emissions reduction” the constraints the EPA now advocates. Before Congress settled on the best-system
language it enacted in 1970, the Senate bill proposed
to authorize the EPA to set standards for stationary
sources “reflect[ing] the greatest degree of emission
control” achievable through “the latest available control technology, processes, operating methods, or
other alternatives.” S. 4358, 91st Cong. § 6 (1970).
The phrase “other alternatives” was understood to encompass “[t]he maximum use of available means of
preventing and controlling air pollution”—without
limitation to technological or at-the-source means. S.
REP. NO. 91-1196, at 16. The Senate believed that was
“essential” to limit emissions from both new and existing sources. Id. The House, for its part, proposed
an initial version of Section 7411 that would have

App. 76
“require[d] new sources to ‘prevent and control [their]
emissions to the fullest extent compatible with the
available technology and economic feasibility,’ ” H.R.
17255, 91st Cong. § 5 (1970), but included no provision
regarding the regulation of existing sources.
As enacted, Section 7411 simply requires that the
EPA identify as its benchmark for existing sources
the “best system of emission reduction.” 42 U.S.C.
§ 7411(a)(1). Nothing that the EPA identifies or that
we discern in the relevant history shows the enacting
Congress myopically “focused on steps that can be
taken at and by individual sources to reduce emissions.” EPA Br. 69. And of course, even if Congress at
that time was only thinking of at-the-source controls,
the EPA was well aware that environmental problems
and their solutions rapidly evolve. At the end of the
day, it is the statutory text that governs. See Bostock v.
Clayton County, 140 S. Ct. 1731, 1738 (2020).
Congress has consistently relied on the EPA’s expert judgment in identifying the “best system” for existing sources. Its action in making, and then undoing,
a limiting amendment to Section 7411’s “best system
of emission reduction” just for new and modified
sources—not existing sources—underscores the point.
First, Congress in 1977 amended the standard for
new sources to require use of “the best technological
system of continuous emission reduction,” but did not
make any parallel change to the standard for existing
sources to add those “technological” and “continuous”
limitations. Clean Air Amendments Act of 1977, Pub.
L. No. 95-95, § 109(c)(1)(A), 91 Stat. 685; see also id. at

App. 77
700 (adding Section 7411(a)(1)(C)). Then, in 1990, Congress again amended Section 7411, this time to remove those additional limitations, reverting for new
sources to the “best system of emission reduction” that
had applied all along to existing sources. Clean Air Act
Amendments of 1990, Pub. L. No. 101-549, § 403(a),
104 Stat. 2399, 2631 (1990).
The amendment and re-amendment of the newsource “best system” language emphasizes that Congress consistently avoided imposing any such technological, at-the-source limitation on the measures that
EPA might include in the “best system” for reducing emissions from existing-source categories. And it
shows that Congress had always understood the existing-source “best system” language to go beyond the
technological restrictions that it briefly imposed on the
parallel new source provision.
The ACE Rule is the first EPA rule to read the
statute as so strictly boxing in the Agency. Although
agency practice cannot directly show whether Congress had a specific intent on the matter in question, it
is notable that the regulators closest to the issue never
before saw what the EPA now insists is obvious on the
face of Section 7411.
Over the last half century, no prior Administrator
read the Act to foreclose from consideration in the “best
system” all but at-the-source means of emission control. Rather, the EPA has exercised latitude to consider
any adequately demonstrated approach to reducing
harmful pollutants from existing source categories

App. 78
that it believed met the cost, grid-reliability and other
statutory criteria. 42 U.S.C. § 7411(a)(1). Where the
characteristics of the source category and the pollutant
at issue point to emissions trading programs or production shifts from higher- to lower-emitting sources
as components of the “best system,” the EPA has in the
past consistently concluded that it had the authority
to consider them.
During the administration of President George W.
Bush, for example, the EPA adopted the Clean Air Mercury Rule, 70 Fed. Reg. 28,606 (May 18, 2005), which
included a mercury cap-and-trade program as a component of its best system of emissions reduction for existing coal-fired power plants, see id. at 28,619–28,620;
id. at 28,617 (“EPA has determined that a cap-andtrade program based on control technology available in
the relevant timeframe is the best system for reducing
[mercury] emissions from existing coal-fired Utility
Units.”).7
The EPA’s Clinton-era regulation of nitrogen oxide
emissions from municipal solid waste combustors likewise relied on Section 7411(d), together with the EPA’s
waste-management authority under Section 7429, to
7

We vacated the Mercury Rule for unlawfully delisting mercury-emitting electric utility steam generating units from the
Section 7412 Hazardous Air Pollutants list. See New Jersey v.
EPA, 517 F.3d 574, 582–584 (D.C. Cir. 2008). Because we held
those mercury sources must be listed, and because Section 7411
cannot be used to regulate air pollutants listed under Section
7412, the existing-source rule the EPA had adopted under Section
7411(d) to control those same mercury emissions from power
plants failed as well.

App. 79
authorize States to include emissions-trading programs in their State Plans. 40 C.F.R. § 60.33b(d)(2).
Under state standards of performance designed to
meet guidelines the EPA derived from its “best system,” regulated entities were permitted to average
the emission rates of multiple units within a single
plant as well as trade emission credits with other
plants. Municipal Waste Combustors Rule, 60 Fed. Reg.
65,387, 65,402 (Dec. 19, 1995).
The EPA’s efforts to distinguish those other Section 7411(d)(1) programs do not work. The EPA claims
that the Mercury Rule did not primarily rely on a capand-trade or dispatch shifting program, but rather
that the best system rested on a “combination of a capand-trade mechanism and * * * the technology needed
to achieve the chosen cap level.” EPA Br. 72 n.20 (quoting ACE Rule, 84 Fed. Reg. at 32,526). To be clear, that
sort of hybrid best system, involving both on-site and
system-wide elements, is precisely what the EPA now
insists is unprecedented and expressly barred by the
statute’s text.
Lest there be any doubt that the Mercury Rule’s
best system rested in significant part on the cap-andtrade mechanism, we note that the EPA in fact approved state implementation plans that adopted none
of the on-site controls included in the best system and
instead relied entirely on implementation of the best
system’s cap-and-trade program. See, e.g., Notice of
Intent, 32 La. Reg. 869, 870 (May 20, 2006) (proposing
an implementation plan solely reliant on cap-andtrade); Approval and Promulgation of State Plan for

App. 80
Designated Facilities and Pollutants: Louisiana, 72
Fed. Reg. 46,188, 46,188 (Aug. 17, 2007) (approving
Louisiana’s proposal on the basis that it “would meet
[Clean Air Mercury Rule] requirements by participating in the EPA administered cap-and-trade program
addressing [mercury] emissions”). Contrary to the
EPA’s assertions, e.g. EPA Br. 4, the Agency plainly has
previously embraced beyond-the-source measures of
emission reduction as authorized by the statutory text.
The EPA’s invocation of its own past practice under Section 7411 falls wide of the mark. It errs in insisting that “the more than seventy Section 7411 rules”
promulgated for “roughly forty-five years” somehow reflect a consistent adherence to the Agency’s new view.
EPA Br. 4, 88; see id. at 37–38, 88–89; ACE Rule, 84
Fed. Reg. at 32,526. Almost all of the rules to which it
refers are irrelevant to the issue at hand. They were
for new sources, subject to Section 7411(b), not existing sources under Section 7411(d). See 84 Fed. Reg. at
32,526.
Older facilities that may be capable only of outdated, more polluting methods of generation present
different regulatory challenges than new sources. As
discussed above in connection with the EPA’s reference
to BACT requirements for new-source permitting under the PSD program, a requirement that owners and
operators constructing new facilities apply state-ofthe-art, lowest-emitting equipment and methods “at
and to the source” might well be the best available
means of reducing emissions for that source category.
The same cannot be said for existing sources. A central

App. 81
error of the ACE Rule is that it fails to appreciate that
difference. It identifies a handful of measures applicable to and at the source that the EPA suggests
may achieve slight reductions. But industry practice
demonstrates that better, lower-emitting, reliable, and
cost-effective systems for reducing emissions from existing power plants typically also shift generation
away from higher-emitting, fossil-fuel-fired capacity
when renewable or lower- or zero-emitting generation
is an available substitute.
Because the best, most efficient and effective systems for controlling emissions from existing sources ordinarily differ from the best systems for new sources,
they are regulated via a distinct statutory track. Only
the Section 7411(d) rules are relevant to the EPA’s
prior understanding of its authority to regulate existing sources. Those prior EPA rules contradict the EPA’s
position here. Before its about-face in the ACE Rule, all
three of the Agency’s most recent Section 7411(d) rules
included emissions trading or generation shifting to
lower-emitting sources. See Clean Power Plan, 80 Fed.
Reg. at 64,755–64,756; Clean Air Mercury Rule, 70
Fed. Reg. at 28,606, 28,617, 28,619–28,620; Municipal
Waste Combustors Rule, 60 Fed. Reg. 65,387, 65,402
(Dec. 19, 1995).
To put the EPA’s mistaken reading of Section 7411
in perspective, consider how it effectively relegates federal regulators back to the sidelines where they stood
before Congress overhauled the Clean Air Act in 1970.
The federal government had until then done little
more than provide information and guidance to cheer

App. 82
on States’ air-quality regulators. See Train v. NRDC,
421 U.S. 60, 64 (1975) (noting that the States’ response
to earlier iterations of the Act focused on information
and incentives had been “disappointing”).
With the 1970 amendments, a virtually unanimous Congress dramatically strengthened the federal
government’s hand in combatting air pollution. See
Train, 421 U.S. at 64 (“These Amendments sharply increased federal authority and responsibility. * * * The
difference * * * was that the States were no longer
given any choice as to whether they would meet th[eir
statutory] responsibility.”); cf. EPA v. EME Homer City
Generation, LP, 572 U.S. 489, 497 (2014) (noting this
progression toward “increasing[ly] rigor[ous]” federal
regulation of interstate air pollution). Congress did so
“to protect and enhance the quality of the Nation’s air
resources so as to promote the public health and welfare and the productive capacity of its population[.]” 42
U.S.C. § 7401(b)(1). The EPA’s newly enhanced authority was “designed to provide the basis” for “a massive
attack on air pollution.” S. REP. NO. 911196, at 1. Section 7411(d) ensured that there would be “no gaps in
control activities pertaining to stationary source emissions that pose any significant danger to public health
or welfare.” Id. at 20.
Describing the Act shortly before its passage, Republican Senator John Cooper explained that the
“philosophy of the bill abandons the old assumption
of requiring the use of only whatever technology is
already proven and at hand” and instead “set[s] out
what is to be achieved.” 116 CONG. REC. 32,919 (1970).

App. 83
To that end, the Act did not finely detail specific approaches to enumerated sources or types of air pollution. See 116 CONG. REC. 32,901–32,902 (1970)
(statement of Sen. Muskie). Congress chose instead to
entrust the EPA with flexible powers to craft effective
solutions. Only by doing so could air quality regulation
hope to reflect developing understandings of escalating
problems and bring to bear as-yet-unseen solutions.
American air quality is the proof of that approach.
The EPA has worked closely with industry, States, and
the public to develop the world’s most nimble, responsive, and effective regime of air pollution regulation.
For example, in the half-century since the 1970 Act,
“the combined emissions of * * * six key pollutants
regulated under the National Ambient Air Quality
Standards dropped by 73 percent” between 1970 and
2017. EPA Releases 2018 Power Plant Emissions
Demonstrating Continued Progress, EPA (Feb. 20, 2019),
https://www.epa.gov/newsreleases/epa-releases-2018power-plant-emissions-demonstrating-continued-progress
(last visited Jan. 11, 2021).
The EPA’s new reading of Section 7411 would atrophy the muscle that Congress deliberately built up.
The EPA asserts it lacks authority to curb a pollutant
that the Agency itself has repeatedly deemed a grave
danger to health and welfare but that eludes effective
control under other provisions of the Act. We do not
believe that Congress drafted such an enfeebled gapfilling authority in Section 7411.
***

App. 84
In sum, traditional tools of statutory interpretation reveal nothing in the text, structure, history, or
purpose of Section 7411 that compels the reading the
EPA adopted in the ACE Rule.
3.

Compliance Measures

In the ACE Rule, the EPA also limited the
measures that sources may use to comply with the
States’ standards of performance set under Section 7411(d). Recognizing that sources generally have
“broad discretion” in how they comply with state
standards, 84 Fed. Reg. at 32,555, the EPA nonetheless
categorically excluded two specific measures from the
States’ consideration: averaging and trading, and biomass co-firing. It did so on the ground that these
measures do not meet two criteria it determined were
required of compliance measures: that they be (1) “capable of being applied to and at the source” and (2)
“measurable at the source using data, emissions monitoring equipment or other methods to demonstrate
compliance[.]” Id. The EPA identified these criteria on
account of “both legal and practical concerns[.]” Id.
The Agency’s legal concern was that non-sourcespecific compliance measures “would be inconsistent
with the EPA’s interpretation of the” best system of
emission reduction as itself plant-specific. ACE Rule,
84 Fed. Reg. at 32,555–32,556. In that way, the EPA
extended to States’ compliance measures the same incorrect textual interpretation of the Clean Air Act that
underlay its determination of what best systems may

App. 85
include—namely, that the system must be one that can
be applied to and at the individual source. The EPA
reasoned that “implementation and enforcement of
such standards should correspond with the approach
used to set the standard in the first place.” Id. at
32,556.
The Agency’s practical concern was that compliance measures that are not source-specific could result
in “asymmetrical regulation[,]” meaning the stringency
of standards could vary across sources. ACE Rule,
84 Fed. Reg. at 32,556. It argues here that such regulation “could have significant localized adverse consequences” in the case of many pollutants regulated
under Section 7411(d). EPA Br. 240.
Because we hold that the EPA erred in concluding
Section 7411 unambiguously requires that the best
system of emission reduction be source specific, we necessarily reject the ACE Rule’s exclusion from Section
7411(d) of compliance measures it characterizes as
non-source-specific. The Agency tied that exclusion to
its flawed interpretation of the statute as unambiguously confined to measures taken “at” individual
plants, so it falls with that decision. ACE Rule, 84 Fed.
Reg. at 32,555–32,556.
The statute says nothing about the measures that
sources may use to comply with the standards States
establish under Section 7411(d), and the EPA cites no
separate authority that would require compliance
measures to be source-specific, or that Congress meant
to so hogtie the States in devising standards of

App. 86
performance. Regardless of any policy-based reasons
the EPA offers for limiting compliance measures, then,
its decision to exclude averaging and trading and biomass co-firing is foreclosed by its legally erroneous
starting point.
Neither can the EPA’s policy-based reasons sustain its decision to exclude its disfavored non-sourcespecific compliance measures in the context of carbon
dioxide emissions. Apart from its statutory interpretation, the EPA’s only ground for excluding those compliance measures is the Agency’s stated concern to avoid
asymmetrical regulation. ACE Rule, 84 Fed. Reg. at
32,556. It argues that asymmetrical regulation “could
have significant localized adverse consequences for
public health and the environment.” EPA Br. 240. The
Agency points to the case of fluoride—another pollutant regulated under Section 7411(d)—to note that allowing sources to meet state standards of performance
by averaging emissions across units or between facilities “could cause serious environmental impacts on local communities where pollution was under-controlled,
causing localized damage.” Id. In light of such considerations, the EPA worried that a system of averaging
and trading “would undermine the EPA’s determination” of the best system of emission reduction, leading
to the sort of localized consequences the system is designed to guard against. ACE Rule, 84 Fed. Reg. at
32,557.
But that point does not support the EPA’s categorical rule, let alone prove that the statute unambiguously compels the Agency’s reading. Unlike pollutants

App. 87
such as fluoride, carbon dioxide emissions do not pose
localized concerns at the site of emission. Whereas the
EPA might determine that the best system for reducing fluoride emissions is one that can be applied to and
at the source, and it would be reasonable for the EPA
in turn to limit compliance measures to correspond
with such a “best system,” the same cannot be said of
carbon dioxide. Indeed, the EPA recognizes that “CO2
is a global pollutant with global effects[,]” meaning
“there may be few direct and area public health consequences from asymmetrical regulation of carbon dioxide within a State.” EPA Br. 239.
The Agency defends its concern about asymmetrical regulation in the context of carbon dioxide emissions with the unsupported contention that an
interpretation of Section 7411(d) that allowed nonsource-specific compliance measures “would not be
limited to carbon dioxide alone.” EPA Br. 240. But there
is no reason to conclude, and petitioners do not argue,
that the statute requires the EPA to permit nonsource-specific compliance measures for every pollutant it regulates under Section 7411. The statute is not
so rigid as EPA supposes. In fact, Section 7411 itself
does not textually restrict the States’ choice of compliance measures for their sources at all. See also Power
Cos. Pet’rs Br. 25–26; Biogenic Pet’r Br. 16–17. Even if
the EPA might reasonably limit compliance measures
in specific situations based on its determination of the
best system for reducing particular types of emissions
with localized consequences, the statute imposes no

App. 88
requirement that such limitations be uniform across
the regulation of different pollutants.
In sum, the EPA’s conclusion on compliance by
sources rises and falls with its legally flawed interpretation of the statute. The Agency’s practical concern
about asymmetrical regulation could not, in any event,
support the exclusion of biomass co-firing or averaging
and trading in the particular context of carbon dioxide
emission regulation.
B.

THE MAJOR QUESTIONS DOCTRINE

The EPA also references the so-called “major questions” doctrine in defense of its statutory interpretation and the ACE Rule. 84 Fed. Reg. at 32,529. But that
doctrine does not confine the EPA to adopting solely
emission standards that can be implemented physically to and at the individual plant.
The Supreme Court has said in a few cases that
sometimes an agency’s exercise of regulatory authority
can be of such “extraordinary” significance that a court
should hesitate before concluding that Congress intended to house such sweeping authority in an ambiguous statutory provision. See King v. Burwell, 576 U.S.
473, 485–486 (2015); Gonzales v. Oregon, 546 U.S. 243,
262, 266–267 (2006); FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 159 (2000); accord Utility
Air Regulatory Group v. EPA (UARG), 573 U.S. 302,
324 (2014); see also MCI Telecommc’ns v. AT&T, 512
U.S. 218, 231 (1994). Where there are special reasons
for doubt, the doctrine asks whether it is implausible

App. 89
in light of the statute and subject matter in question
that Congress authorized such unusual agency action.
See, e.g., UARG, 573 U.S. at 324 (considering whether
the challenged rule would “bring about an enormous
and transformative expansion in EPA’s regulatory authority without clear congressional authorization”);
Brown & Williamson, 529 U.S. at 161 (holding that the
FDA could not regulate tobacco because it was “plain
that Congress ha[d] not given the FDA the authority
that it s[ought] to exercise”).
In the ACE Rule, the EPA stated that, while its
interpretation of Section 7411 did not depend on the
“major question[s] doctrine[,]” the Agency believed
that “that doctrine should apply here[.]” 84 Fed. Reg.
at 32,529. The Agency reasoned that the Clean Power
Plan would have had “billions of dollars of impact on
regulated parties and the economy,” would have “affected every electricity customer[,]” was “subject to litigation involving almost every State,” and would have
upset the balance of regulatory authority between federal agencies and the States. Id. For those reasons, the
Agency concluded that the “interpretive question
raised”—whether the “best system of emission reduction” can include measures other than improvements
to and at the physical source—“must be supported by
a clear[ ]statement from Congress.” Id. That was incorrect.

App. 90
1.

The EPA’s Regulatory Mandate

Unlike cases that have triggered the major questions doctrine, each critical element of the Agency’s
regulatory authority on this very subject has long been
recognized by Congress and judicial precedent.
Most importantly, there is no question that the
regulation of greenhouse gas emissions by power
plants across the Nation falls squarely within the
EPA’s wheelhouse. The Supreme Court has ruled specifically that greenhouse gases are “air pollutants” covered by the Clean Air Act. Massachusetts v. EPA, 549
U.S. at 532. More to the point, the Court has told the
EPA directly that it is the Agency’s job to regulate
power plants’ emissions of greenhouse gases under
Section 7411. “Congress delegated to EPA the decision
whether and how to regulate carbon-dioxide emissions
from powerplants” through a “§ 7411 rulemaking[ ]”
AEP, 564 U.S. at 426–427. The separate opinion agrees.
See Separate Op. at 14 (“Does the Clean Air Act direct
the EPA to make our air cleaner? Clearly yes. Does it
require at least some carbon reduction? According to
Massachusetts v. EPA, again yes.”).
On top of that, the issuance of regulations addressing greenhouse gas pollution is mandatory under the
statute because of longstanding endangerment findings.
In Massachusetts v. EPA, the Supreme Court directed
the EPA either to make an endangerment finding under the statute for greenhouse gas pollution, or to
explain why it would not do so. 549 U.S. at 532–535.
The EPA complied. For now more than a decade—from

App. 91
2009 to the present day in the ACE Rule itself—the
EPA has consistently and repeatedly recognized the
serious danger that greenhouse gas pollution poses to
human health and welfare. See ACE Rule, 84 Fed. Reg.
at 32,533; New Source Rule, 80 Fed. Reg. at 64,530–
64,531; 2009 Endangerment Finding, 74 Fed. Reg. at
66,496–66,497. By statute, that finding triggers a mandatory duty on the EPA to regulate greenhouse gas pollution. 42 U.S.C. § 7521(a)(1) (motor vehicle emissions);
42 U.S.C. § 7411(b) (stationary sources that contribute
significantly to such dangerous pollution).8
So the EPA has not just the authority, but a statutory duty, to regulate greenhouse gas pollution, including specifically from power plants.

8

As discussed below with respect to the challenge brought
by the Coal Petitioners (infra at III.A.1), the legal basis for the
EPA’s regulation of greenhouse gas emissions from existing
power plants in both the Clean Power Plan and the ACE Rule was
the Agency’s prior 2015 decision to issue standards of performance for carbon dioxide emitted from new power plants. That
decision, in turn, was based on the Agency’s recognition (since the
1970s) that fossil-fuel-fired power plants contribute significantly
to air pollution, which “may reasonably be anticipated to endanger the public health or welfare.” 42 U.S.C. § 7411(b)(1)(A); see
Air Pollution Prevention and Control: List of Categories of Stationary Sources, 36 Fed. Reg. 5931, 5931 (March 31, 1971); Air
Pollution Prevention and Control: Addition to the List of Categories of Stationary Sources, 42 Fed. Reg. 53,657, 53,657 (Oct. 3,
1977). The EPA also determined in 2015 that power plants contribute significantly to greenhouse gas pollution in particular. See
New Source Rule, 80 Fed. Reg. at 64,531. That determination,
combined with the determination that greenhouse gases are dangerous to public health and welfare, triggers a mandatory duty to
regulate under Section 7411(b)(1)(A).

App. 92
In that way, the pollution measures in the Clean
Power Plan do not fit the major-question mold of prior
cases. For example, in Brown & Williamson, the major
question was whether the agency had authority to regulate tobacco at all. There, the Supreme Court ruled
that there was “reason to hesitate” before concluding
that the provisions of the Food, Drug, and Cosmetic Act
covering restricted devices, Brown & Williamson, 529
U.S. at 134 (citing 21 U.S.C. § 360j(e)), gave the Food
and Drug Administration the authority to regulate
tobacco given its “unique political history” and its role
as a “significant portion of the American economy.” Id.
at 159. The Court reasoned based on the overall drugregulatory scheme, as well as Congress having “created a distinct regulatory scheme for tobacco products,” that Congress “could not have intended to
delegate a decision of such economic and political significance to an agency in so cryptic a fashion.” Id. at
159–160.
That question of agency authority to regulate the
matter in question was absent for the Clean Power
Plan. In fact, the Supreme Court in Massachusetts v.
EPA rejected the analogy between regulation of greenhouse gases as a pollutant under the Clean Air Act and
regulation of tobacco as a drug under the Food, Drug,
and Cosmetic Act. 549 U.S. at 530–531. Treating tobacco as a drug would have been wholly novel, requiring the agency to ban virtually all tobacco products—a
result the Court suspected Congress did not intend. Id.
at 531; Brown & Williamson, 529 U.S. at 143. By contrast, the Supreme Court explained, greenhouse gases

App. 93
are air pollutants that fall squarely within the Clean
Air Act’s coverage, and the Act would subject such pollutants, if the agency makes the necessary findings,
only to regulation, not prohibition. Massachusetts v.
EPA, 549 U.S. at 531.
The Clean Air Act also contains its own limits on
regulation, like mandating that the EPA take into account such factors as available technology and the cost
of compliance. Id. (citing 42 U.S.C. § 7521(a)(2)); see
also 42 U.S.C. § 7411(a)(1) (requiring consideration of
health and environmental impacts, energy requirements, and cost). In that way, Congress designed the
Clean Air Act’s processes for regulating air pollution
to adapt to “changing circumstances and scientific
developments” without imposing unreasonable technological or financial burdens on industry. Massachusetts v. EPA, 549 U.S. at 532. So, unlike the major
question of tobacco regulation in Brown & Williamson,
there is “nothing counterintuitive” about the EPA’s reasonable regulation of dangerous airborne substances
like greenhouse gases. Id. at 531–532.
Similarly, the major question in UARG was whom
the EPA was attempting to regulate. In that case, the
Supreme Court held that the EPA’s statutory permitting authority for the construction and modification of
stationary sources was “designed to apply to, and cannot rationally be extended beyond, a relative handful
of large sources capable of shouldering heavy substantive and procedural burdens”—sources like power
plants. 573 U.S. at 322. The Court held that, without
clear statutory grounding, the EPA’s effort to extend

App. 94
permitting requirements to literally millions of small
sources of greenhouse gas pollution but of no other
regulated pollutants—sources like schools, hospitals,
churches, and shopping malls—overshot its statutory
authority. Id. at 324, 328.
The Clean Power Plan, by contrast, regulated the
very entities the EPA was told by the Supreme Court
in AEP and UARG to regulate—fossil-fuel-fired power
plants. And it employed statutory tools that were
“suitable” for application to the long-regulated power
industry. See UARG, 573 U.S. at 323, 324 n.7. American
Electric Power pointed the Agency to regulation under
Section 7411 specifically, explaining that “Congress
delegated to EPA the decision whether and how to regulate carbon-dioxide emissions from [new, modified,
and existing] powerplants” using the regulatory tools
laid out in Section 7411. 564 U.S. at 424–426.
That is no doubt a significant task for the EPA.
But that is not because of any agency overreach. It is
the product of Congress’ charge that the EPA regulate air pollution nationwide. And with respect to regulating greenhouse gas pollution in particular, it
reflects the fact that fossil-fuel-fired power plants predominate the power industry and are spread across
the Nation. See United States Energy Information Administration (EIA), Frequently Asked Questions: What
is U.S. Electricity Generation by Source? (Nov. 2, 2020),
https://www.eia.gov/tools/faqs/faq.php?id=427&t=2 (last
visited Jan. 11, 2021); EIA, U.S. Energy Mapping System, https://www.eia.gov/state/maps.php (last visited
Jan. 11, 2021). So much so that they “are by far” the

App. 95
greatest stationary contributor to greenhouse gas pollution and the significant dangers it causes for the public health and welfare. New Source Rule, 80 Fed. Reg.
at 64,522.
2.

Best System of Emission Reduction

So what the EPA may regulate (greenhouse gas
pollution), and whom it may target (power plants), and
how (under Section 7411) have all been resolved and
so do not trigger the major questions doctrine.
That leaves the EPA no place to house its majorquestion objection other than in the interpretation of
the statutory term “best system of emission reduction,”
42 U.S.C. § 7411(a)(1). More specifically, the EPA says
the use of any emission-control measures that do not
operate at the individual physical plant level requires
an express statement from Congress, and that federal
standards that might encourage generation-shifting
are therefore categorically forbidden under Section
7411.
But the major questions doctrine does not apply
there either for a number of reasons.
a.

Statutory Design

For starters, the “best system of emission reduction” plays a cabined role in the statutory scheme. The
determination of the best system of emission reduction
is entirely internal to the EPA. The EPA itself evaluates relevant scientific, technological, and economic

App. 96
evidence to identify, in its judgment, the “best system
of emission reduction” available, and the “degree of
emission limitation achievable” through it. 42 U.S.C.
§ 7411(a)(1).
In making that determination, the statute significantly reins in the EPA’s judgment by requiring the
Agency to (1) “tak[e] into account the cost of achieving
such reduction,” (2) factor in “any nonair quality health
and environmental impact,” (3) balance the effect on
“energy requirements,” and (4) ensure that the system has been “adequately demonstrated[.]” 42 U.S.C.
§ 7411(a)(1). To be “adequately demonstrated[,]” we
have explained, the system must be shown to be reasonably “reliable,” “efficient,” and “expected to serve
the interests of pollution control without becoming exorbitantly costly[.]” Essex Chem. Corp. v. Ruckelshaus,
486 F.2d 427, 433 (D.C. Cir. 1973), cert. denied, 416 U.S.
969 (1974); see also Portland Cement Ass’n v. Ruckelshaus, 486 F.2d 375, 391 (D.C. Cir. 1973) (whether a
system is adequately demonstrated “cannot be based
on ‘crystal ball’ inquiry”).9
Once the EPA identifies a best system that meets
those requirements and calculates the degree of emission limitation it allows, the Clean Air Act leaves it
9

In addition to these statutory constraints, the EPA has tied
its own hands by requiring that the best system include only actions touching three bases: (i) they reduce emissions (rather than,
for example, capturing emissions after they are released into the
air by planting trees), (ii) sources themselves can implement
them, and (iii) they target supply-side activities. See Clean Power
Plan, 80 Fed. Reg. at 64,776, 64,778–64,779.

App. 97
to the States to set their own standards of performance for their existing pollution sources. 42 U.S.C.
§ 7411(d). The cooperative-federalism design of Section
7411(d) gives the States broad discretion in achieving
those emission limitations. See AEP, 564 U.S. at 428
(“The Act envisions extensive cooperation between
federal and state authorities, generally permitting
each State to take the first cut at determining how
best to achieve EPA emissions standards within its domain[ ]”) (internal citations omitted). In addition, Section 7411(d) expressly allows States, in setting their
emission standards, to “take into consideration, among
other factors, the remaining useful life” of its existing
sources. 42 U.S.C. § 7411(d).
So the EPA’s scientific and technological identification of the best system of emission reduction cannot
bear the major-question label. Determining the system
is a task expressly and indisputably assigned by Congress to the EPA and requiring specialized agency expertise. That system serves only as the basis for the
EPA to set the emission-reduction targets in its quantitative guidelines. The States retain the choice of how
to meet those guidelines through standards of performance tailored to their various sources. Neither exercise entails resolution of a major question.
The EPA argues that its own best-system process
raised a major question by “impos[ing] ‘generation
shifting[.]’ ” EPA Br. 99. But under Section 7411(d), the
EPA does not impose the “best system of emission reduction” on anyone. Instead, each State decides for itself what measures to employ to meet the emission

App. 98
limits, and in so doing may elect to consider the “remaining useful life” of its plants and “other factors.” 42
U.S.C. § 7411(d). See Clean Power Plan, 80 Fed. Reg. at
64,709–64,710, 64,783. The Clean Power Plan, in fact,
afforded States considerable flexibility in choosing how
to calculate and meet their emissions targets. See, e.g.,
id. at 64,665, 64,756–64,757, 64,834–64,837.10
Congress already focused on the issue and made
the decision to rope the EPA’s selection of a best system
of emission reduction about with all of those substantive and structural limitations. So the major questions
doctrine does not provide any basis for concluding
that the Clean Air Act categorically forecloses the
EPA’s consideration of even those generation-shifting
measures that are already widely in use by States and
10

The Clean Power Plan expressly contemplated that States
and sources might choose to meet their emissions targets by using
measures other than the specific heat-rate improvements and
generation shifting that the EPA had identified in its best system.
See 80 Fed. Reg. at 64,755–64,758. The EPA offered a list of alternative available technologies that reduced power plants’ carbon
dioxide emissions per megawatt, including carbon capture and
storage, heat-rate improvements at non-coal plants, fuel switching to gas, fuel switching to biomass, and waste heat-to-energy
conversion. Id. at 64,756. In certain situations, for example, modifying coal-fired plants to burn natural gas could “help achieve
emission limits consistent with the [best system].” Id. The Agency
also identified a list of alternative measures that States could implement to lower overall emissions from fossil-fuel-fired plants.
Those measures included, for example, demand-side energy efficiency—a policy tool that the EPA expected some States to use
because “the potential emission reductions from demand-side [energy efficiency] rival those from [generation shifting] in magnitude[.]” Id.

App. 99
power plants and have been demonstrated to be reasonable, reliable, effective, and not unduly disruptive
to the regulated industry. See Clean Power Plan, 80
Fed. Reg. at 64,735, 64,769.
In that respect, the EPA’s argument sounds much
like a second argument rejected by the Supreme
Court in UARG. In addition to the scope question discussed above, the Court addressed whether the EPA
could require facilities that emit conventional pollutants also to implement the “best available control
technology” for greenhouse gases. UARG, 573 U.S. at
329–333 (citing 42 U.S.C. § 7475(a)(4)). Like the EPA
here, the industry petitioners argued that the “best
available control technology” standard was “fundamentally unsuited” to greenhouse gas emissions because it had “traditionally” focused on “end-of-stack
controls.” Id. at 329–330. “[A]pplying it to greenhouse
gases,” the industry petitioners insisted, would make
the “best available control technology” standard “more
about regulating energy use, which will enable regulators to control every aspect of a facility’s operation and
design[.]” Id. at 330 (internal quotation marks omitted).
The Supreme Court rejected that challenge. The
Court explained that the EPA’s guidance contemplated
both “end-of-stack”—type controls and energy efficiency measures. UARG, 573 U.S. at 330. And, critically, the Court emphasized that the statute and
regulations already imposed “important limitations
on [best available control technology] that may work
to mitigate petitioners’ concerns about ‘unbounded’

App. 100
regulatory authority.” Id. at 331. Among those limitations was the EPA’s longstanding statutory interpretation that the best available control technology was
required “only for pollutants that the source itself
emits,” and the EPA’s existing guidance that permitting authorities should “consider whether a proposed
regulatory burden outweighs any reduction in emissions to be achieved.” Id. The statute also required the
EPA to determine the best available control technology
with reference to “energy, environmental, and economic impacts and other costs.” 42 U.S.C. § 7479(3); see
also UARG, 573 U.S. at 333 n.9.
So too here: The numerous substantial and explicit constraints on the EPA’s selection of a best system of emission reduction foreclose using the major
questions doctrine to write additional, extratextual,
and inflexibly categorical limitations into a statute
whose “broad language * * * reflects an intentional effort to confer the flexibility necessary to forestall * * *
obsolescence.” Massachusetts v. EPA, 549 U.S. at 532;
see also Transmission Access Policy Study Group v.
FERC, 225 F.3d 667, 711 (D.C. Cir. 2000) (where Congress has spoken, court upholds as within agency authority an order that “fundamentally change[d] the
regulatory environment in which utilities operate” and
“introduc[ed] meaningful competition into an industry
that since its inception has been highly regulated and
affecting all utilities in a similar way”), aff ’d sub nom.
New York v. FERC, 535 U.S. 1 (2002).
The EPA points to the Supreme Court’s statement
in UARG that “[w]hen an agency claims to discover in

App. 101
a long-extant statute an unheralded power to regulate
‘a significant portion of the American economy,’ we typically greet its announcement with a measure of skepticism.” 573 U.S. at 324 (quoting Brown & Williamson,
529 U.S. at 159).
True. But, as already explained, the EPA made no
new discovery of regulatory power with the Clean
Power Plan. While power plants are significant players
in the American economy, they have been subject to
regulation under Section 7411 for nearly half a century. See, e.g., Costle, 657 F.2d at 318; Oljato Chapter of
Navajo Tribe v. Train, 515 F.2d 654, 656–57 (D.C. Cir.
1975). Their emission of massive amounts of carbon dioxide has long been known. And the source of the EPA’s
duty to regulate that greenhouse gas pollution from
power plants was the plain statutory text and Supreme Court precedent, not something the EPA pulled
out of a hat. See AEP, 564 U.S. at 425; Massachusetts v.
EPA, 549 U.S. at 532.
In sum, the Clean Air Act expressly confers regulatory authority on the EPA to set standards for
reducing greenhouse gas emissions from fossil-fuelfired power plants nationwide. Congress knew both
the scope and importance of what it was doing. And
it cabined the EPA’s authority with concrete and judicially enforceable statutory limitations. The major
questions doctrine is meant to discern, not override,
such statutory judgments. Doubly so when the regulatory authority and its reach have been affirmed and
enforced by the Supreme Court.

App. 102
b.

Regulatory Consequences

The problems with the EPA’s approach to the major-question analysis do not stop there. The Agency
also conflates the significance of greenhouse gas regulation of power plants generally with any significance
attributable solely to the EPA’s choice of a “best system
of emission reduction”—the statutory provision where
the EPA tried to anchor its major-question objection.
Remember, the EPA concluded that the major questions doctrine was triggered centrally by (i) the Clean
Power Plan’s “billions of dollars of impact” on the
economy; (ii) its effect on “every electricity customer”;
(iii) the number of litigation challenges it spawned, “involving almost every State”; and (iv) its perceived
shifting of regulatory authority between federal agencies and the States. ACE Rule, 84 Fed. Reg. at 32,529.
Taking the characterizations as true, those consequences are a product of the greenhouse gas problem,
not of the best-system’s role in the solution. Given
the number and dispersion of fossil-fuel-fired power
plants, any nationwide regulation of their greenhouse
gas pollution that meaningfully addresses emissions
will necessarily affect a broad swath of the Nation’s
electricity customers. Under the EPA’s grave endangerment finding, so too would a failure to regulate
those greenhouse gas emissions. See 2009 Endangerment Finding, 74 Fed. Reg. at 66,496.
As for the “billions of dollars of impact[,]” the EPA
has offered no evidence tying that cost to generation
shifting rather than physical plant adjustments or a

App. 103
variety of other means States might choose for complying with emission limits As the EPA itself previously
acknowledged, generation shifting can be cheaper than
other demonstrated methods of reducing greenhouse
gas emissions, like carbon capture and storage, that
take place “at” the source (and thus fall within the
EPA’s current statutory vision). See Clean Power Plan,
80 Fed. Reg. at 64,727.11 Moreover, the Clean Power
Plan’s significant projected economic impact was not
atypical for Clean Air Act rulemakings by the EPA.
See, e.g., Costle, 657 F.2d at 314 (upholding 1979 new
source performance standards governing emission control by coal-burning power plants that imposed “tens
of billions of dollars” of costs on the power sector).
Even assuming that the EPA’s federalism concerns could trigger the major questions doctrine (rather than the federalism clear-statement canon), they
carry no material weight here. That is because the
statutory role of the best system of emission reduction
under Section 7411(d) textually preserves and enforces
the States’ independent role in choosing from among
the broadest range of options to set standards of performance appropriate to sources within their jurisdiction. In fact, it is the ACE Rule’s unreasoned
barriers to certain compliance measures, like generation shifting and biomass co-firing, that hamstring the
11

The EPA now takes the position that natural gas co-firing
is not adequately demonstrated and that neither co-firing nor carbon capture and storage is part of the best system of emission reduction. See ACE Rule, 84 Fed. Reg. at 32,544–32,545, 32,549.
But those methods are amenable to implementation “to” and “at”
the source, in keeping with the EPA’s statutory view.

App. 104
States. See supra Part II.A.3 (analyzing ACE Rule, 84
Fed. Reg. at 32,555–32,556).
Finally, it seems doubtful that the volume of litigation aimed at a regulation can reasonably bear on
its major-question status. The Supreme Court has certainly never embraced that idea. For good reason. A
doctrine at the mercy of litigation stratagems, or the
mere existence of disagreements over which parties
find advantage in filing suit, cannot be an elucidating
or even logically relevant tool of statutory interpretation.
In any event, the EPA offers no basis for concluding that the best-system determination is what lit the
litigation fire. After all, the ACE Rule too has been
“subject to litigation” involving 43 States and all manner of other interested parties, despite the Rule’s jettisoning of generation shifting as part of the best system
of emission reduction. See Opinion Caption, supra.
c.

Regulating in the Electricity Sector

The ACE Rule’s last attempt to wrap the bestsystem determination in the major-question mantle
asserts that including generation shifting as part of
the best system of emission reduction lacks a “valid
limiting principle,” and that, by “shifting focus to the
entire grid[,]” it would “empower” the Agency “to order
the wholesale restructuring of any industrial sector[.]”
ACE Rule, 84 Fed. Reg. at 32,529. But that is entirely
wrong. The Clean Power Plan was aimed not at regulating the grid, but squarely and solely at controlling

App. 105
air pollution—a task at the heart of the EPA’s mandate. Indeed, the EPA’s reasoning in the ACE Rule defeats its own argument.
The EPA suggests that counting generation shifting among the tools for emission reduction risks expanding the Agency’s regulatory sights too far, because
“any action affecting a generator’s operating costs
could impact its order of dispatch and lead to generation shifting.” ACE Rule, 84 Fed. Reg. at 32,529 (emphasis added). That is exactly right: Any regulation of
power plants—even the most conventional, at-thesource controls—may cause a relative increase in the
cost of doing business for particular plants but not others, with some generation-shifting effect. That is how
pollution regulation in the electricity sector has always
worked. Regulators—including, for example, Congress
in the Clean Air Act’s acid rain cap-and-trade program,
42 U.S.C. §§ 7651–76510—have long facilitated those
generation-shifting effects to serve the goal of pollution
reduction. See Grid Experts Amicus Br. 13–15.
So the EPA’s contention that it cannot consider
measures resulting in generation shifting as part of its
best system proves far too much: If that were so, the
EPA would be limited to considering only measures
that power plants could adopt at zero cost, so as to
maintain their relative-dispatch position. That is, of
course, incompatible with Congress’ instruction that
the best system take cost into account as only one factor among several, see 42 U.S.C. § 7411(a)(1), and contrary to the very nature of environmental law, which

App. 106
requires the regulation of polluters and material
changes in their pollution emissions.
The EPA’s argument also ignores, again, the critical statutory limitations that the Clean Air Act imposes on the selection of a best system of emission
reduction and its function in state plans. Under Section 7411(d), the EPA lacks the authority to “order the
wholesale restructuring” of anything All it can do is
identify the best system of emission reduction that has
been adequately demonstrated within the cost, energyrequirement, and other substantive constraints set by
Congress, and then calculate achievable emission goals
by reference to that system. 42 U.S.C. § 7411(a)(1).
States, in turn, set standards of performance only
“for” any “existing source[,]” and need not implement
any aspect of the EPA’s “best system[.]” Id. § 7411(d)(1)
(emphasis added). And the EPA’s determination about
how best to combat air pollution is, of course, subject to judicial review, including on questions like
whether a system has been adequately demonstrated
and whether the Agency adequately considered costs.
42 U.S.C. § 7607(b); cf. AEP, 564 U.S. at 427; UARG,
573 U.S. at 333 n.9. Congress’ carefully calibrated system—involving scientific and technological evidencegathering, close study of existing industry practice,
constrained discretion, divided regulatory authority,
collaboration with States, and judicial review—leaves
no room for the unauthorized agency overreach that
the EPA fears.
A group of States and industry groups intervened
with other major-question challenges, but their salvos

App. 107
all fall short. They argue that the major questions doctrine is implicated because the EPA has “ ‘no expertise’
in electricity generation, transmission, and reliability.”
State & Industry Intervenors Repeal Br. 30 (quoting
King, 576 U.S. at 474); see also Gonzales, 546 U.S. at
267 (rejecting interpretive rule of the Attorney General
that was “both beyond his expertise and incongruous
with the statutory purposes and design”). But Section
7411 not only foresees, but demands that the EPA consider “energy requirements” when assessing the best
system of emission reduction. 42 U.S.C. § 7411(a)(1).
The Supreme Court in AEP recognized the EPA’s signal role in regulating greenhouse gases under Section
7411 notwithstanding that the EPA must consider energy requirements and ensure a reliable energy supply
when it does so. 564 U.S. at 427. The Court explained
that, when the EPA is formulating greenhouse gas
regulations, it must consider not only “the environmental benefit potentially achievable,” but also “our Nation’s energy needs and the possibility of economic
disruption[.]” Id. The Clean Air Act “entrusts such complex balancing to EPA in the first instance, in combination with state regulators.” Id.; see 42 U.S.C. § 7411(a)(1).
That definitive reading of the statute by the Supreme
Court cannot suddenly become a forbidden major question when the EPA regulates as it was told to do.
The statutory scheme simply gives no quarter to
the proposition that, in following Congress’ directive to
regulate electricity-producing power plants, the EPA is
categorically forbidden to consider emission-reduction
measures that take into account the nature of the

App. 108
electricity grid in which those power plants operate
day in and day out. Nor is it sensible to categorically
put off-limits the generation-shifting measures that
power plants are already actually using to meet emission requirements. See Clean Power Plan, 80 Fed. Reg.
at 64,784–64,785.
The State and Industry Intervenors also overlook
that the EPA developed the Clean Power Plan with input from other agencies with relevant expertise. See
Clean Power Plan, 80 Fed. Reg. at 64,672–64,673 (explaining that “[i]nput and assistance from FERC [the
Federal Energy Regulatory Commission] and DOE
[the Department of Energy] have been particularly important in shaping” aspects of the Clean Power Plan);
id. at 64,671 (noting “extensive consultation with key
agencies responsible for [electric system] reliability[,]”
as well as reliance on the “EPA’s longstanding principles in setting emission standards for the utility power
sector”). Contrast Delaware Dep’t of Nat. Res. & Env’t
Control v. EPA, 785 F.3d 1, 14, 18 (D.C. Cir. 2015) (invalidating rule in part because the EPA had failed
to consult with other expert agencies on grid reliability issues). EPA could hardly do its job without
substantively engaging with the on-the-ground facts
about the electricity system that power plants support.
Quite the opposite: An agency’s wooden refusal to factor in reality and such on-point considerations would
ordinarily render its decisionmaking arbitrary and capricious. See Motor Vehicle Mfrs. Ass’n v. State Farm
Mut. Auto Ins. Co., 463 U.S. 29, 43 (1983).
All told, the EPA’s consideration of already-inuse generation shifting as part of the “best system

App. 109
of emission reduction” does nothing to enlarge the
Agency’s regulatory domain. “We are not talking about
extending EPA jurisdiction over millions of previously
unregulated entities,” but about a familiar process of
cooperative federalism applied to “entities already subject to * * * regulation” to address a recognized form of
air pollution that repeatedly has been found to endanger public health and welfare. See UARG, 573 U.S. at
332. The major questions doctrine cannot rescue the
ACE Rule’s mistaken interpretation of Section 7411(d)
as categorically confining the best system of emission
reduction to physical adjustments made only “at” and
“to” the power plant.
C.

FEDERALISM

The federalism canon lends no support to the ACE
Rule’s decision to confine the best system of emission
reduction to measures that apply exclusively at and to
the source. That canon recognizes that “the States retain substantial sovereign powers under our constitutional scheme, powers with which Congress does not
readily interfere.” Gregory v. Ashcroft, 501 U.S. 452,
460–461 (1991). So as a matter of constitutional avoidance, courts require Congress to “enact exceedingly
clear language if it wishes to significantly alter the balance between federal and state power.” United States
Forest Serv. v. Cowpasture River Pres. Ass’n, 140 S. Ct.
1837, 1849–1850 (2020).
The federalism clear-statement rule prevents direct federal intrusion into areas of traditional state responsibility unless Congress has made its intent to

App. 110
cross that line explicit. For example, courts will not assume that Congress meant to preempt a State’s mandatory retirement age for state judges through the
passage of a generic age discrimination law, unless it
has clearly expressed its intent to police the qualifications of such high-level state officials. See Gregory, 501
U.S. at 463464. Nor will courts lightly assume that
Congress intended to claim state-owned land as part of
the National Park System, see Cowpasture River, 140
S. Ct. at 1849–1850, to transform simple state-law assaults into breaches of international chemical weapons
compacts, see Bond v. United States, 572 U.S. 844, 862–
863 (2014), or to displace the States’ traditional authority to regulate the practice of law, see American
Bar Ass’n v. FTC, 430 F.3d 457, 466, 471–472 (D.C. Cir.
2005). Only when such conflicts between federal and
state regulatory domains are plainly joined by Congress itself will the court confront the sensitive constitutional implications of such measures.
That doctrine does not support the EPA’s cramped
reading of Section 7411. Interstate air pollution is not
an area of traditional state regulation. And federalism
concerns do not bar the United States government
from addressing areas of federal concern just because
its actions have incidental effects on areas of state power.
Cf. FERC v. Electric Power Supply Ass’n, 136 S. Ct. 760,
775–778 (2016) (federal regulation of wholesale electricity market did not intrude on traditional state authority over the retail electricity market, even though
wholesale market regulation created an incentive for
retail consumers to change their behavior in stateregulated markets).

App. 111
What is more, the Supreme Court has suggested
that the federalism clear-statement rule is of limited
applicability when a federal regulatory regime is enforced through a statutory cooperative-federalism
framework, as Section 7411(d) is. See AT&T Corp. v.
Iowa Util. Board, 525 U.S. 366, 378 n.6 (1999) (noting
appeals to States’ rights as “most peculiar” in the context of “a federal program administered by 50 independent state agencies”); see also Alaska Dep’t of Env’t
Conservation v. EPA, 540 U.S. 461 (2004) (declining to
adopt dissent’s proposed clear-statement rule for federal constraints on state implementation decisions in
cooperative-federalism program). See generally Abbe
Gluck, Intrastatutory Federalism and Statutory Interpretation: State Implementation of Federal Law in
Health Reform and Beyond, 121 YALE L.J. 534, 555–
556 (2011).
In any case, the Clean Power Plan’s incorporation
of generation shifting into its best system of emission reduction fell squarely within an area of the federal government’s constitutional competence. The EPA
does not dispute the government’s authority or its
statutory mandate to reduce the emission of pollutants
that endanger public health and welfare. 42 U.S.C.
§ 7411(b)(1)(A), (d)(1). The EPA also agrees that greenhouse gases are among the pollutants properly regulated by the federal government. See AEP, 564 U.S. at
416–417, 424; see also supra Part I.B.2.
The Clean Power Plan directly regulated only the
amount of greenhouse gas pollutants that may be emitted into the atmosphere. 80 Fed. Reg. at 64,663–64,664.

App. 112
That is an area of unique federal concern. After all,
“[a]ir pollution is transient, heedless of state boundaries,” EME Homer City Generation, 572 U.S. at 496,
particularly where the pollutants are greenhouse
gases, which have little if any localized effect but great
cumulative impact. The inability of individual States
to redress the problem of interstate air pollution, in
fact, was among the very reasons for the enactment of
the Clean Air Act. See 42 U.S.C. § 7401(a)(1), (4); S.
REP. NO. 88-638, at 3 (1963) (“Polluted air is not contained in a specific area but is carried from one political jurisdiction to another. It does not know State lines
or city limits. Providing air of good quality * * * is a
challenge and an obligation for Government operations on all levels.”); id. at 5 (“The nationwide character
of the air pollution problem requires an adequate Federal program to lend assistance, support, and stimulus
to State and community programs.”).
To be sure, the federal government’s regulation of
such an interstate problem can have indirect effects
on State energy production and utility regulation decisions. But even when those effects are the fully anticipated “natural consequences” of an agency’s policy
choice, Electric Power Supply Ass’n, 136 S. Ct. at 776,
that does not transform a fundamentally federal action
in a core federal area of concern into a restriction on
state action that triggers the federalism canon.12
12

In the ACE Rule, the EPA suggested that the Clean Power
Plan’s best system of emission reduction was also impermissible
as an encroachment on “measures and subjects exclusively left to
FERC[.]” 84 Fed. Reg at 32,530. The EPA has not pressed that

App. 113
The EPA protests that the Clean Power Plan
breached that divide because it expressly considered
generation shifting to determine the best system of
emission reduction and, in so doing, stepped on the
States’ power to regulate electrical utilities’ mix of
electricity generation.
But that argument has nothing to do with the narrow construction of Section 7411 that the EPA adopted.
After all, the EPA could have set the same emission
guidelines predicated on a best system of emission reduction that exclusively employed technological controls applicable at and to the source, like carbon
capture and sequestration. And the EPA must agree
that the federalism canon would play no role in determining the appropriateness of that system, since on
the Agency’s own reading, measures applicable at and
to the source are precisely what Section 7411 allows.13

argument here. For good reason. The effects of environmental regulations on the power grid do not amount to power regulation
statutorily reserved to FERC. And, in any event, the constitutional concerns that require us to patrol the boundaries between
federal and state authority with vigilance do not support any similar clear-statement requirement regarding turf battles between
federal agencies.
13
While the EPA did not select carbon capture and sequestration as the best system of emission reduction in the ACE Rule,
it excluded that process because of cost and feasibility concerns,
not federalism interests. See 84 Fed. Reg. at 32,547–32,549. That
exclusion was a change of position from the Clean Power Plan,
where the EPA found that the process was “technically feasible
and within price ranges that the EPA has found to be cost effective[.]” 80 Fed. Reg. at 64,727. Carbon capture and sequestration ultimately was not selected as the best system of emission

App. 114
Nowhere does the EPA explain why reference to a
different mechanism—generation shifting—in its calculation of the best system would raise materially different federalism concerns. Under either system, the
only direct obligation imposed on States is the same: a
federally set emissions guideline. In both scenarios, the
States remain equally free to choose the compliance
measures that best fit the needs of their State and industry. And as a practical matter, many if not most
States would likely opt for generation shifting over carbon capture and sequestration under either rule because the former is cheaper for existing plants. See
Clean Power Plan, 80 Fed. Reg. at 64,727–64,728; ACE
Rule, 84 Fed. Reg. at 32,532 (“Market-based forces
have already led to significant generation shifting in
the power sector.”).
The EPA also suggests that the clear-statement
rule operates with particular force here because the
Plan imposed uneven regulatory burdens weighted toward States with more high-emitting power plants.
But that argument tries to twist principles of federalism into a command of regulatory homogenization that
defies on-the-ground reality. Regulations under the
Clean Air Act or any environmental law will commonly
reduction in the Clean Power Plan solely because generation
shifting was even more cost-effective. Id. at 64,727–64,728. What
matters here is that the EPA did not express any concern in either
the ACE Rule or the Clean Power Plan that such a system would
intrude upon traditional areas of State authority. In the ACE
Rule, the EPA permits the use of such technological controls to
meet its emission standards, 84 Fed. Reg. at 32,549, 32,555, as it
did in the Clean Power Plan, 80 Fed. Reg. at 64,883–64,884.

App. 115
affect States differently depending on the States’ activities. The regulation of pollutants associated with automotive manufacturing affects States with production
facilities more than those without. See, e.g., General
Motors Corp. v. United States, 496 U.S. 530, 534–535
(1990). The regulation of mining-related pollutants
imposes greater costs on States with more plentiful
mineral resources. See, e.g., Alaska Dep’t of Env’t Conservation, 540 U.S. at 469–470, 474; Hodel v. Virginia
Surface Mining & Reclamation Ass’n, 452 U.S. 264,
289–290 (1981). The same point applies to industries
like petroleum refining, which are concentrated near
navigable waters. See generally EIA, U.S. Energy Mapping System https://www.eia.gov/state/maps.php (last
visited Jan. 11, 2021). Indeed, some regulations impose
additional regulatory burdens based literally on the direction the wind blows. See EME Homer City Generation, 572 U.S. at 520. Likewise, States with more
navigable water necessarily carry more burdens under
the Clean Water Act than those with less.
Affected States, of course, could raise statutory
challenges to enforce the Clean Air Act’s express constraints, such as required consideration of cost, non-air
quality health and environmental impact, or energy
requirements under Section 7411(a). And they could
always challenge any unreasoned or unwarranted distinctions in regulatory coverage as arbitrary or capricious. But in the absence of such an objection, it does
not offend—or even implicate—principles of federalism to observe that States whose industries pollute the

App. 116
Nation’s air and so harm the public’s health more will,
in turn, be affected more by emission controls.
For all of those reasons, nothing in the federalism canon supports the EPA’s effort to categorically
constrict the best system of emission reduction to
measures physically applied at and to the individual
plant.
III.

THE EPA’S AUTHORITY TO REGULATE CARBON
DIOXIDE EMISSIONS UNDER SECTION 7411
A.

THE COAL PETITIONERS’ CHALLENGES

The North American Coal Corporation and Westmoreland Mining Holdings LLC, both coal mine operators (the Coal Petitioners), bring two challenges to the
ACE Rule. Both question the EPA’s legal authority to
enact the rule. First, the Coal Petitioners argue that
the EPA failed to make the required endangerment
finding—that carbon dioxide emissions from power
plants cause or contribute significantly to air pollution
that may reasonably be anticipated to endanger public
health or welfare—before regulating those emissions.
See 42 U.S.C. § 7411(b)(1)(A). Second, they claim that
the EPA’s previous regulation of a different air pollutant (mercury) from power plants under the Hazardous Air Pollutants provision, 42 U.S.C. § 7412,
precludes the EPA from now regulating power plants’
emission of greenhouse gases under Section 7411(d).
Both arguments fail. The EPA made the requisite
endangerment finding in 2015, and the ACE Rule

App. 117
expressly retained that finding. As for the Section 7412
challenge, the EPA has correctly and consistently read
the statute to allow the regulation both of a source’s
emission of hazardous substances under Section 7412
and of other pollutants emitted by the same source under Section 7411(d). The Coal Petitioners’ argument
rests not on the enacted statutory language, but instead on their own favored reading of one statutory
amendment inserted by codifiers. Reading the statutory text as a whole—that is, all of the relevant language enacted by Congress, including two duly enacted
amendments—the Clean Air Act authorizes the EPA to
regulate both power plants’ emissions of greenhouse
gases under Section 7411(d) and hazardous air pollutants under Section 7412. That reading is reinforced by
the statutory structure, purpose, and history.
1.
a.

Endangerment Finding

The Record of Endangerment

The Coal Petitioners argue that the ACE Rule was
unlawful right out of the box because the EPA failed to
make a statutorily required finding that greenhouse
gas emissions from power plants cause air pollution
that endangers the public health and welfare. That is
wrong.
As a reminder, before the EPA can regulate a category of stationary sources like electricity-generating
power plants under Section 7411, the EPA Administrator must first find that the source category “in his judgment * * * causes, or contributes, significantly to, air

App. 118
pollution which may reasonably be anticipated to
endanger the public health or welfare.” 42 U.S.C.
§ 7411(b)(1)(A). A formal pronouncement meeting those
criteria is known as an “endangerment finding.” New
Source Rule, 80 Fed. Reg. at 64,529. And once it is
made, the EPA is not just empowered, but obligated, to
regulate. See 42 U.S.C. § 7411(b)(1)(A); see also supra
note 8.
After the Administrator makes an endangerment
finding, the source category is added to the EPA’s
Section 7411 list, 42 U.S.C. § 7411(b)(1)(A), and the
Administrator must promulgate emissions standards
(called “standards of performance”) for new sources in
the category, id. § 7411(b)(1)(B). As relevant here, unless those dangerous emissions are regulated under
another relevant provision of the Clean Air Act, the
Administrator must also set an achievable emission
guideline based on the “best system of emission reduction” and provide a process for States to submit a
plan setting out standards of performance for existing stationary sources in that same category. Id.
§ 7411(d)(1)(A)(ii).
The EPA has for decades been regulating emissions
other than carbon dioxide from electricity-generating
power plants. In 1971, the EPA listed fossil-fuel-fired
electricity-generating units with steam-generating
boilers as a new source category under Section 7411(b)
and promptly established standards of performance for
them. See Air Pollution Prevention and Control: List of
Categories of Stationary Sources, 36 Fed. Reg. 5931
(March 31, 1971); Standards of Performance for New

App. 119
Stationary Sources, 36 Fed. Reg. 24,876, 24,878–24,880
(Dec. 23, 1971). Then, in 1977, the EPA listed fossilfuel-fired combustion turbines as a new source category
under Section 7411 and set performance standards for
them. See Air Pollution Prevention and Control: Addition to the List of Categories of Stationary Sources,
42 Fed. Reg. 53,657 (Oct. 3, 1977); New Stationary
Sources Performance Standards; Electric Utility
Steam Generating Units, 44 Fed. Reg. 33,580 (June
11, 1979). These categories cover the power plants at
issue today. See New Source Rule, 80 Fed. Reg. at
64,531.
Through the 2015 New Source Rule, the EPA began regulating carbon dioxide emissions from electricity-generating power plants. See New Source Rule, 80
Fed. Reg. 64,510. Because power plants had already
been listed as a regulated source category, the New
Source Rule did not need to take any action to add
those plants to the Section 7411 list of regulated
sources. It just issued, for the first time, standards of
performance for carbon dioxide emitted from new
power plants. In so doing, the New Source Rule provided the statutory predicate and corresponding duty
for the EPA to establish carbon dioxide emission standards for existing power plants as well. Clean Power
Plan, 80 Fed. Reg. at 64,715; see 42 U.S.C. § 7411(d)(1).
The New Source Rule now serves that same function
for the ACE Rule, 84 Fed. Reg. at 32,533.
Because the New Source Rule did not add a new
category of pollution sources to the Section 7411 list,
the EPA concluded that no new endangerment finding

App. 120
was needed. New Source Rule, 80 Fed. Reg. at 64,529–
64,530. The EPA nevertheless went on to explain that
it chose to regulate carbon dioxide emissions from
electricity-generating plants specifically because greenhouse gas pollution endangers public health and welfare and contributes significantly to air pollution. See
id. at 64,530–64,531. The EPA found in particular that
increased atmospheric levels of greenhouse gases, including carbon dioxide, could lead to, among other
things, more frequent extreme weather events and
wildfires; threats to mental and physical health, especially for children and the elderly; reduced access to
food and safe water; and mass migrations and displacements as a result of rising sea levels. Id. at
64,517–64,520.
b.

Timeliness

At the outset, the EPA argues that we must disregard the Coal Petitioners’ challenge concerning the endangerment finding because it was not timely filed.
This is a close question, but we ultimately conclude
that the petition is timely.
The Clean Air Act requires that petitions for review challenging an EPA regulation—including any
Section 7411 standard of performance—generally
must be filed within 60 days of the regulation’s publication in the Federal Register. 42 U.S.C. § 7607(b)(1).
The Clean Air Act’s timeliness bar is “jurisdictional in
nature[.]” Motor & Equip. Mfrs. Ass’n v. Nichols, 142

App. 121
F.3d 449, 460 (D.C. Cir. 1998) (quoting Edison Elec.
Inst. v. EPA, 996 F.2d 326, 331 (D.C. Cir. 1993)).
Importantly, Congress carved out an exception to
that 60-day time limit if the petition “is based solely on
grounds arising after [the] sixtieth day[.]” 42 U.S.C.
§ 7607(b)(1). In that situation, the clock resets, and the
petitioner must file within 60 days of the occurrence of
the new event that “ripens [the] claim” and thereby
triggers the basis for a challenge. Coalition for Responsible Regulation, Inc. v. EPA, 684 F.3d 102, 129 (D.C.
Cir. 2012), rev’d in part on other grounds sub nom. Utility Air Regulatory Group v. EPA (UARG), 573 U.S. 302
(2014); see also Alon Refining Krotz Springs, Inc. v.
EPA, 936 F.3d 628, 646 (D.C. Cir. 2019); Honeywell Intl,
Inc. v. EPA, 705 F.3d 470, 472–473 (D.C. Cir. 2013);
Sierra Club de Puerto Rico v. EPA, 815 F.3d 22, 26 (D.C.
Cir. 2016). A claim “ripens” for purposes of the Clean
Air Act when “subsequent factual or legal development
creat[es] new legal consequences” for the party seeking
review. Sierra Club de Puerto Rico, 815 F.3d at 28. This
type of delayed challenge is commonly referred to as
an “after arising” claim.
We agree with the Coal Petitioners that the ACE
Rule is an after-arising event that ripened their challenge to the New Source Rule’s endangerment finding.
When the EPA promulgated the New Source Rule
in 2015, the Coal Petitioners did not challenge that
rule’s endangerment finding.14 That is because they did
14

The Coal Petitioners claim that there is no timeliness
problem because two trade associations with which the Coal

App. 122
not plan “to build any new facilities affected by the
New Source Rule,” and so were not directly affected by
it. Coal Pet’rs Reply Br. 3. But when the ACE Rule used
the New Source Rule as the predicate for regulating
existing coal-fired power plants, ACE Rule, 84 Fed.
Reg. at 32,533, the Coal Petitioners became concretely
aggrieved by the finding.
Under those circumstances, the Coal Petitioners’
challenge to the New Source Rule as an insufficient
predicate for the ACE Rule is timely. If the Coal Petitioners had filed suit when the New Source Rule was
first promulgated in 2015, their standing would have
been in doubt because they did not have any, or intend
to build any, new power plants. An asserted injury arising from how the New Source Rule might come to
affect the regulation of their existing plants in the future might well have been too speculative to support
judicial review. See Coalition for Responsible Regulation, 684 F.3d at 115–116, 129–131 (challenge to preexisting regulations was timely, where regulations first
affected petitioners due to the recent promulgation of
rule targeting motor vehicle emissions); see also Sierra
Club de Puerto Rico, 815 F.3d at 27; Honeywell, Int’l,
705 F.3d at 473. That is why “this court has assured
Petitioners are affiliated—the National Mining Association and
the United States Chamber of Commerce—challenged the New
Source Rule. Coal Pet’rs Reply Br. 3 & n.2. There is no evidence
or declaration regarding that relationship in the record, aside
from counsel’s representation at oral argument. Oral Argument
Tr. 131:13-17. Because we hold that the after-arising exception
makes the Coal Petitioners’ own challenge timely, we do not address the relevance, if any, of a prior trade association challenge.

App. 123
petitioners with unripe claims that ‘they will not be
foreclosed from judicial review when the appropriate
time comes,’ * * * and that they ‘need not fear preclusion by reason of the 60-day stipulation barring judicial review,’ ” as long as they file a petition within 60
days of the injury that ripened their claim. Coalition
for Responsible Regulation, 684 F.3d at 131 (formatting
modified).
The EPA urges that the Coal Petitioners could
have pressed a challenge to the New Source Rule in
2015 at the latest, as other coal-related entities did,
once the EPA promulgated the Clean Power Plan in reliance on the New Source Rule’s endangerment finding. See North Dakota v. EPA, No. 15-1381 (and
consolidated cases).
Perhaps. See North American Coal Corp. v. EPA,
No. 15-1451 (D.C. Cir.) (consolidated with West Virginia v. EPA, No. 15-1363 (D.C. Cir.)). But that would
argue over spilled milk. The Clean Power Plan litigation came to a halt when the EPA reconsidered that
rule, and the case was ultimately dismissed as moot
after the ACE Rule withdrew the Clean Power Plan.
Per Curiam Order, West Virginia v. EPA, No. 15-1363
(D.C. Cir. Sept. 17, 2019), ECF No. 1806952. The Coal
Petitioners have raised their claim in the ACE Rule litigation, and it would seem perverse to say they instead
should have litigated the matter in a case that will
never be decided.15
15

There is a second exception to the timeliness bar known
as the “reopening rule.” See, e.g., Environmental Def. v. EPA, 467

App. 124
c.

Adequacy of the Endangerment Finding

On the merits, the Coal Petitioners press a twofold challenge to the EPA’s compliance with the endangerment-finding requirement. First, they argue that
Section 7411(b) requires the EPA to make a pollutantspecific endangerment finding for each stationary
source category newly regulated under that provision.
In their view, even though the EPA had already found
that carbon dioxide emissions significantly cause or
contribute to greenhouse gas air pollution that endanger the public health or welfare, the EPA also separately had to find that carbon dioxide specifically from
coal-fired power plants is a significant source of that
danger. 2009 Endangerment Finding, 74 Fed. Reg. at
66,499, 66,542 (for motor vehicles). Second, the Coal
Petitioners claim that the EPA did not make such a
finding, leaving it without authority to enact the ACE
Rule.
We need not address the Coal Petitioners’ first
argument. Even assuming that Section 7411(b) requires a source-specific endangerment finding for each

F.3d 1329, 1333 (D.C. Cir. 2006). The gist of that rule is that
the 60-day jurisdictional review window restarts when an agency,
either explicitly or implicitly, reconsiders its former action. See
National Ass’n of Reversionary Prop. Owners v. Surface Transp.
Bd., 158 F.3d 135, 141 (D.C. Cir. 1998); National Mining Ass’n v.
United States Dep’t of Interior, 70 F.3d 1345, 1351 (D.C. Cir.
1995). Because the after-arising ripeness exception preserves the
Coal Petitioners’ claim, we need not address the reopening doctrine.

App. 125
pollutant, the EPA made a sufficient finding in the
New Source Rule.
i.

The New Source Rule

Before making the New Source Rule’s endangerment finding keyed to carbon dioxide from new fossilfuel-fired power plants, the EPA explained its “rational
basis” for regulating those sources’ emissions of that
pollutant under Section 7411. New Source Rule, 80
Fed. Reg. at 64,530. The EPA first outlined why greenhouse gas emissions pose a danger to the public health
and welfare, and then explained why it should regulate
those emissions from power plants specifically.
For evidence of the harms posed by greenhouse
gas air pollution, the EPA first pointed to its 2009 Endangerment Finding, made in connection with the motor vehicle emissions regulation at issue in Coalition
for Responsible Regulation. New Source Rule, 80 Fed.
Reg. at 64,530. There, this court upheld as reasonable
the EPA’s finding that greenhouse gas emissions
threaten public health and welfare. Id.; see also Coalition for Responsible Regulation, 684 F.3d at 119–126.
In the 2015 New Source Rule, the Agency reviewed
substantial scientific evidence, including contemporary studies from the National Research Council, the
Intergovernmental Panel on Climate Change, and
others that post-dated the record from the 2009 motor
vehicle emissions regulation. 80 Fed. Reg. at 64,530–
64,531; see also id. at 64,517–64,520 (detailing updated
developments in scientific evidence). The EPA found

App. 126
that the new studies “len[t] further credence to the
validity of the [2009] Endangerment Finding.” Id. at
64,530. The EPA added that “[n]o information that
commentators have presented or that the EPA has
reviewed provides a basis for reaching a different conclusion,” and that the science at the time had reaffirmed its understanding of the effects of greenhouse
gases on the public health and welfare. Id. “The facts,”
the EPA concluded, “unfortunately, have only grown
stronger and the potential adverse consequences to
public health and the environment more dire in the
interim.” Id. at 64,531.
The EPA next explained its reasons for regulating
greenhouse gases from fossil-fuel-fired power plants
specifically, pointing to the exceptionally high levels of
emissions from those power plants. See New Source
Rule, 80 Fed. Reg. at 64,522–64,523, 64,530. To that
end, the EPA found that fossil-fuel-fired power plants
are the largest stationary sources of greenhouse gas
emissions in the United States, accounting for nearly
one-third of the United States’ greenhouse gas emissions and as much as three times the emissions from
the next ten categories of stationary sources combined.
Id. at 64,530. Coal-fired power plants in particular, the
EPA added, are the largest of those large emitters,
with just one coal-fired power plant emitting potentially millions of tons of carbon dioxide annually. Id. at
64,531. In that way, power plant emissions “far exceed[ed] in magnitude the emissions from motor vehicles,” which had been the subject of the endangerment

App. 127
finding upheld in Coalition for Responsible Regulation.
Id.
ii.

All Required Findings Were Made

The Coal Petitioners acknowledge the EPA’s findings, but argue that Section 7411 requires a two-part
endangerment finding—that carbon dioxide from fossil-fuel-fired power plants (1) endangers the public
health and welfare, and (2) causes or contributes significantly to greenhouse gas air pollution. See 42 U.S.C.
§ 7411(b)(1)(A) (findings must be for the “category of
sources”). The Coal Petitioners do not contest that carbon dioxide endangers the public health and welfare.
See Oral Argument Tr. 129:21–22.
Instead, they train their arguments on the second
prong, arguing that the New Source Rule did not
properly make a finding that fossil-fuel-fired power
plants “contribute[ ] significantly” to greenhouse gas
pollution. First, they fault the EPA for relying on the
New Source Rule, which provided a rational basis for
regulation to support a significant-contribution finding.16 Second, they argue that the EPA arbitrarily and
16

The Coal Petitioners also argue that the EPA was wrong
to rely on the 2009 Endangerment Finding because it used the
lower “more than a de minimis or trivial” contribution standard.
Coal Pet’rs Br. (quoting 2009 Endangerment Finding, 74 Fed.
Reg. at 66,542). But the New Source Rule relies on the 2009
Endangerment Finding only for part one of the endangerment
finding test—that greenhouse gas pollution may reasonably be
anticipated to endanger the public health and welfare—which the
Coal Petitioners do not contest. See New Source Rule, 80 Fed. Reg.
at 64,530–64,531. The EPA separately considered the volume of

App. 128
capriciously failed to define the threshold measure of a
“significant” contribution.
To survive those challenges, the EPA needed only
to “articulate a satisfactory explanation” for the New
Source Rule’s endangerment finding, making a “rational connection between the facts found and the
choice made.” Motor Vehicle Mfrs. Ass’n v. State Farm
Mut. Auto. Ins. Co. (State Farm), 463 U.S. 29, 43
(1983) (quoting Burlington Truck Lines v. United
States, 371 U.S. 156, 168 (1962)). For an endangerment
finding, that choice need not include a “precise numerical value” that defines the threshold at which air
pollution endangers the public health and welfare.
Coalition for Responsible Regulation, 684 F.3d at 326.
Instead, a “ ‘more qualitative’ approach,” employing
reasoned predictions based on “empirical data and scientific evidence,” may suffice. Id. at 327 (quoting Ethyl
Corp. v. EPA, 541 F .2d 1, 56 (D.C. Cir. 1976)). Such an
approach “is a function of the precautionary thrust of
the [Clean Air Act] and the multivariate and sometimes uncertain nature of climate science, not a sign of
arbitrary or capricious decision-making.” Id. By that
measure, both of the Coal Petitioners’ objections fail.
For starters, it is perfectly permissible, and commendably efficient, for an agency to re-confirm and
build consistently upon such formally made factual determinations. It makes eminent sense, for example, for
greenhouse gas emissions that motor vehicles contribute to the
problem and found it significant. See 2009 Endangerment Finding, 74 Fed. Reg. at 66,499, 66,543; Coalition for Responsible Regulation, 684 F.3d at 128.

App. 129
the EPA to take what it learned in regulating automobiles’ greenhouse gas emissions and apply that in evaluating the need for regulation of another source of the
same pollutant—fossil-fuel-fired power plants. What
matters here is that the EPA did not simply conclude
that power plants’ greenhouse gas emissions significantly contribute to air pollution and stop there. Instead, the EPA went on to explain why that significantcontribution finding was warranted. See New Source
Rule, 80 Fed. Reg. at 64,530–64,531 (explaining that
power plants are the largest stationary sources of domestic greenhouse gas emissions and that each coalfired plant may emit millions of tons of carbon dioxide
per year).
The Coal Petitioners’ argument that the EPA
failed to articulate a specific threshold measurement
for significance fares no better. While the failure to
identify the trigger point for significance might prove
problematic in cases at the margins, the EPA sensibly
found that this one is not even close. Because of their
substantial contribution of greenhouse gases, “under
any reasonable threshold or definition,” carbon dioxide
from fossil-fuel-fired power plants represents “a significant contribution” to air pollution. New Source Rule,
80 Fed. Reg. at 64,531; cf. Massachusetts v. EPA, 549
U.S. at 525 (While domestic automobile emissions accounted for less than one-third of the United States’
domestic emissions, “[j]udged by any standard, U.S.
motor-vehicle emissions make a meaningful contribution to greenhouse gas concentrations and * * * to
global warming.”).

App. 130
In that regard, we have already held that nothing
in the Clean Air Act “require[s] that [the] EPA set a
precise numerical value as part of a contribution endangerment finding. Coalition for Responsible Regulation, 684 F.3d at 122 (applying Section 7521(a)(1) of the
Clean Air Act). So the “EPA need not establish a minimum threshold of risk or harm before determining
whether an air pollutant endangers.” Id. at 123.
Nevertheless, the Coal Petitioners insist that,
before finding significance, the EPA had to decide
whether its inquiry would (1) address domestic or
global emissions, (2) be measured by a “simple percentage criterion” or another metric, (3) factor in historical
trends and/or future projections, and (4) involve a different process for greenhouse gases than other pollutants. See Coal Pet’rs Br. 17. Whether the EPA could
reasonably decide to factor in such considerations is
not before us. What matters here is that nothing in
the Clean Air Act or precedent mandates determinations on each of those factors—at least not in a case in
which there is no showing that any of them would have
made any difference. Given that the United States, at
the time of the endangerment finding, was the secondlargest emitter of greenhouse gases in the world, see
2009 Endangerment Finding, 74 Fed. Reg. at 66,538, it
was not arbitrary or capricious for the EPA to conclude
that the source of close to one-third of those emissions is a significant contributor to air pollution by any
measure. The global nature of the air pollution problem means that “[a] country or a source may be a
large contributor, in comparison to other countries or

App. 131
sources, even though its percentage contribution may
appear relatively small” in the context of total emissions worldwide. Id. Looking just at the Coal Petitioners’ calculations, power plants contributed a hefty 4.5
percent to global greenhouse gas emissions in 2013.
See Coal Pet’rs Br. 18. More to the point, a holding that
greenhouse gas emissions by fossil-fuel-fired power
plants are not significant would make it nigh impossible for any source of greenhouse gas pollution to cross
that statutory threshold.17
For those reasons, we hold that the New Source
Rule’s endangerment finding provided a sufficient basis for the EPA’s promulgation of the ACE Rule.
2.
a.

Section 7411 and Section 7412’s
Parallel Operation

Background on the 1990 Amendments

The Coal Petitioners next argue that the Clean
Air Act expressly and unambiguously prohibits the
EPA from regulating coal-fired power plants’ carbon
17

The EPA recently solicited public comment through a proposed rule on the appropriateness of considering such factors
when making a significant-contribution finding. See Oil and Natural Gas Sector: Emission Standards for New, Reconstructed, and
Modified Sources Review, 84 Fed. Reg. 50,244, 50,269 (Sept. 24,
2019). But the EPA explained that the comments on the proposed
rule are meant only “to inform the EPA’s actions in future rules,”
id. at 50,267, and explicitly declined to consider the merits of the
comments or adopt any of the factors in that final rule, see Oil and
Natural Gas Sector: Emission Standards for New, Reconstructed,
and Modified Sources Review, 84 Fed. Reg. 57,018, 57,058 (Sept.
14, 2020).

App. 132
dioxide emissions under Section 7411(d) because those
same power plants’ mercury emissions are regulated
under Section 7412’s Hazardous Air Pollutants provision. The relevant statutory text says otherwise.
To set the stage, as relevant here, the Clean Air
Act regulates pollutants emitted by stationary sources
like power plants under three distinct programs: (1)
the National Ambient Air Quality Standards (NAAQS)
program that applies to emissions of six common air
pollutants, 42 U.S.C. §§ 7408–7410; (2) the regulation
of certain specified pollutants under the Hazardous Air
Pollutants program, 42 U.S.C. § 7412; and (3) the regulation of all other dangerous pollutants from new and
existing sources under Section 7411.
Congress designed the existing source provision in
Section 7411(d) to ensure that there were “no gaps in
control activities pertaining to stationary source emissions that pose any significant danger to public health
or welfare.” S. REP. NO. 91-1196, at 20 (1970). So Section 7411(d), in its gap-filling capacity, covers all dangerous pollutants except those already regulated by
NAAQS or the Hazardous Air Pollutants provision. See
Clean Air Act Amendments of 1990 (“1990 Amendments”), Pub. L. No. 101-549, § 108(g), § 302(a), 104
Stat. 2399, 2467, 2574.
From the passage of the Clean Air Act until its
amendment in 1990, Congress had left substantially
to the EPA the task of building a program to effectively identify and regulate hazardous air pollutants under Section 7412. Specifically, Section

App. 133
7412(b)(1)(A)—Section 112(b)(1)(A) of the 1970 Public
Law—had instructed the EPA to publish a list of hazardous air pollutants that it would then regulate under
Section 7412’s terms. See Clean Air Act Amendments
of 1970 (“1970 Amendments”), Pub. L. No. 91-604, sec.
4(a), § 112(b)(1)(A), 84 Stat. 1676, 1685. Section
7411(d), for its part, covered “any air pollutant * * * for
which air quality criteria have not been issued or
which is not included on a list published under section * * * 112(b)(1)(A)” by the EPA. Id., sec. 4(a),
§ 111(d)(1)(A), 84 Stat. at 1684.
After two decades, Congress found that Section
7412 had “worked poorly” in that the EPA had regulated only eight hazardous pollutants under Section
7412. S. REP. NO. 102-228, at 128 (1989); see id. at 131.
Through the 1990 Amendments to Section 7412, Congress forced the EPA’s hand by statutorily designating
191 hazardous pollutants that Congress required
the EPA to regulate. See 1990 Amendments, sec. 301,
§ 112(b)(1), 104 Stat. at 2532–2535 (codified at 42
U.S.C. § 7412(b)(1)); see also S. REP. NO. 102-228, at
133. Congress also called on the EPA to add to the list.
1990 Amendments, sec. 301, § 112(b)(2)–(3), 104 Stat.
at 2535-2537 (codified at 42 U.S.C. § 7412(b)(2)–(3)).
Neither greenhouse gases in general nor carbon dioxide in particular were on Congress’ statutory list. Nor
have they ever been added by the EPA.
That change to Section 7412(b) necessitated a corresponding technical change to Section 7411(d)’s carveout of pollutants already regulated under the Hazardous Air Pollutants program, since the cross-referenced

App. 134
“list published under section * * * 112(b)(1)(A)” no
longer existed. Congress’ update of the statutory crossreference is the root of the present dispute. That is because each chamber of Congress articulated the technical correction differently, and yet both were enacted
into law.
The Senate—in a section entitled “Conforming
Amendments”—passed a straightforward amendment
that struck “112(b)(1)(A)” from the Section 7411(d) exclusion, and replaced it with “112(b)”—which is the
provision containing the new statutory list of hazardous pollutants to which the EPA could later add. 1990
Amendments, § 302(a), 104 Stat. at 2574. Just as before the 1990 Amendments, under the Senate Amendment, only hazardous pollutants on the Section 7412
list were excluded from Section 7411(d)’s regulation of
existing sources’ emissions, while dangerous pollutants not addressed by the Hazardous Air Pollutants
or NAAQS programs remained in Section 7411(d)’s domain.
The House, for its part, called its technical amendment of the cross-reference “Miscellaneous Guidance,”
and it similarly deleted “112(a)(1)(B)[,]” and then excluded any air pollutant that is “emitted from a source
category which is regulated under section 112.” 1990
Amendments, § 108, 108(g), 104 Stat. at 2465, 2467.
Both of those amendments made it into the Conference Report, H.R. REP. NO. 101-952, at 73, 183 (1990)
(Conf. Rep.), and, after being passed by both chambers

App. 135
of Congress and signed by the President, they both became part of the Public Law.
Congress’ Office of the Law Revision Counsel is
tasked with compiling and codifying the public law and
publishing it in the United States Code. The Counsel,
of course, has no authority to alter the substance of
the Statutes at Large. See Ganem v. Heckler, 746 F.2d
844, 851 (D.C. Cir. 1984) (“[T]he changes made by
the codifiers, whose ‘choice, made * * * without approval of Congress * * * should be given no weight,’ are
of no substantive moment.”) (internal quotation marks
omitted) (quoting North Dakota v. United States,
460 U.S. 300, 310 n.13 (1983)); see also Positive Law
Codification, OFFICE OF THE LAW REVISION COUNSEL,
https://uscode.house.gov/ codification/legislation.shtml
(last visited Jan. 11, 2021) (For non-positive law titles,
such as Title 42, “there are certain technical, although
non-substantive, changes made to the text for purposes
of inclusion in the Code.”).
When faced with the Senate and House Amendments’ differing articulations of the cross-reference update, the Counsel chose to publish only the House
Amendment in the United States Code.
b. Interpreting the House
and Senate Amendments
The Coal Petitioners argue that the House Amendment’s technical update of the cross-reference actually
worked a major substantive change in the law by categorically and unambiguously excluding from Section

App. 136
7411 not the hazardous pollutants already regulated
under Section 7412, but any stationary sources of hazardous pollutants regulated under Section 7412. In
their view, once a source is subject to regulation under
Section 7412 for any single listed hazardous pollutant,
all of its other pollution emissions are off limits for
regulation under Section 7411(d). More specifically,
the Coal Petitioners’ position is that, because the
EPA regulates one hazardous air pollutant—mercury—
emitted from coal-fired power plants, the EPA is powerless to regulate under Section 7411(d) every other
non-“hazardous,” but still significantly dangerous, pollutant those same power plants emit, including greenhouse gases.18
On the other hand, for thirty years—from the enactment of the 1990 Amendments to the present
day—the EPA has read the House’s “Miscellaneous
Guidance” as just that—a miscellaneous technical
amendment that, like the Senate Amendment, simply
updated the Section 7411(d) cross-reference to exclude
the regulation of a stationary source’s emission of pollutants that are already regulated under Section 7412.
For the Coal Petitioners’ challenge to succeed, we
would have to agree with their ambitious reading of
the House Amendment as precluding regulation under
Section 7411 of even those pollutants that are not
covered by Section 7412. We also would have to ignore
See National Emission Standards for Hazardous Air Pollutants from Coal- and Oil-Fired Electric Utility Steam Generating Units, 77 Fed. Reg. 9304 (Feb. 16, 2012) (regulating mercury).
18

App. 137
the duly enacted Senate Amendment entirely. And we
would have to reject out of hand the EPA’s threedecade-old harmonizing reading of the statutory
amendments, the text of Section 7411(d), and the statutory structure. We decline the invitation because that
is not how statutory interpretation works.
At the outset, the EPA seeks deference under
Chevron U.S.A. Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837 (1984). If this were an ordinary
EPA interpretation of a Clean Air Act provision, we
would apply exactly that framework. See UARG, 573
U.S. at 315 (“We review EPA’s interpretations of the
Clean Air Act using the standard set forth in Chevron[.]”).
But this is no ordinary case. Here, the way in
which the codifiers assembled the U.S. Code version of
Section 7411(d) by omitting the Senate Amendment
conflicts with the Statutes at Large, which is the definitive legal evidence of what the law is. 1 U.S.C. § 112;
see id. § 204(a) (United States Code provides only
prima facie evidence of the federal law). So any ambiguity arises from our duty to textually harmonize two
duly enacted but differently articulated statutory provisions. In undertaking that task, we need not decide
whether Chevron supplies the appropriate framework
for reconciling conflicting statutory provisions. Compare Scialabba v. Cuellar de Osorio, 573 U.S. 41, 64
(2014) (Kagan, J.) (plurality opinion), with id. at 76
(Roberts, C.J.) (concurring in the judgment). Instead,
we independently reach the same conclusion as the

App. 138
EPA, harmonizing the House and Senate Amendments
by giving “full effect” to both. Id. at 64.
i. The Consistent Meaning of Both Amendments
In reconciling the Senate and House Amendments,
we start with what the mission of the amendments
was. The plain purpose of each amendment was to update Section 7411(d)’s outdated cross-reference to a list
created by the EPA under Section 7412(b)(1)(A), in
light of Congress’ publication of its new statutory list
under Section 7412(b). That is why the Senate labeled
its provision a “[c]onforming [a]mendment,” and the
House called its version “[m]iscellaneous [g]uidance.”
See 1990 Amendments, § 302(a), 104 Stat. at 2574
(Senate Amendment); id. § 108(g), 104 Stat. at 2465,
2467 (House Amendment). Neither amendment was
meant to work a major substantive change in the law.
The Senate took the most direct textual path to
updating Section 7411(d)’s cross-reference. Using the
Public Law section number for Section 7412 (that is,
Section 112), the Senate Amendment simply substituted “section 112(b)” for the outdated reference to
“section 112(b)(1)(A).” See 1990 Amendments, § 302(a),
104 Stat. at 2574. That way, the Senate Amendment
maintains the parallelism of the two exclusions in Section 7411(d) for already-regulated pollutants that are
either “included on a list published under section
108(a) [NAAQS] or 112(b) [the Hazardous Air Pollutants provision.]” Id. § 302(a), 104 Stat. at 2574 (incorporating Senate Amendment into the preexisting 1970

App. 139
text, see 1970 Amendments, sec. 4(a), § 111(d)(1)(A), 84
Stat. at 1684). Both exclusionary clauses continue, as
they had before the 1990 Amendments, to refer directly
to specific air pollutants listed for regulation under
other statutory provisions, and so to prevent duplicate
regulation of the same harmful emissions.
The House Amendment was less efficient, but
ended up in the same place. It substituted for “section
112(b)(1)(A)” the phrase an air pollutant that is “emitted from a source category which is regulated under
section 112[.]” 1990 Amendments, § 108(g), 104 Stat. at
2467 (codified at 42 U.S.C. § 7411(d)(1)(A)(i)). So, with
the House Amendment’s phrasing, Section 7411(d)’s
exclusion reads, as relevant here, that each State shall
establish[ ] standards of performance for any
existing source for any air pollutant (i) for
which air quality criteria have not been issued
or which is not included on a list published
under section 7408(a) of this title [the NAAQS
program] or emitted from a source category
which is regulated under section 7412 of this
title [the Hazardous Air Pollutant program]
but (ii) to which a standard of performance
under this section would apply if such existing
source were a new source[.]
42 U.S.C. § 7411(d)(1)(A).
Reading the House Amendment within Section
7411(d)(1) “in [its] context and with a view to [its]
place in the overall statutory scheme” shows that
the House Amendment, like the Senate Amendment,
just updated the cross-reference to exclude pollutant

App. 140
emissions already regulated for stationary sources
under the Hazardous Air Pollutant program. King v.
Burwell, 576 U.S. 473, 486 (2015) (quoting FDA v.
Brown & Williamson Tobacco Corp., 529 U.S. 120, 132,
133 (2000)).
First, the entire point of the text that follows (i)—
that is, romanette one—is to modify the phrase “air
pollutant.” “Air pollutant” is, in fact, the last antecedent to which all of the language in romanette one
speaks. And grammatically, the last-antecedent rule
means that a limiting phrase is generally read to “modify[ ] only the noun or phrase that it immediately follows.” Lockhart v. United States, 136 S. Ct. 958, 962
(2016) (quoting Barnhart v. Thomas, 540 U.S. 20, 26
(2003)). In other words, the whole point of romanette
one, including the House Amendment language, is to
define which “air pollutant[s]” cannot be regulated under Section 7411(d) because those same pollutants are
already regulated under the NAAQS or Hazardous Air
Pollutants programs.
Second, reading the entirety of romanette one
to modify “air pollutant” gives the updated crossreference to Section 7412 full meaning.19 See UARG,
Contrary to the separate opinion’s view, see Separate Op.
34, use of the term “source category” (rather than “list”) leaves
open whether the EPA might regulate, in its Section 7411(d) gapfilling capacity, the emission even of hazardous air pollutants
listed under Section 7412 when emitted by sources that Section
7412 does not reach, but to which Section 7411 does apply, see 42
U.S.C. § 7412(c)(1), (3)–(6); see also Clean Power Plan, 80 Fed.
Reg. at 64,714–64,715 (stating that “both the House and Senate
amendments should be read individually as having the same
19

App. 141
573 U.S. at 317 (The phrase “any air pollutant” in
Section 7411 must be given “a reasonable, contextappropriate meaning[.]”). The EPA has regulated over
140 source categories under Section 7412. EPA Br.
180. But it regulates only their emission of hazardous
pollutants. In other words, Section 7412’s regulatory
scheme operates not broadly on the source category,
but only on its emissions of the specified air pollutants.
So Section 7412 does not and cannot police a source
category’s every emission, only its emission of “hazardous” air pollutants. That is why it is called the Hazardous Air Pollutants program, not the Hazardous
Sources program. Reading Section 7411(d) as excluding only those air pollutants already governed by
Section 7412’s emissions regulations maps exactly
onto romanette one’s parallel exclusion of pollutants
(not sources) already regulated under NAAQS. See 42
U.S.C. § 7411(d)(1)(A)(i). And it fits with Section 7411’s
gap-filling purpose, which is to capture those dangerous air pollutants not covered by NAAQS or the Hazardous Air Pollutants program. See S. REP. No. 911196, at 20.
Third, at the same time that Congress amended
Section 7411(d), it also added a savings clause, Section
7412(d)(7), to the Hazardous Air Pollutants provision.
That provision says that “[n]o emission standard
meaning in the context presented in this rule,” but that “it is reasonable to interpret the House amendment of the Section [7412]
Exclusion as only excluding the regulation of [hazardous air pollutant] emissions under [Clean Air Act] section [7411(d)] and only
when that source category is regulated under [Clean Air Act] section [7412.]”) (emphasis added).

App. 142
or other requirement promulgated under this section
shall be interpreted, construed, or applied to diminish
or replace * * * applicable requirements established
pursuant to section [7411], part C or D[.]” 1990 Amendments, sec. 301, § 112(d)(7), 104 Stat. at 2540–2541
(codified at 42 U.S.C. § 7412(d)(7)). That language requires reading Section 7411(d)’s simultaneously enacted cross-reference to regulation under Section 7412
narrowly and consistently with Section 7411(d)’s complementary role in the statutory scheme. It certainly
does not allow courts to read the cross-reference as the
major amputation of authority to regulate that the
Coal Petitioners propose.
ii. The House Amendment Is Not a Trojan Horse
The Coal Petitioners and the separate opinion eschew reading the House and Senate updates of the
cross-reference harmoniously. They prefer to pit the
House Amendment against the Senate Amendment
and espy in the former a major change in the law
that—without a word of warning or explanation—
would have significantly curtailed the regulation of air
pollutants and broadly insulated stationary sources
from regulatory oversight for their non-hazardous but
still-dangerously polluting emissions.
There is a litany of problems with that approach.
For starters, recall that the House and Senate
Amendments were meant to address an outdated
statutory cross-reference. It is not the function of a single chamber’s miscellaneous guidance or conforming

App. 143
amendment of a cross-reference to materially overhaul
or truncate a statutory provision’s operative reach. Instead, reading both amendments together as serving
the same purpose of cross-referencing a new statutory
list of air pollutants fits with their legislative purpose
and text. To be sure, the Clean Air Act “is far from a
chef d’oeuvre of legislative draftsmanship,” but “we,
and EPA, must do our best, bearing in mind the ‘fundamental canon of statutory construction that the
words of a statute must be read in their context and
with a view to their place in the overall statutory
scheme.’ ” UARG, 573 U.S. at 320 (quoting Brown &
Williamson, 529 U.S. at 133).
More to the point, neither the House nor Senate Amendment said anything about changing the
EPA’s affirmative regulatory obligation under Section 7411(d) to promulgate emissions guidelines for all
air pollutants, except those already regulated under
the NAAQS or Section 7412. Yet reading the House
Amendment as abruptly withdrawing from Section
7411(d)’s reach entire source categories and all of the
otherwise-unregulated emissions they spew would put
the House Amendment in direct conflict with not only
the unambiguous language of the Senate Amendment,
but also with the Clean Air Act’s gap-filling structure
and purpose, as well as with EPA’s overarching regulatory obligation. And it would supposedly do all of that
contrary to the statutory history, in defiance of the
technical and updating nature of the two Amendments,
and without a whisper of warning by a single House
or Senate member that the miscellaneous guidance

App. 144
would cripple Section 7411’s correlative function in the
statutory scheme.
At best, the Coal Petitioners’ and separate opinion’s vision of the House Amendment would have the
EPA’s regulatory authority under Section 7411(d) turn
on a fluke of timing The Section 7412(d)(7) savings
clause mentioned above, by its terms, protects the operation of Section 7411 regulations already in effect.
So, too, does the House Amendment, which only excises
what already “is regulated” under Section 7412. Under
the Coal Petitioners’ approach, then, the Clean Air Act
would allow the EPA to regulate sources under both
Section 7411(d) and Section 7412 if, and only if, the
EPA adopted its Section 7411(d) regulation before the
Section 7412 regulation. No rational explanation is offered as to why Congress would want the mere sequencing of regulations to render them either lawful or
invalid.
More to the point, the Coal Petitioners and the
separate opinion point to nothing in the legislative record even hinting at a rationale for removing Section
7412 sources entirely from Section 7411’s reach. Nothing suggests that Congress intended to veer off in that
substantive legislative direction. The Senate certainly
had no such intention.
The Coal Petitioners suggest that the EPA could
instead regulate carbon dioxide under Section 7412.
But they do not really mean it, as they say in the same
breath that carbon dioxide would be a “poor fit” for Section 7412. Coal Pet’rs Br. 33 n.8. That is because

App. 145
Section 7412 strictly regulates all sources that emit
ten tons per year or more of hazardous pollutants. 42
U.S.C. § 7412(a)(1). Adding carbon dioxide to that list
would lead to a massive regulatory expansion of EPA
authority to include everything from schools to hospitals and apartment buildings. Cf. UARG, 573 U.S. at
328. It would make no sense to conclude that Congress
intended an unheralded string of words in a “Miscellaneous Guidance” amendment to hobble the gap-filling
function of Section 7411(d) and to disable the EPA
from addressing the source of one-third of this country’s greenhouse gas emissions.
Nor can the Coal Petitioners hang their hats on
the inclusion of the House Amendment in the codified
version of Section 7411(d). Putting aside that the two
amendments readily can, and so must, be read harmoniously as just updating the exclusion of alreadyregulated air pollutants, it is settled that “the Code
cannot prevail over the Statutes at Large when the two
are inconsistent.” Stephan v. United States, 319 U.S.
423, 426 (1943); see also Five Flags Pipe Line Co. v. Department of Transp., 854 F.2d 1438, 1440 (D.C. Cir.
1988) (“[W]here the language of the Statutes at Large
conflicts with the language in the United States Code
that has not been enacted into positive law, the language of the Statutes at Large controls.”).
The Coal Petitioners’ and the separate opinion’s
other efforts to cast aside the Senate Amendment all
fail.

App. 146
First, the Coal Petitioners and the separate opinion point to the Chafee-Baucus Statement of Senate
Managers, in which Senators Chafee and Baucus addressed the negotiations surrounding the “Miscellaneous Guidance” in the 1990 Amendments. Using this
statement, the Coal Petitioners and the separate opinion try to brush off the duly enacted Senate Amendment as a scrivener’s or drafter’s error. To that end,
they stress the Managers’ statement that, in the “Conference agreement,” the “Senate recedes to the House
except * * * with respect to the requirement regarding
judicial review of reports * * * and with respect to
transportation planning[.]” 136 CONG. REC. 36,007,
36,067 (Oct. 27, 1990).
That argument does not even get out of the starting gate. It should go without saying that two Managers’ description of what a report said does not override
the Conference Report itself. And it surely cannot
erase the Senate Amendment text that was enacted by
both the House and the Senate, and signed into law by
the President.
In fact, the Managers were wrong about what the
Conference Report said. What the Conference Report
actually says is that “the Senate recede[s] from its
disagreement to the amendment of the House to
the text of the bill and agree to the same with an
amendment as follows.” H.R. REP. NO. 101-952, at 1
(Conf. Rep.) (emphasis added). The “amendment [that]
follow[ed]” included the text of the Senate Amendment
as well as the House Amendment. See id. at 73, 183.
So the agreement retained the Senate Amendment

App. 147
language; the Senate plainly did not withdraw it. The
accompanying joint explanatory statement of the
Conference Committee confirms that the Senate receded to the House subject to this amendment, “which
[was] a substitute for the Senate bill and the House
amendment” and contained both the House and Senate
Amendments at issue here. See id. at 335.
Beyond that, the Chafee-Baucus statement cannot
bear the weight the Coal Petitioners and the separate
opinion need it to carry. At most, as a “statement of
managers,” it purports to summarize the more than
800-page Conference Report. 136 CONG. REC. at 36,065.
We generally do not view such statements as persuasive evidence of congressional intent, let alone an excuse for unceremoniously discarding unambiguous
statutory text as a “drafter’s error.” See Separate Op.
at 25 cf. Weyerhaeuser Co. v. Costle, 590 F.2d 1011, 1052
n.67 (D.C. Cir. 1978). Not to mention that we have
specifically ruled that this very same floor statement
carries little weight. Environmental Def. Fund, Inc. v.
EPA, 82 F.3d 451, 460 n.11 (D.C. Cir. 1996). Simply put,
the statement’s purpose was to explain the report, not
to change the content of the law, to resolve substantive
conflicts, or to effect sweeping change in the statute’s
reach. See Glossary Term: Statement of Managers,
U.S. SENATE, https://www.senate.gov/reference/glossary_
term/statement_of_managers.htm (last visited Jan. 11,
2021).
Second, the Coal Petitioners argue that we should
disregard the Senate Amendment because it is a “[c]onforming [a]mendment.” See 1990 Amendments, § 302,

App. 148
104 Stat. at 2574. A conforming amendment can serve
to harmonize statutory provisions, which is exactly
what the Senate Amendment did by updating the
cross-reference. See Burgess v. United States, 553 U.S.
124, 135 (2008).
That does not mean that the statutory provision
can be ignored. See Burgess, 553 U.S. at 135. The Senate Amendment’s careful maintenance of the status
quo through a cross-reference update evidences a deliberate preservation of the prior regulatory scope of
Section 7411.
By the way, if labels were what matters, the
House’s “Miscellaneous Guidance” provides no platform for the major legislative surgery on Section 7411
that the Coal Petitioners and the separate opinion envision.
Third, the Coal Petitioners ask us to defer to the
Office of the Law Revision Counsel’s decision to codify
the House Amendment rather than the Senate Amendment. The separate opinion reasons as well that the
Office of Law Revision Counsel is “the leading candidate” for deference. Separate Op. 23.
No such deference is due. While the Office of the
Law Revision Counsel has expertise in the technical
aspects of the codification process, it has no license,
without Congress’ approval, to change the substantive
meaning of enacted law or to throw away an entire
statutory provision. See Ganem, 746 F.2d at 851. That
is why the Public Law prevails over the United States
Code in case of conflict. See 1 U.S.C. § 112; Stephan, 319

App. 149
U.S. at 426; United States v. Welden, 377 U.S. 95, 98 n.4
(1964).
Fourth, the Coal Petitioners point to Congress’
drafting manuals, which suggest that a first-intime amendment, such as the House Amendment, supersedes a later-in-the-legislative-process amendment
like the Senate Amendment. See U.S. SENATE, OFFICE
OF LEGISLATIVE COUNSEL, LEGISLATIVE DRAFTING MANUAL (“SENATE MANUAL”) § 126(d) (1997) (“If, after a first
amendment to a provision is made * * *, the provision is again amended, the assumption is that the
earlier (preceding) amendments have been executed.”);
U.S. HOUSE OF REPRESENTATIVES, OFFICE OF LEGISLATIVE COUNSEL, HOUSE LEGISLATIVE COUNSEL’S MANUAL ON DRAFTING STYLE (“HOUSE MANUAL”) § 332(d)
(1995) (“The assumption is that the earlier (preceding)
amendments have been executed.”).
One problem is that the Coal Petitioners provide
no evidence that those manuals or their provisions
were in place at the time of the 1990 Amendments.
A bigger problem is that it is doubtful that the
cited manual provisions even apply in this scenario.
These provisions are located in sections for “Cumulative Amendments,” in which an amended provision is
added onto by later provisions. See SENATE MANUAL
§ 126(d); HOUSE MANUAL § 332(d). Both manuals suggest that language should be added to such a provision
to “alert the reader” to the later amendments. SENATE MANUAL § 126(d); see also, e.g., HOUSE MANUAL
§ 332(d)(1) (suggesting the following language for a

App. 150
cumulative amendment: “Title XX is amended by adding after section 123 (as added by section 802 of this
Act) the following new section:”). That alert did not
happen here. The House Amendment in Section 108 includes no reference to the Senate Amendment in Section 302, and there is no evidence that Congress
believed it was adopting contradictory amendments in
the final law.
The biggest problem of all is that nothing in the
manuals says that a later but duly enacted amendment that has been signed into law can be cast aside
as meaningless. Nor would it make any sense to do so
here, when Congress placed the Senate Amendment in
the logical statutory position to update a cross-reference
to Section 7412. That amendment is located in the Public Law title addressing Hazardous Air Pollutants and
is the very first provision (in Section 302 of the Public
Law) that follows the many changes to Section 7412’s
Hazardous Air Pollutants program (in Section 301 of
the Public Law). See 1990 Amendments, title III, sec.
301, § 112,104 Stat. at 2531; id. sec. § 302(s), 104 Stat.
at 2574. The House Amendment, on the other hand,
appears as “[m]iscellaneous [g]uidance” in the title of
the Public Law pertaining to the NAAQS program,
not the Hazardous Air Pollutants program. See 1990
Amendments, title I, § 108(g), 104 Stat. at 2467.
Finally, the Coal Petitioners and the separate
opinion insist that, by subsuming the Senate Amendment’s targeted focus within their much broader reading of the House Amendment, they are somehow giving
effect to both. See Coal Pet’rs Br. 29–30; Separate Op.

App. 151
28–30. The separate opinion sees it as no different than
if a father did not want to name a child after a president from Virginia, and a mother did not want to name
the child after any president. There is no conflict there,
as the separate opinion sees it, because the mother’s
sweeping prohibition includes “every name excluded
by the father (and then some).” Separate Op. 29–30.
But, of course, it is the “and then some” that is
the problem. By vastly overshooting the technical
task of correcting a cross-reference, the separate opinion’s and Coal Petitioners’ proposed reading of the
House Amendment is not “supplement[ing]” the Senate Amendment’s exclusion of duplicate regulation.
Separate Op. 30. It is supplanting it by destroying the
Senate Amendment’s express preservation of Section
7411(d)’s pre-existing regulatory directive. To borrow
the analogy, the separate opinion’s vision of parental
harmony is likely to be entirely lost on the father
whose heart was set on naming his child Abraham,
Theodore, or Harry.
The Coal Petitioners’ and separate opinion’s fundamental mistake in claiming to give effect to both
Amendments is that the statute cannot mean both
what the Senate Amendment says and what they
think the House Amendment says: Section 7411(d) as
amended in the 1990 Act cannot have simultaneously
preserved and eliminated Section 7411(d)’s preexisting
reach. As this case shows, the difference is quite material: It determines whether Section 7411(d) allows
any regulation of power plants’ greenhouse gas emissions or not. Given that, it blinks reality to claim that

App. 152
absorbing the Senate Amendment into the House
Amendment in the manner the Coal Petitioners and
the separate opinion propose somehow retains the
Senate Amendment’s independent effect. A mouse
swallowed by a snake, while still present in some metaphysical way, hardly feels equally preserved.
At bottom, when confronted with two competing
and duly enacted statutory provisions, a court’s job is
not to pick a winner and a loser. The judicial duty is to
read statutory text as a harmonized whole, not to foment irreconcilability. See Bell Atl. Tel. Cos. v. FCC, 131
F.3d 1044, 1047 (D.C. Cir. 1997) (“Where, as here, we
are charged with understanding the relationship between two different provisions within the same statute, we must analyze the language of each to make
sense of the whole.”). Reading both amendments consistently “pursue[s] a middle course” that “vitiates
neither provision but implements to the fullest extent
possible the directives of each[.]” Citizens to Save
Spencer Cnty. v. EPA, 600 F.2d 844, 871 (D.C. Cir. 1979).
Said another way, the better and quite natural reading
of all of the relevant enacted statutory text, structure,
context, purpose, and history is one that harmonizes
the House and Senate Amendments, avoids determining that one chamber of Congress smuggled dramatic and unlikely changes to the Agency’s regulatory authority into the Act through miscellaneous
“guidance,” and instead faithfully accomplishes the
legislative adjustment needed to respond to the
changes to Section 7412.

App. 153
iii.

The Harmonized Reading
Stands the Test of Time

Reading the two provisions consistently as successfully performing their “conforming” and “miscellaneous” task of updating Section 7411(d)’s crossreference to continue to exclude air pollutants already
regulated under Section 7412 also maps onto the EPA’s
consistent interpretation of the statute. And that reading has stood the test of time, without congressional
correction. The EPA first announced its interpretation
of Section 7411(d) as excluding Section 7412’s hazardous pollutants, rather than source categories, in the
immediate wake of the 1990 Amendments. See Standards of Performance for New Stationary Sources and
Guidelines for Control of Existing Sources: Municipal
Solid Waste Landfills, 56 Fed. Reg. 24,468, 24,469
(May 30, 1991) (explaining that Section 7411(d) requires States to submit plans for standards of performance for pollutants that endanger the public health
or welfare but are “not ‘hazardous’ within the meaning
of section 112 of the CAA and [are] not controlled under sections 108 through 110 of the CAA”). The EPA
has not deviated from that interpretation in the ensuing decades. Oral Argument Tr. 174:19–22. The EPA’s
view also gives effect to Section 7411(d)’s gap-filling
purpose, see S. REP. NO. 91-1196, at 20, by allowing it
to continue to regulate dangerous pollutants that are
not policed by Section 7412 or NAAQS.
The EPA’s interpretation also dovetails with the
development of judicial precedent. The Supreme
Court has specifically addressed Section 7411(d)’s

App. 154
regulation of carbon dioxide emissions from fossil-fuelfired power plants. In American Electric Power Co. v.
Connecticut (AEP), the Supreme Court held that the
Clean Air Act foreclosed any federal common law right
to challenge the regulation (or lack thereof ) of carbon
dioxide emissions from power plants. 564 U.S. 410,
424–425 (2011). In so ruling, the Supreme Court relied
on the displacing force of Section 7411, and specifically
Section 7411(d). Id. In ruling that “the Clean Air Act
and the EPA actions it authorizes displace any federal
common-law right to seek abatement of carbon-dioxide
emissions from fossil-fuel fired powerplants,” the
Supreme Court pointed directly to the Section 7411
regulatory scheme, including, “most relevant here,
§ 7411(d).” Id. at 424. The Supreme Court even noted
that the “EPA is currently engaged in a § 7411 rulemaking to set standards for greenhouse gas emissions
from fossil-fuel fired powerplants.” Id. at 425. As the
Supreme Court explained, Section 7411 “ ‘speaks directly’ to emissions of carbon dioxide from * * * [power]
plants.” Id. at 424.
The Coal Petitioners and the separate opinion put
all their eggs in a footnote in AEP that notes Section
7411(d)’s exclusions. The footnote states that the “EPA
may not employ § 7411(d) if existing sources of the pollutant in question are regulated under the national
ambient air quality standard program, §§ 7408–7410,
or the ‘hazardous air pollutants’ program, § 7412.”
AEP, 564 U.S. at 424 n.7. That footnote comports with
the EPA’s harmonized reading of the House and Senate
Amendments because it says that Section 7411(d) does

App. 155
not apply when “the pollutant in question” is already
regulated under one of the other two programs. See
EPA Br. 189 (pointing out that the footnote’s “use of the
phrase ‘of the pollutant in question’ suggests that [the
Court] understood the regulatory bar to be pollutantspecific, consistent with EPA’s interpretation”).
The footnote could not mean otherwise. At the
time of AEP, electricity-generating power plants as
sources of different pollutants were already regulated
under the NAAQS provisions. See, e.g., American
Trucking Ass’ns, Inc. v. EPA, 283 F.3d 355, 359 (D.C. Cir.
2002) (considering NAAQS for particulate matter and
ozone). So if the footnote did anything more than generally flag a statutory exclusion for already-regulated
emissions—if it instead embraced the Coal Petitioners’
and separate opinion’s claim that Section 7411(d) excludes sources, rather than already-regulated emissions—then the Court could not have ruled as it did.
Specifically, it could not have relied on Section 7411(d)
to hold that the Clean Air Act displaced the common
law by “speak[ing] directly” to the EPA’s authority to
regulate power plants’ emission of greenhouse gases.
See AEP, 564 U.S. at 424. The footnote certainly did not
purport to unravel the central rationale for AEP’ s
holding.
***
For all of those reasons, we hold that Section
7411(d) allows the EPA to regulate carbon dioxide
emissions from power plants, even though mercury

App. 156
emitted from those same power plants is regulated as
a hazardous air pollutant under Section 7412.
B.

THE ROBINSON PETITIONERS’ CHALLENGES

Another group of petitioners—including the Texas
Public Policy Foundation, the Competitive Enterprise Institute, and various businesses that petitioned
jointly with a forest-services firm named Robinson Enterprises, Inc. (together, the Robinson Petitioners)—
challenge the ACE Rule as overstepping the EPA’s authority. The Robinson Petitioners are the only parties
that claim that the ACE Rule impermissibly regulates
carbon dioxide emissions using Section 7411 of the
Clean Air Act rather than Sections 7408 through 7410,
under which the EPA sets NAAQS. Our ability to consider that claim fails due to the Robinson Petitioners’
lack of standing.
The Robinson Petitioners assert the organizational standing of the Texas Public Policy Foundation
and the Competitive Enterprise Institute, both nonprofit, nonpartisan organizations. Because the Foundation and the Institute seek the same relief on the
same claim, only one needs to demonstrate standing.
See American Anti-Vivisection Soc’y v. United States
Dep’t of Agric., 946 F.3d 615, 619-620 (D.C. Cir. 2020).
The two organizations argue standing based on harm
to their own activities; neither appears to be a membership organization, and they claim no associational,
or representational, standing based on harm to members.

App. 157
To establish standing, an organization, like an individual, must show an actual or imminent injury in
fact that is fairly traceable to the challenged action
and likely to be redressed by a favorable decision. See
Havens Realty Corp. v. Coleman, 455 U.S. 363, 378–379
(1982); see also American Anti-Vivisection Soc’y, 946
F.3d at 618. Because neither organization is directly
subject to the challenged rule, their “standing is ‘substantially more difficult to establish[.]’ ” Public Citizen,
Inc. v. National Highway Traffic Safety Admin., 489
F.3d 1279, 1289 (D.C. Cir. 2007) (Kavanaugh, J.) (quoting Lujan v. Defenders of Wildlife, 504 U.S. 555, 562
(1992)).
Each organization proffers a distinct ground and
theory of standing, so we analyze them in turn. The
standing of both the Texas Public Policy Foundation
and the Competitive Enterprise Institute falters on the
first factor, injury in fact, so we need not consider the
remaining two factors.
The Texas Public Policy Foundation states that its
mission is to provide legal counseling and services on
a broad swath of matters, including promoting “a balanced approach to environmental regulation” by
providing “legal counseling, referral, and advocacy services to individuals and businesses injured by federal,
state, or local government overreach[.]” Decl. of Greg
Sindelar ¶¶ 5, 7 (“[Its] mission is to promote, defend,
and ensure liberty, personal responsibility, property
rights, criminal justice reform, greater educational opportunities for all, a balanced approach to environmental regulation, free speech, state’s rights under the

App. 158
10th Amendment, energy sufficiency, and free enterprise[.]”). The Foundation’s attorneys litigate cases on
a wide range of issues on behalf of clients and refer
clients to private counsel when necessary. Id. ¶ 8.
The Foundation claims that the challenged rule has
“caused a drain on [its] resources because [it] has had
to divert significant time, effort, and resources from
[its] activities in the area of property rights and wetlands regulation, for example,” in order to represent
clients “who are forced to deal with” the federal regulation of greenhouse gases. Id. ¶ 9.
It is well established that injury to an organization’s advocacy activities does not establish standing.
See, e.g., Center for Law & Educ. v. Department of
Educ., 396 F.3d 1152, 1162 n.4 (D.C. Cir. 2005) (citing
Sierra Club v. Morton, 405 U.S. 727, 739–740 (1972)).
That is because “the expenditure of resources on advocacy is not a cognizable Article III injury.” Turlock Irrigation Dist. v. FERC, 786 F.3d 18, 24 (D.C. Cir. 2015).
To hold otherwise “would eviscerate standing doctrine’s actual injury requirement” by permitting an interest group to generate its own standing merely by
putting an issue in its lawyers’ crosshairs. Id. (quoting
Center for Law & Educ., 396 F.3d at 1162 n.4); see
also National Taxpayers Union, Inc. v. United States,
68 F.3d 1428, 1434 (D.C. Cir. 1995). The Texas Public
Policy Foundation declares only that, since the EPA issued the ACE Rule, it has increased its legal counseling, referral, and advocacy on behalf of clients affected
by the regulation of greenhouse gases rather than
other clients. That is precisely the kind of injury to

App. 159
advocacy—and expenditure of resources on such efforts—that we have held does not amount to injury in
fact.
The Foundation does not show the kind of perceptible impairment to its mission that sufficed for standing in a case like American Anti-Vivisection Society.
There, we found injury because the agency’s inaction—
specifically, its failure to promulgate standards regarding the humane treatment of birds—deprived the
organization of key information on which its public educational activities depended. See 946 F.3d at 619.
That inaction compelled the organization to develop
guidance for the public that otherwise would have been
provided by the agency’s standards. Id. By contrast,
the Foundation fails to allege impairment of any similarly “discrete programmatic concerns” aside from its
non-cognizable advocacy activities. National Taxpayers Union, 68 F.3d at 1433 (quoting American Legal
Found. v. FCC, 808 F.2d 84, 92 (D.C. Cir. 1987)).
The Foundation points to Abigail Alliance for Better Access to Developmental Drugs v. Eschenbach, 469
F.3d 129 (D.C. Cir. 2006), in arguing that the cost associated with more legal counseling, referral, and advocacy services is a source of injury. But the “counseling,
referral, advocacy, and educational services” at issue
in Abigail Alliance were medical services, not legal
services, and they directly furthered the plaintiff ’s
mission of providing access to potentially life-saving
medical drugs and treatments. See id. at 132–133.
The Foundation’s transplantation of Abigail Alliance’s words into the context of legal representation

App. 160
and counseling cannot change the outcome: the costs
of litigation are not a cognizable Article III organizational injury. See Turlock, 786 F.3d at 24.
The Competitive Enterprise Institute claims a different injury, which also falls short: the risk that it will
face higher electricity bills. The Institute works to
counter “economic overregulation in areas ranging
from technology and finance to energy and the environment,” Decl. of Kent Lassman ¶ 3, and avers that it
relies on electricity to power its headquarters in Washington, D.C., id. ¶¶ 2, 4. It says that the Regulatory Impact Analysis for the ACE Rule shows that the Rule
could increase its electricity costs. That analysis estimated a 0.0% to 0.1% increase in average retail electricity prices nationwide attributable to the Rule
between 2025 and 2035. See S.A. 220 (projecting baseline prices, in cents per kilowatt-hour, of 10.49 and
10.71 in 2025 and 2030, respectively, as compared to
10.50 and 10.72 under the ACE Rule, and estimating
no increase attributable to the ACE Rule by 2035).
The Regulatory Impact Analysis that the Institute
cites modeled one “illustrative policy scenario on retail
electricity prices[,]” S.A. 220, and included the caveat
that the estimates were based on “inadequate and incomplete information[,]” meaning that “costs could be
lower[,]” S.A. 222. The analysis acknowledged that “the
EPA has not analyzed or modeled a specific standard
of performance,” and recognized that costs could vary
depending on “how states might apply the [best system
of emission reduction] taking account of source-specific
factors in setting standards of performance, and how

App. 161
sources might comply with those standards.” S.A. 221–
222. It also identified “several key areas of uncertainty
related to the electric power sector[,]” including electricity demand, natural gas supply and demand, and
longer-term planning by utilities. S.A. 222.
Even a small injury may suffice to support standing, see, e.g., Competitive Enter. Inst. v. FCC (CEI) 970
F.3d 372, 384 (D.C. Cir. 2020), but it must be “concrete
and particularized and actual or imminent, not conjectural or hypothetical,” id. at 381 (quoting Spokeo, Inc.
v. Robins, 136 S. Ct. 1540, 1548 (2016)). “Were all
purely speculative increased risks deemed injurious,
the entire requirement of actual or imminent injury
would be rendered moot, because all hypothesized,
nonimminent injuries could be dressed up as increased
risk of future injury.” Public Citizen, 489 F.3d at 1294
(quoting Natural Res. Def. Council v. EPA, 464 F.3d 1,
6 (D.C. Cir. 2006)).
In recognition that standing must rest on a concrete injury that is at least imminent, “we have repeatedly held that litigants cannot establish an Article III
injury based on the independent actions of some third
party not before this court.” Turlock, 786 F.3d at 25
(formatting modified) (quoting Florida Audubon Soc’y
v. Bentsen, 94 F.3d 658, 670 (D.C. Cir. 1996) (en banc)).
“This is because ‘predictions of future events (especially future actions taken by third parties)’ are too
speculative to support a claim of standing.” Id. (quoting
United Transp. Union v. ICC, 891 F.2d 908, 912 (D.C.
Cir. 1989)).

App. 162
The remoteness and contingency of the prospect
that the Competitive Enterprise Institute will in the
future actually face even the tiny rate increase tentatively projected as possibly arising from the challenged
ACE Rule renders its claimed injury speculative and
thus defeats its standing. In particular, the effect the
Institute anticipates on its future electricity rates depends on how third parties—such as electricity generators, electricity providers, public utility commissions,
and state pollution control agencies—might react to
the ACE Rule. See EPA Br. 192. It also turns on the
nature of standards that States decide to set, and on
the compliance choices of regulated sources. Id. It remains entirely unclear what standards States would
develop in response to the “best system of emission reduction,” how and whether those standards would
have any effect on the costs of generation and transmission of energy, and whether rates will be affected
by any offsetting savings through state or federal support for different generation mixes. A theory that
“stacks speculation upon hypothetical upon speculation * * * does not establish an ‘actual or imminent’ injury.” Turlock, 786 F.3d at 24 (quoting New York Reg’l
Interconnect, Inc. v. FERC, 634 F.3d 581, 587 (D.C. Cir.
2011)); see Arpaio v. Obama, 797 F.3d 11, 20-23 (D.C.
Cir. 2015). In asking us to anticipate the future actions
of various third parties that are not before us, the Institute does just that.
At oral argument, the Competitive Enterprise Institute identified as its strongest support our decision
in Competitive Enterprise Institute v. FCC. But the

App. 163
concrete and actual injury claimed there was traceable
through “a relatively simple causal chain[,]” 970 F.3d
at 383, unlike the harm asserted here, which is based
on “inadequate and incomplete information[,]” S.A.
222, and dependent on third parties’ unpredictable responses to the ACE Rule. Critically, the plaintiffs there
demonstrated that their interne prices in fact had increased since the agency took its challenged action.
CEI, 970 F.3d at 382–383. This record lacks any such
evidence.
Because neither the Texas Public Policy Foundation nor the Competitive Enterprise Institute shows
injury in fact to support the Robinson Petitioners’
standing, we cannot address the merits of their
NAAQS-related challenge to the ACE Rule.
IV. AMENDMENTS TO THE
IMPLEMENTING REGULATIONS
When the EPA repealed the Clean Power Plan and
finalized the ACE Rule, it also changed the longstanding implementing regulations generally applicable
to emission guidelines promulgated under Section
7411(d) of the Clean Air Act. See ACE Rule, 84 Fed.
Reg. at 32,564–32,571. The Public Health and Environmental Organization Petitioners (the Public Health
Petitioners) challenge the implementing regulations
insofar as they adopt new timing requirements that
substantially extend the preexisting schedules for
state and federal actions and sources’ compliance
under Section 7411(d). See 40 C.F.R. §§ 60.23a(a)(1),

App. 164
60.27a(b), 60.27a(c), 60.24a(d); see also ACE Rule, 84
Fed. Reg. at 32,567. Because the challenged regulations lack reasoned support, they cannot stand.
The new implementing regulations extend the
time allowed for States to submit their plans, for the
EPA to review those plans, for the Agency to promulgate federal plans where state plans fall short, and for
legally enforceable consequences to attach to sources
that are slow to comply. Those extended timeframes
apply unless the EPA otherwise specifies with respect
to particular emission guidelines. See ACE Rule, 84
Fed. Reg. at 32,568. The Public Health Petitioners argue that the amendments are arbitrary and capricious
because the Agency altogether failed to address the urgency of controlling harmful emissions—especially the
greenhouse gas emissions accelerating climate change.
At the threshold, the EPA asserts that the Public
Health Petitioners forfeited any challenge to the
amended implementing regulations, but we conclude
the claim was preserved. The EPA contends that Petitioners “barely mention” this claim in their opening
brief, EPA Br. 268-269 (citing CTS Corp. v. EPA, 759
F.3d 52, 60 (D.C. Cir. 2014)), but it was adequately, if
concisely, set forth, see Pub. Health & Env’t Orgs. Br.
11-13. The issue is neither particularly complex nor as
momentous as others in the case; Petitioners nonetheless clearly stated and supported the claim with citations to the record and sources of legal authority. Id.
That relatively abbreviated treatment suffices. See,
e.g., Tribune Co. v. FCC, 133 F.3d 61, 69 n.8 (D.C. Cir.
1998) (noting one paragraph in a fifty-eight-page brief

App. 165
arguing that the agency’s action was arbitrary and capricious sufficed to preserve the claim).
Petitioners’ joint comment on this amendment as
the EPA proposed it in the rulemaking process, which
Petitioners cite in their brief, provides more detail. See
Pub. Health & Env’t Orgs. Br. 13 (citing Comments of
Environmental and Public Health Organizations on
Proposed Revisions to Emission Guideline Implementing Regulations 26–27, J.A. 973–974). The EPA well
understands the nature of the claim, see EPA Br. 268269, and there is no indication the brevity of the discussion in Petitioners’ opening brief prejudiced the
Agency at all. Cf. Avia Dynamics, Inc. v. Federal Aviation Admin., 641 F.3d 515, 521 (D.C. Cir. 2011) (forfeiture excused where federal agency was placed on
notice of arguments by extensive substantive motion
practice).
On the merits, the EPA failed to justify substantially extending established compliance timeframes,
including deadlines that it has had in place since 1975.
See State Plans for the Control of Certain Pollutants
from Existing Facilities, 40 Fed. Reg. 53,340, 53,345,
53,346–53,348 (Nov. 17, 1975). Before we can sustain
agency action as nonarbitrary under the APA, “the
agency must * * * articulate a satisfactory explanation for its action including a ‘rational connection between the facts found and the choice made.’ ” Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983) (quoting Burlington Truck Lines v. United States, 371 U.S. 156, 168
(1962)). Petitioners’ comments took issue with the tepid

App. 166
justifications the Agency offered, but the heart of their
challenge is the EPA’s complete failure to say anything
at all about the public health and welfare implications
of the extended timeframes.
The Agency principally relied on reviving an argument it had considered and rejected when it first
adopted the schedule it now displaces: that timeframes for the regulation of existing sources under
Section 7411(d) should necessarily mimic or exceed
timeframes for adoption of National Ambient Air
Quality Standards (NAAQS) under Section 7410 of
the Clean Air Act. Compare ACE Rule, 84 Fed. Reg. at
32,568, with State Plans for the Control of Certain Pollutants from Existing Facilities, 40 Fed. Reg. at 53,345.
Section 7411(d) calls for regulations that “establish a
procedure similar to that provided by [S]ection 7410[,]”
which, like Section 7411, requires States to submit
plans for the EPA’s approval and, if those plans are either not submitted or fall short, requires the EPA to
itself prescribe a plan. See 42 U.S.C. § 7410(a)(1), (c)(1);
id. § 7411(d)(1)–(2). The two sets of rules accordingly
reflect generally similar state-federal interactions.
But it is not evident that the statement that Section 7411(d) would use “a procedure similar” to that
employed under Section 7410 even speaks to timing
rules. As the Agency recognized when it promulgated
the 1975 rule, faster compliance was appropriate under Section 7411(d) because plans under this provision
are far simpler. They apply only to a single category of
source, whereas state plans for NAAQS under Section
7410 cover multiple types of sources. See 40 Fed. Reg.

App. 167
at 53,345 (commenting that “Section [7411](d) plans
will be much less complex than the [state implementation plans]” required under Section 7410). The Public
Health Petitioners’ comment on the 2018 proposed
amendments to the implementing regulations explained that “a section [7410 state implementation
plan] must ensure that ambient air concentrations of
a given pollutant in the state will stay below the EPAdesignated standard.” J.A. 971. That goal is “far more
complicated to both achieve and demonstrate” than
limiting source emissions under Section 7411(d), because “meeting the ambient air quality standards
involves air quality monitoring, complex modeling
procedures, close attention to such factors as topography, wind patterns, cross-[border] transport of air pollution, and many other considerations.” J.A. 971. By
the same token, Petitioners commented that the EPA
failed to justify giving itself as much time to review the
simpler Section 7411(d) plans as it has to review state
plans under Section 7410. J.A. 971–972. The EPA
failed to engage meaningfully with the different scale
of the two types of plans, dismissing Petitioners’ comment with the conclusory assertion that Section
7411(d) plans “have their own complexities and realities that take time to address.” ACE Rule, 84 Fed. Reg.
at 32,568.
The EPA’s proposed rule also relied on more general claims that the amended timelines are appropriate because of the amount of work involved in States’
plan development and in the EPA’s review of those
plans. See Emission Guidelines for Greenhouse Gas

App. 168
Emissions from Existing Electric Utility Generating
Units; Revisions to Emission Guideline Implementing
Regulations; Revisions to New Source Review Program: Proposed Rule, 83 Fed. Reg. 44,746, 44,771 (Aug.
31, 2018). In response, Petitioners commented that the
EPA did not document any problems during the decades that the existing timelines had been in place. J.A.
972 (“If the agency is truly concerned that the timing
provision[s] in the framework regulations are unworkable, it must provide actual evidence of this—which it
has not done thus far—and must propose amended
provisions that correspond to the actual workload involved in section [7411(d)] rulemakings[.]”). The Final
Rule failed to fill that gap. See, e.g., ACE Rule, 84 Fed.
Reg. at 32,568. Indeed, the Agency at one point seemed
to forget that it even had a burden of justification under the APA, going so far as to suggest that the obligation was somehow on the commenters to show that the
various actors do not need any additional time. Id.
It might be a close call whether, viewed in isolation, the analogy to Section 7410 and the general claim
of need for more processing time could supply the “rational connection” the APA requires. State Farm, 463
U.S. at 43. But we do not view those reasons in isolation.
The EPA’s weak grounds for routinizing additional
compliance delays in the amended implementing regulations are overwhelmed by its total disregard of the
added environmental and public health damage likely
to result from slowing down the entire Section 7411(d)
regulatory process. “Normally, an agency rule would be

App. 169
arbitrary and capricious if the agency * * * entirely
failed to consider an important aspect of the problem[.]” State Farm, 463 U.S. at 43. The extensions of
implementation deadlines here give no consideration
to the need for speed. Control of emissions from existing sources before they harm people and the environment is the central purpose of Section 7411(d) of the
Clean Air Act. Yet when it deferred the compliance
deadlines, the EPA did not even mention the need for
prompt reduction of those emissions or the human and
environmental costs of its substantial new delay.
In their comments, Petitioners emphasized the
gravity and urgency of impending harms from unlawfully uncontrolled emissions as a reason the EPA
must retain the tighter timeframes in the existing
rule, not promulgate a new rule to build in additional
years of delay. See Comments of Environmental and
Public Health Organizations on Proposed Revisions
to Emission Guideline Implementing Regulations
26–27, J.A. 973–974. They stressed in particular the
broad and longstanding scientific consensus on the role
of carbon dioxide emissions in accelerating climate
change, and insisted that “deep emission reductions
are needed immediately” in order to avoid “the worst
effects of climate change,” making time “of the utmost
essence.” Id. They explained how the timing amendments stymie effective control of carbon dioxide emissions:
[T]he amendments in question would permit
up to 60 months to elapse between the time
an EPA emission guideline is finalized and

App. 170
the time that affected sources must, at a minimum, begin reducing their emissions
through enforceable increments of progress.
Assuming EPA issues a final emission guideline for power plant [carbon dioxide] emissions in mid-2019, designated sources can be
expected to start reducing emissions in mid2024. * * * [T]he world has surpassed not
only the 350 ppm threshold—that atmospheric concentration of [carbon dioxide] that
is considered the maximum safe level—but
the 400 ppm threshold as well. If we are to
avoid the worst effects of climate change, deep
emission reductions are needed immediately:
time is simply of the utmost essence. For EPA
to inject even further delay into the process
* * * flouts the agency’s Clean Air Act obligation to require emission reductions to prevent
this endangerment to public health and welfare.
Comments of Environmental and Public Health Organizations 27, J.A. 974.
Not all source categories or types of emissions subject to Section 7411(d) present problems of the magnitude and urgency of those posed by unregulated carbon
dioxide emissions from power plants. But the Public
Health Petitioners’ comments on the Agency’s proposed amendments to the implementing regulations
squarely called on the EPA to explain how slowing
the regulatory timeframe with respect to any covered
emissions or source category might be justified and
consistent with the Act’s objective. See Comments of

App. 171
Environmental and Public Health Organizations 23,
J.A. 970.
In response to Petitioners’ concrete objections, the
final rule neither changed nor better justified the timing provisions. In fact, upon reading the rule’s explanation of the deadline extensions, one would have no
idea that the EPA actually recognized that greenhouse
gas pollution was causing a global climate crisis requiring urgent remediation. In finalizing the proposed
extensions to key deadlines, the EPA tersely reiterated
its stated interest in giving itself, States, and regulated
parties more time to comply—despite no showing of
need—and, contrary to its explanation of the rule it
displaced, stated that it was important after all to
align the timing of the Section 7411(d) state-plan process with the compliance schedule under Section 7410.
See ACE Rule, 84 Fed. Reg. at 32,564, 32,568.
The EPA did not even hint at how or whether it
determined that prolonging public exposure to ongoing
harms from pollutants emitted by existing source categories could be justified consistent with the core objectives of the Clean Air Act. That failure is irrational,
especially in the face of the EPA’s continued adherence
to its 2015 finding of an urgent need to counteract the
threats posed by unregulated carbon dioxide emissions
from coal-fired power plants. The EPA made no mention whatsoever of the harms that Petitioners warned
would result if the Agency slackened the pace of state
and federal action to mitigate the harms Section
7411(d) targets. In relation to the timing amendments, pollution control—whether in the context of

App. 172
carbon dioxide and the ACE Rule or air pollution more
generally—was simply not on the EPA’s agenda. In
short, Petitioners called the EPA’s attention to an important aspect of the regulatory problem, and the EPA
looked away.
The EPA offered what is at best a radically incomplete explanation for extending the compliance timeline. It offered undeveloped reasons of administrative
convenience and regulatory symmetry, even as it ignored the environmental and public health effects of
the Rule’s compliance slowdown. The EPA thus “failed
to consider an important aspect of the problem,” State
Farm, 463 U.S. at 43—indeed, arguably the most important aspect. We accordingly vacate the implementing regulations’ extensions of the Section 7411(d)
compliance periods.
V.

VACATUR

AND

REMAND

The ACE Rule expressly rests on the incorrect conclusion that the plain statutory text clearly foreclosed
the Clean Power Plan, so that complete repeal was “the
only permissible interpretation of the scope of the
EPA’s authority under [Section 7411].” ACE Rule, 84
Fed. Reg. at 32,534; see also id. at 32,532. “[T]hat error
prevented it from a full consideration of the statutory
question here presented.” Negusie v. Holder, 555 U.S.
511, 521 (2009). “Where a statute grants an agency discretion but the agency erroneously believes it is bound
to a specific decision, we [cannot] uphold the result as
an exercise of the discretion that the agency disavows,”

App. 173
United States v. Ross, 848 F.3d 1129, 1134 (D.C. Cir.
2017), and the “regulation must be declared invalid,
even though the agency might be able to adopt the regulation in the exercise of its discretion,” Prill v. NLRB,
755 F.2d 941, 948 (D.C. Cir. 1985) (quoting Planned
Parenthood Federation of America, Inc. v. Heckler, 712
F.2d 650, 666 (D.C. Cir. 1983) (Bork, J., concurring in
part and dissenting in part)); accord Arizona v. Thompson, 281 F.3d 248, 259 (D.C. Cir. 2002) (quoting Prill,
755 F.2d at 948).
Because the ACE Rule rests squarely on the erroneous legal premise that the statutory text expressly
foreclosed consideration of measures other than those
that apply at and to the individual source, we conclude
that the EPA fundamentally “has misconceived the
law,” such that its conclusion “may not stand.” SEC v.
Chenery Corp., 318 U.S. 80, 94 (1943). Accordingly, we
hold that the ACE Rule must be vacated and remanded
to the EPA so that the Agency may “consider the question afresh in light of the ambiguity we see.” Negusie,
555 U.S. at 523 (quoting Cajun Elec. Power Coop., Inc.
v. FERC, 924 F.2d 1132, 1136 (D.C. Cir. 1991)); accord
Peter Pan Bus Lines, Inc. v. Federal Motor Carrier
Safety Admin., 471 F.3d 1350, 1354 (D.C. Cir. 2006);
Prill, 755 F.2d at 948.
VI.

CONCLUSION

Because promulgation of the ACE Rule and its embedded repeal of the Clean Power Plan rested critically
on a mistaken reading of the Clean Air Act, we vacate

App. 174
the ACE Rule and remand to the Agency. We also vacate the amendments to the implementing regulations
that extend the compliance timeline. Because the objections of the Coal Petitioners are without merit, we
deny their petitions. And because the Robinson Petitioners lack standing, their petition is dismissed.
So Ordered.

WALKER, Circuit Judge, concurring in part, concurring
in the judgment in part, and dissenting in part: This
case concerns two rules related to climate change. The
EPA promulgated both rules under § 111 of the Clean
Air Act.1
1

When this opinion refers to § 111, it is specifically referring
to § 111(d). The codified version of § 111(d) is titled “Standards of
performance for existing sources; remaining useful life of source.”
42 U.S.C. § 7411(d). The first part reads:
(1) The Administrator shall prescribe regulations
which shall establish a procedure similar to that provided by section 7410 of this title under which each
State shall submit to the Administrator a plan which
(A) establishes standards of performance for any existing source for any air pollutant (i) for which air quality
criteria have not been issued or which is not included
on a list published under section 7408(a) of this title or
emitted from a source category which is regulated under section 7412 of this title but (ii) to which a standard
of performance under this section would apply if such
existing source were a new source, and (B) provides for
the implementation and enforcement of such standards
of performance. Regulations of the Administrator under this paragraph shall permit the State in applying a
standard of performance to any particular source under

App. 175
A major milestone in climate regulation, the first
rule set caps for carbon emissions. Those caps would
have likely forced shifts in power generation from
higher-polluting energy sources (such as coal-fired
power plants) to lower-emitting sources (such as natural gas or renewable energy sources).2 That policy is
called generation shifting.
Hardly any party in this case makes a serious and
sustained argument that § 111 includes a clear statement unambiguously authorizing the EPA to consider
off-site solutions like generation shifting. And because
the rule implicates “decisions of vast economic and political significance,” Congress’s failure to clearly authorize the rule means the EPA lacked the authority to
promulgate it.3
The second rule repealed the first and partially replaced it with different regulations of coal-fired power
plants. Dozens of parties have challenged both the repeal and the provisions replacing it.

a plan submitted under this paragraph to take into consideration, among other factors, the remaining useful
life of the existing source to which such standard applies.
Id.
2

For ease of reading, this opinion refers to the technical term
“coal-fired electric utility generating units” by the slightly less
precise but lay-friendlier term “coal-fired power plants.”
3
Utility Air Regulatory Group v. EPA, 573 U.S. 302, 324
(2014) (quoting FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120, 160 (2000)).

App. 176
In my view, the EPA was required to repeal the
first rule and wrong to replace it with provisions promulgated under § 111. That’s because coal-fired power
plants are already regulated under § 112, and § 111 excludes from its scope any power plants regulated under
§ 112. Thus, the EPA has no authority to regulate coalfired power plants under § 111.
I.
When the Constitution’s ratifiers empowered Congress to legislate on certain matters of national importance,4 they understood that federal regulation
came with risks. For example, Congress might impose
widely disbursed costs to benefit insular groups in a
nation of diverse economic and political interests. The
framers called those groups factions.5
To guard against factions, legislation requires
something approaching a national consensus. While a
single state’s simple majority can often subject that
state to “novel social and economic experiments,”6 federal legislation must survive bicameralism and presentment.7 Only through that process can ideologically
aligned states use federal power to impose their will
4

U.S. CONST. art. I, § 8.
See The FEDERALIST No. 10, at 56-65 (J. Madison) (J. Cooke
ed., 1961).
6
New State Ice Co. v. Liebmann, 285 U.S. 262, 311 (1932)
(Brandeis, J., dissenting).
7
U.S. CONST. art. I, §§ 1, 7; see INS v. Chadha, 462 U.S. 919,
951 (1983).
5

App. 177
on the unwilling.8 So too for ideologically aligned environmentalists. Or polluters. Or big tech. Or big labor.
Or free traders. Or fair traders. Or farmers. Or fishers.
Or butchers. Or bakers.
In that process, each political institution probes
legislative proposals from the perspective of different
constituencies.9 The House speaks for the people. The
Senate, among other roles, guards the interests of
small states. The Electoral College, with representation just short of proportional, strikes a balance between the two. And by staggering elections over two-,
four-, and six-year cycles, we further impede fleeting
factions from ganging up on small states and unpopular political minorities. The point is: It’s difficult to
pass laws on purpose.
This legislative gauntlet sometimes produces unfortunate, even tragic, consequences. Between the
1870s and 1960s, it foreclosed desperately needed
civil rights laws. For budget hawks who predict a fiscal crisis, it has blocked entitlement reform. And for
those who fear a climate crisis, it has prevented clear

8

Of course, even then, a legislative coalition cannot regulate
outside Congress’s enumerated powers. See U.S. CONST. art. I, § 8.
9
See Department of Transportation v. Association of American Railroads, 575 U.S. 43, 61 (2015) (Alito, J., concurring) (“Our
Constitution, by careful design, prescribes a process for making
law, and within that process there are many accountability checkpoints.”).

App. 178
congressional guidance on how to cool the planet and
who will foot the bill.10
That, however, is the price we pay for bicameralism and presentment. Major regulations and reforms
either reflect a broad political consensus, or they do not
become law.
In its clearest provisions, the Clean Air Act evinces
a political consensus. For example, according to Massachusetts v. EPA, carbon dioxide is clearly a pollutant,
and the Act’s § 202 unambiguously directs the EPA to
curb pollution from new cars.11
But for every carbon question answered in that
case, many more were not even presented.12 For example, does the Clean Air Act force the electric-power industry to shift from fossil fuels to renewable resources?
If so, by how much? And who will pay for it? Even if
Congress could delegate those decisions, Massachusetts v. EPA does not say where in the Clean Air Act
Congress clearly did so.
In 2009, Congress tried to supply that clarity
through new legislation.
Cf. Bowsher v. Synar, 478 U.S. 714, 722 (1986) (“That this
system of division and separation of powers produces conflicts,
confusion, and discordance at times is inherent, but it was deliberately so structured to assure full, vigorous, and open debate on
the great issues affecting the people and to provide avenues for
the operation of checks on the exercise of governmental power.”).
11
549 U.S. 497, 532-35 (2007).
12
In this opinion, “carbon” is used as shorthand for carbon
dioxide and other greenhouse gases.
10

App. 179
The House succeeded.13
The President supported it.14
But that effort stalled in the Senate.15
Since climate change is real, man-made, and
important, Congress’s failure to act was, to many, a
disappointment. But the process worked as it was
designed.16 In general, Senators from small states
blocked legislation they viewed as adverse to their voters.17 And because small states have outsized influence
in the Senate,18 no bill arrived on the President’s desk.
13

American Clean Energy and Security Act, H.R. 2454,
111th Cong. (2009).
14
See Interview with President Obama on Climate Bill, N.Y.
TIMES (June 28, 2009), https://www.nytimes.com/2009/06/29/us/
politics/29climate-text.html.
15
See Richard Cowan & Thomas Ferraro, Senator Graham
Calls Cap-and-Trade Plan Dead, REUTERS (Mar. 2, 2010, 2:26 PM),
https://www.reuters.com/article/us-climate-usa-congress/senatorgraham-calls-cap-and-trade-plan-dead-idUKTRE62142T20100302.
16
Cf. Association of American Railroads, 575 U.S. at 61
(Alito, J., concurring) (“Bicameralism and presentment make lawmaking difficult by design[.]”) (cleaned up).
17
Due to opposition to the 2009 climate bill, it never received
a Senate vote. The closest analogue is the 2008 climate bill, which
received a cloture vote. And of the states with no Senator voting
for the 2008 bill, most of those states have populations smaller
than 1/50 of the nation. Roll Call Vote 110th Congress—2nd Session, U.S. SENATE, https://www.senate.gov/legislative/LIS/roll_call_
lists/roll_call_vote_cfm.cfm?congress=110&session=2&vote=00145#
state (all internet materials last visited Jan. 10, 2021).
18
In 2008, see supra, for twenty-four state delegations,
there was no Senate opposition to the climate bill. That’s short
of a majority of state delegations, and well short of the 3/5 necessary to break a filibuster. But those twenty-four states equal

App. 180
Nor have dozens of other climate-related bills introduced since then.19
So President Obama ordered the EPA to do what
Congress wouldn’t.20 In 2015, after “years of unprecedented outreach and public engagement”21—including
60% of the population. So the Senate’s equal-state representation was critical. If representation were proportional to population, the climate bill would have been more likely to pass.
Roll Call Vote 110th Congress – 2nd Session, U.S. SENATE,
https://www.senate.govilegislative/LIS/roll_call_lists/roll_call_vote_
cfm.cfm?congress=110&session=2&vote=00145#state.
19
See, e.g., American Clean Energy and Security Act, H.R.
2454, 111th Cong. (2009); Integrated Energy Systems Act, S.
2702, 116th Cong. (2019); Clean Industrial Technology Act, S.
2300, 116th Cong. (2019); Advancing Grid Storage Act, H.R. 7313,
115th Cong. (2018); Climate Risk Disclosure Act, S. 3481, 115th
Cong. (2018); American Energy and Conservation Act, S. 3110,
114th Cong. (2016); Climate Solutions Commission Act, H.R.
6240, 114th Cong. (2016); Super Pollutants Act, S. 2911, 113th
Cong. (2014); American Renewable Energy and Efficiency Act,
H.R. 5301, 113th Cong. (2014); End Polluter Welfare Act, S. 3080,
112th Cong. (2012); Save Our Climate Act, H.R. 3242, 112th
Cong. (2011); Carbon Dioxide Capture Technology Prize Act, S.
757, 112th Cong. (2011); Clean Energy Standard Act, S. 20, 111th
Cong. (2010).
20
Evan Lehmann & Nathanael Massey, Obama Warns Congress to Act on Climate Change, or He Will, SCIENTIFIC AMERICAN
(Feb. 13, 2013), https://www.scientificamerican.com/article/obamawarns-congress-to-act-on-climate-change-or-he-will/ (“ ‘But if Congress won’t act soon to protect future generations, I will,’ Obama
said. ‘I will direct my Cabinet to come up with executive actions
we can take, now and in the future, to reduce pollution, prepare
our communities for the consequences of climate change, and
speed the transition to more sustainable sources of energy.’ ”).
21
FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overview
clean-power-plan.html.

App. 181
4.3 million public comments22 (about 4.25 million
more than in Massachusetts v. EPA)23—the EPA promulgated a rule aimed at “leading global efforts to address climate change.”24
Entitled the Clean Power Plan, the EPA’s rule
used the Clean Air Act’s § 111 to set limits for carbon
emissions that would likely be impossible to achieve
at individual coal-fired power plants because of costs,
unavailable technologies, or a need to severely reduce
usage.25 In that sense, the limits required generation
shifting: shifting production from coal-fired power
plants to facilities that use natural gas or renewable
resources.
To be clear, the 2015 Rule did not expressly say,
“Power plants must adopt off-site solutions.” But it did
set strict emission limits in part by considering off-site
solutions. And those emission limits would likely have
been unachievable or too costly to meet if off-site solutions were off the table.
A political faction opposed generation shifting. It
challenged the 2015 Rule in this Court, arguing that
§ 111 does not allow the EPA to consider off-site solutions when determining the best system of emission
Id.
549 U.S. at 511.
24
FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overview
clean-power-plan.html.
25
Respondents’ Br. at 32-37. For the codified text of § 111(d),
see the first footnote of this opinion.
22
23

App. 182
reduction. The faction included about twenty-four
states, represented by many Senators who opposed the
2009 legislation.26 Conversely, a political faction of
about eighteen states defended the rule. Many of their
Senators had supported the stymied legislation.27
At that litigation’s outset, our Court refused to
stay the rule’s implementation.28 But in an unprecedented intervention, the Supreme Court did what this
Court would not.29 And through its stay, the Supreme
Court implied that the challengers would likely succeed on the case’s merits.30
Taking the Supreme Court’s not-so-subtle hint, in
2019 President Trump’s EPA repealed the 2015 Rule
and issued the Affordable Clean Energy Rule. Like the
rule it replaced, the 2019 Rule relies on the Clean Air
Act’s § 111 to reduce carbon emissions. But unlike its
predecessor, the 2019 Rule did not include generation

See Legislative Hearing on S. 1733, Clean Energy Jobs and
American Power Act Before the Committee on Environment and
Public Works, 111th Cong. (2009) (For example, Senators from
Oklahoma, Ohio, Wyoming, and Louisiana expressed opposition
or concern about the legislation.).
27
See id. (For example, Senators from California, Massachusetts, Minnesota, New Mexico, Oregon, Rhode Island, Vermont,
and Maryland expressed support for the legislation.).
28
West Virginia v. EPA, No. 15-1363 (D.C. Cir. Jan. 21, 2016)
(per curiam) (order).
29
West Virginia v. EPA, 136 S. Ct. 1000 (2016) (mem.).
30
See Winter v. Natural Resources Defense Council, 555 U.S.
7, 20 (2008).
26

App. 183
shifting in its final determination of the best system of
emission reduction.
A new faction then challenged the 2019 Rule. It
looked a lot like the faction that had defended the 2015
Rule. Arrayed against that faction were many states
and groups that had opposed the old rule. And so once
again, politically diverse states and politically adverse
special interest groups brought their political brawl
into a judiciary designed to be apolitical.
In this latest round, the briefing’s word count exceeded a quarter of a million words. The oral argument
lasted roughly nine hours. The case’s caption alone
runs beyond a dozen pages. And yet, in all that analysis, hardly any of the dozens of petitioners or intervenors defending the 2015 Rule make a serious and
sustained argument that § 111 includes a clear statement unambiguously authorizing the EPA to consider
a system of emission reduction that includes off-site
solutions or that § 111 otherwise satisfies the majorrules doctrine’s clear-statement requirement. Neither
does the EPA.
In light of that,31 I doubt § 111 authorizes the 2015
Rule—arguably one of the most consequential rules
ever proposed by an administrative agency:
•

It required a “more aggressive transformation
in the domestic energy industry,” marking for

Cf. ARTHUR CONAN DOYLE, Silver Blaze, in THE COMPLETE
SHERLOCK HOLMES 312, 325 (2009) (“Before deciding that question
I had grasped the significance of the silence of the dog, for one
true inference invariably suggests others.”).
31

App. 184
President Obama a “major milestone for his
presidency.”32
•

It aspired to reduce that industry’s carbon
emissions by 32 percent—“equal to the annual emissions from more than 166 million
cars.”33

•

Leaders of the environmental movement considered the rule “groundbreaking,”34 called its
announcement “historic,”35 and labeled it a
“critically important catalyst.”36

The potential costs and benefits of the 2015 Rule
are almost unfathomable. Industry analysts expected

32

J.A. 2076 (White House Fact Sheet).
FACT SHEET: Clean Power Plan By The Numbers, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-clean-powerplan-numbers.html; What Is the Clean Power Plan?, NATIONAL
RESOURCES DEFENSE COUNCIL, INC. (Sept. 29, 2017), https://
www.nrdc.org/stories/how-clean-power-plan-works-and-why-itmatters#:-:text=According%20to%20EPA%20projections%20%
20by,nationally%2C%20relative%20to%202005%20levels.&text=
The%20shift%20to%20energy%20efficiency,its%20electricity%
20bills%20in%202030 (“According to EPA projections, by 2030,
the Clean Power Plan would cut the electric sector’s carbon pollution by 32 percent nationally, relative to 2005 levels.”).
34
Save the Clean Power Plan, NATIONAL RESOURCES DEFENSE
COUNCIL, INC., https://www.nrdc.org/save-clean-power-plan.
35
The Clean Power Plan, ENVIRONMENTAL DEFENSE FUND,
https://www.edf.org/clean-power-plan-resources.
36
Press Release, Michael Brune, Sierra Club Executive Director, Repealing the Clean Power Plan Will Threaten Thousands
of Lives (Oct. 9, 2017), https://www.sierraclub.org/press-releases/
2017/10/repealing-clean-power-plan-will-threaten-thousands-lives.
33

App. 185
wholesale electricity’s cost to rise by $214 billion.37
The cost to replace shuttered capacity? Another $64
billion.38 (“A billion here, a billion there, and pretty
soon you’re talking real money.”39)
True, you can dismiss that research as industryfunded. But the EPA itself predicted its rule would cost
billions of dollars and eliminate thousands of jobs.40
On the benefits side of the ledger, the White House
labeled the 2015 Rule a “Landmark,”41 and the President called it “the single most important step America
has ever taken in the fight against global climate
change.”42 With that in mind, calculating the rule’s
EPA’s Clean Power Plan An Economic Impact Analysis,
NMA, 2, http://nma.org/attachments/article/2368/11.13.15%20NMA_
EPAs%20Clean%20Power%20Plan%20%20An%20Economic%20
Impact%20Analysis.pdf.
38
Id.
39
Senator Everett McKinley Dirksen Dies, U.S. SENATE
(Sept. 7, 1969), https://www.senate.gov/artandhistory/history/
minute/Senator_Everett_Mckinley_Dirksen_Dies.htm; cf. id. (“Researchers have been unable to track down the quotation most
commonly associated with Dirksen. Perhaps he never said it, but
the comment would have been entirely in character.”).
40
J.A. 336; see, e.g., Regulatory Impact Analysis for the Clean
Power Plan Final Rule, EPA, 6-25 (Oct. 23, 2015), https://19january
2017snapshot.epa.gov/sites/production/files/2015-08/documents/
cpp-final-rule-ria.pdf.
41
Fact Sheet: President Obama to Announce Historic Carbon Pollution Standards for Power Plants, THE WHITE HOUSE
(Aug. 3, 2015), https://obamawhitehouse.archives.gov/the-pressoffice/2015/08/03/fact-sheet-president-obama-announce-historiccarbon-pollution-standards.
42
Andrew Rafferty, Obama Unveils Ambitious Plan to
Combat Climate Change, NBC NEWS (Aug. 3, 2015, 3:05 PM),
37

App. 186
benefits requires a sober appraisal of that fight’s high
stakes. According to the rule’s advocates, victory over
climate change will lower ocean levels; preserve glaciers; reduce asthma; make hearts healthier; slow
tropical diseases; abate hurricanes; temper wildfires;
reduce droughts; stop many floods; rescue whole ecosystems; and save from extinction up to “half the species on earth.”43
These are, to put it mildly, serious issues. Lives are
at stake. And even though it’s hard to put a dollar figure on the net value on what many understandably
consider invaluable, the EPA tried: $36 billion, it said,
give or take about a $10-billion margin of error.44
So say what you will about the cost-benefit analysis behind generation shifting, it’s hardly a minor question. Minor questions do not forestall consequences
comparable to “the extinction event that wiped out the
dinosaurs 65 million years ago.”45 Minor questions are
https://www.nbcnews.com/politics/barack-obama/obama-unveilsambitious -plan-combat-climate-change-n403296.
43
FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overviewclean-power-plan.html; Al Gore, Al Gore: The Climate Crisis Is
the Battle of Our Time, and We Can Win, N.Y. TIMES (Sept. 20,
2019), https://www.nytimes.com/2019/09/20/opinion/al-gore-climatechange.html; Effects of Climate Change, WORLD WILDLIFE FUND,
https://www.worldwildlife.org/threats/effects-of-climate-change.
44
FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overview
clean-power-plan.html.
45
AN INCONVENIENT TRUTH (Lawrence Bender Productions,
2006) (“Global warming, along with the cutting and burning of
forests and other critical habitats, is causing the loss of living

App. 187
not analogous to “Thermopylae, Agincourt, Trafalgar,
Lexington and Concord, Dunkirk, Pearl Harbor, the
Battle of the Bulge, Midway and Sept. 11.”46 Minor
rules do not inspire “years of unprecedented outreach
and public engagement.”47 Minor rules are not “the
single most important step America has ever taken in
the fight against global climate change.”48 Minor rules
do not put thousands of men and women out of work.49
And minor rules do not calculate $10 billion in net benefits as their margin of error.50

species at a level comparable to the extinction event that wiped
out the dinosaurs 65 million years ago. That event was believed
to have been caused by a giant asteroid. This time it is not an
asteroid colliding with the Earth and wreaking havoc: it is us.”).
46
Al Gore, Al Gore: The Climate Crisis Is the Battle of
Our Time, and We Can Win, N.Y. TIMES (Sept. 20, 2019),
https://www.nytimes.com/2019/09/20/opinion/a1-gore-climatechange.html; see id. (“This is our generation’s life-or-death challenge.”).
47
FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overview
clean-power-plan.html.
48
Andrew Rafferty, Obama Unveils Ambitious Plan to
Combat Climate Change, NBC NEWS (Aug. 3, 2015, 3:05 PM),
https://www.nbcnews.com/politics/barack-obama/obama-unveilsambitious -plan-combat-climate-change-n403296.
49
See, e.g., Regulatory Impact Analysis for the Clean Power
Plan Final Rule, EPA, 6-25 (Oct. 23, 2015), https://19january
2017snapshot.epa.gov/sites/production/files/2015-08/documents/
cpp-final-rule-ria.pdf.
50
FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overview
clean-power-plan.html.

App. 188
Rather, the question of how to make this “the moment when the rise of the oceans began to slow and our
planet began to heal”51—and who should pay for it—
requires a “decision[ ] of vast economic and political
significance.”52 That standard is not mine It is the Supreme Court’s. And no cocktail of factors informing the
major-rules doctrine can obscure its ultimate inquiry:
Does the rule implicate a “decision[ ] of vast economic
and political significance”?
Proponents of the 2015 Rule say it doesn’t.53 They
have to. If it did, it’s invalid—because a clear statement is missing.54 And according to the Supreme
Court, that is exactly what a major rule requires.
To be sure, if we frame a question broadly enough,
Congress will have always answered it. Does the Clean
Air Act direct the EPA to make our air cleaner? Clearly
yes. Does it require at least some carbon reduction?
According to Massachusetts v. EPA, again yes.
But how should the EPA reduce carbon emissions
from power plants? And who should pay for it? To those
Barack Obama, Barack Obama’s Remarks in St. Paul,
N.Y. TIMES (June 3, 2008), https://www.nytimes.com/2008/06/03/
us/politics/03text-obama.html.
52
Utility Air Regulatory Group, 573 U.S. at 324 (quoting
Brown & Williamson Tobacco, 529 U.S. at 160) (cleaned up); see
Gonzales v. Oregon, 546 U.S. 243, 267 (2006) (quoting Brown &
Williamson Tobacco, 529 U.S. at 160) (cleaned up).
53
See Oral Arg. Tr. at 23 (Counsel for State and Municipal
Petitioners on the 2015 Rule: “We do not think it implicates the
Major Questions Doctrine here for a couple of reasons.”).
54
See supra p. 9.
51

App. 189
major questions, the Clean Air Act’s answers are far
from clear.
I admit the Supreme Court has proceeded with
baby steps toward a standard for its major-rules doctrine. But “big things have small beginnings.”55 And
even though its guidance has been neither sweeping
nor precise, the Supreme Court has at least drawn this
line in the sand: Either a statute clearly endorses a
major rule, or there can be no major rule.56
Moreover, if Congress merely allowed generation
shifting (it didn’t), but did not clearly require it, I doubt
doing so was constitutional. For example, imagine a
Congress that says, “The EPA may choose to consider
off-site solutions for its best system of emission reduction, but the EPA may choose not to consider off-site
solutions.” In that instance, Congress has clearly delegated to the EPA its legislative power to determine
whether generation shifting should be part of the best
system of emission reduction—a “decision[ ] of vast
economic and political significance.”57
Such delegation might pass muster under a constitution amended by “moments” rather than the
55

LAWRENCE OF ARABIA (Columbia Pictures, 1962).
MCI Telecommunications Corp. v. American Telephone &
Telegraph Co., 512 U.S. 218, 230-31 (1994); Brown & Williamson
Tobacco, 529 U.S. at 126-27, 133; Gonzales, 546 U.S. at 267; Utility Air Regulatory Group, 573 U.S. at 322-25.
57
Utility Air Regulatory Group, 573 U.S. at 324 (2014) (quoting Brown & Williamson Tobacco, 529 U.S. at 160) (cleaned up);
see also Gonzales, 546 U.S. at 267 (quoting Brown & Williamson
Tobacco, 529 U.S. at 160).
56

App. 190
“reflection and choice” prescribed by Article V.58 But if
ever there was an era when an agency’s good sense was
alone enough to make its rules good law, that era is
over.59
Congress decides what major rules make good
sense. The Constitution’s First Article begins, “All legislative Powers herein granted shall be vested in a
Congress of the United States, which shall consist of a
Senate and House of Representatives.”60 And every
“law” must “pass[ ] the House of Representatives and
the Senate” and “be presented to the President.”61
Thus, whatever multi-billion-dollar regulatory power
the federal government might enjoy, it’s found on the
open floor of an accountable Congress, not in the impenetrable halls of an administrative agency—even if
that agency is an overflowing font of good sense.62
See U.S. CONST. art. V; compare BRUCE ACKERMAN, We the
People: Foundations 22 (1991) (“moments”) with MICHAEL S.
GREVE, The Upside-Down Constitution 13 (2012) (“reflection and
choice”) (quoting The FEDERALIST No. 1, at 3-7 (A. Hamilton) (J.
Cooke ed., 1961)).
59
See, e.g., SAS Institute, Inc. v. Iancu, 138 S. Ct. 1348, 135859 (2018) (“The Director may (today) think his approach makes
for better policy, but policy considerations cannot create an ambiguity when the words on the page are clear. Neither may we defer
to an agency official’s preferences because we imagine some hypothetical reasonable legislator would have favored that approach.
Our duty is to give effect to the text that actual legislators (plus
one President) enacted into law.”) (cleaned up).
60
U.S. CONST. art. I, § 1.
61
Id. § 7.
62
See id.; id. § 1; A.L.A. Schechter Poultry Corp. v. United
States, 295 U.S. 495 (1935); Marshall Field & Co. v. Clark, 143
58

App. 191
Over time, the Supreme Court will further illuminate the nature of major questions and the limits of
delegation. And under that caselaw, federal regulation will undoubtedly endure. So will federal regulators. Administrative agencies are constitutional, and
they’re here to stay.63
Beyond that, I leave it for others to predict what
the Supreme Court’s emerging jurisprudence may imply for those agencies’ profiles. Here, regardless of deference and delegation doctrines, the regulation of coalfired power plants under § 111 is invalid for a more
mundane reason: A 1990 amendment to the Clean Air
Act forbids it.
II.
The Clean Air Act Amendments of 1990 prohibit
the EPA from subjecting power plants to regulation
U.S. 649, 692 (1892); Gundy v. United States, 139 S. Ct. 2116,
2130-31 (2019) (Arno, J., concurring in the judgment); see generally MIKE LEE, Our Lost Constitution (2015); PHILIP HAMBURGER,
Is Administrative Law Unlawful? (2014); Cody Ray Milner, Comment, Into the Multiverse: Replacing the Intelligible Principle
Standard With a Modern Multi-Theory of Nondelegation, 28 GEO.
MASON L. REV. 395 (2020); cf. Talk America, Inc. v. Michigan Bell
Telephone Co., 564 U.S. 50, 68 (2011) (Scalia, J., concurring)
(“When the legislative and executive powers are united in the
same person, or in the same body of magistrates, there can be no
liberty. . . .”) (quoting MONTESQUIEU, Spirit of the Laws bk. XI, ch.
6, pp. 151-52 (0. Piest ed., T. Nugent transl. 1949)); In re Aiken
County, 725 F.3d 255, 264 (D.C. Cir. 2013) (same).
63
Gundy, 139 S. Ct. at 2145 (Gorsuch, J., dissenting) (“Nor
would enforcing the Constitution’s demands spell doom for what
some call the administrative state.”) (cleaned up).

App. 192
under § 111 if they are already regulated under § 112.
The 2015 Rule and the 2019 Rule rely on § 111 for the
authority to regulate coal-fired power plants. Because
the EPA already regulates those coal-fired power
plants under § 112, the rules are invalid.
A.
Before 1990, the Clean Air Act’s § 112 told the EPA
to create a list of hazardous air pollutants. Section 112
directed the EPA to regulate the pollutants on that list.
And § 111 provided authorization to regulate pollutants not on that list.
Carbon is not on the § 112 list. So, under the pre1990 scheme, the EPA could regulate carbon under
§ 111.
But Congress amended § 112 in 1990. Rather than
just telling the EPA to make a § 112 list of pollutants,
Congress created its own § 112 list.
That same year, Congress also amended § 111. As
a result, the codified version of § 111 prohibits the regulation of pollutants “emitted from a source category
which is regulated under [§ 112].”64
Coal-fired power plants are a source regulated under § 112.65 Therefore, under the codified version of the
Clean Air Act, coal plants cannot be regulated under
§ 111. And since the 2015 Rule and the 2019 Rule use
64
65

42 U.S.C. § 7411(d) (emphasis added).
Their mercury emissions are regulated under § 112.

App. 193
§ 111 to regulate carbon emitted from coal plants,
those rules purport to do what the codified version of
§ 111 says the EPA cannot.
But that is not the whole story. Congress’s Office
of the Law Revision Counsel codifies statutes. And
when it mistakenly codifies text different from the
Statutes at Large, the Statutes at Large controls.66 And
the Statutes at Large differs from the codified text
here.
The question concerns two amendments, one from
each house of Congress, which both ended up in the final bill.67
Under the House Amendment:
The Administrator shall prescribe regulations
. . . under which each State shall submit to the
Administrator a plan which (A) establishes
standards of performance for any existing
source for any air pollutant (i) for which air
Cheney Railroad Co. v. Railroad Retirement Board, 50
F.3d 1071, 1076 (D.C. Cir. 1995); see also United States National
Bank of Oregon v. Independent Insurance Agents of America, Inc.,
508 U.S. 439, 448 & n.3 (1993).
67
The section, before the 1990 Amendments, read:
The Administrator shall prescribe regulations which
shall establish a procedure . . . under which each State
shall submit to the Administrator a plan which (A) establishes standards of performance for any existing
source for any air pollutant (i) for which air quality criteria have not been issued or which is not included on
a list published under section 7408(a) or 7412(b)(1)(A)
of this title. . . .
42 U.S.C. § 7411(d)(1) (1988) (emphasis added).
66

App. 194
quality criteria have not been issued or which
is not included on a list published under section 7408(a) of this title or emitted from a
source category which is regulated under
section 112 [of the Clean Air Act.]68
Under the Senate Amendment:
The Administrator shall prescribe regulations
. . . under which each State shall submit to the
Administrator a plan which (A) establishes
standards of performance for any existing
source for any air pollutant (i) for which air
quality criteria have not been issued or which
is not included on a list published under section 7408(a) of this title or 112(b) [of the Clean
Air Act.]69
Let’s compare those two versions with the most
relevant text bolded, the divergent text underlined,
and the other text struck through.
House Version:
The Administrator shall prescribe regulations . . . under which each State shall submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant (i)-for
which air quality criteria have not been issued
or which is not included on a list published
under section 7408(a) of this title or emitted
68

Pub. L. No. 101-549, § 108(g), 104 Stat. 2399, 2467 (1990)
(emphasis added); 42 U.S.C. § 7411(d)(1).
69
Pub. L. No. 101-549, § 302(a), 104 Stat. 2399, 2574 (1990)
(emphasis added).

App. 195
from a source category which is regulated
under section 112. . . .
Senate Version:
The Administrator shall prescribe regulations . . . under which each State shall submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant (i)-for
which air quality criteria have not been issued
or which is not included on a list published under section 7408(a) of this title or
112(b). . . .
Finally, let’s look at only the most relevant text.
House:
The Administrator shall prescribe regulations for any air pollutant which is not
emitted from a source category which is
regulated under section 112.
Senate:
The Administrator shall prescribe regulations for any air pollutant which is not
included on a list published under 112(b).
To sum up so far, in my view:
•

70

The House said the EPA can’t use § 111 to
regulate pollutants emitted from a source category regulated under § 112.70

The EPA adopts a different interpretation of the House
Amendment. That interpretation is addressed below in Part II.C.

App. 196
○
•

Coal-fired power plants are a source
category regulated under § 112.

The Senate said the EPA can’t use § 111 to
regulate pollutants published under § 112.
○

Carbon is not a pollutant published under § 112.

Some parties argue the House and Senate Amendments conflict with each other or otherwise produce an
absurd result. Others say they don’t. In my view, it
doesn’t matter. If there’s a conflict, the House Amendment controls. And if there’s no conflict, the Senate
Amendment takes nothing away from the House
Amendment. In either scenario—conflict or no conflict—regulation of coal-fired power plants under § 111
is invalid.
B.
Let’s start with the first scenario: Assume the two
amendments conflict.71 If that creates an absurd result,
“a mistake of expression (rather than of legislative
wisdom) [may have] been made.”72 Such a mistake of

Cf. 70 Fed. Reg. 15,994, 16,030-32 (Mar. 29, 2005) (“EPA
is therefore confronted with the highly unusual situation of an
enacted bill signed by the President that contains two different
and inconsistent amendments to the same statutory provision.”).
72
Antonin Scalia, Common-Law Courts in a Civil-Law System: The Role of United States Federal Courts in Interpreting the
Constitution and Laws, in A MATTER OF INTERPRETATION: FEDERAL
COURTS AND THE LAW 3, 20 (Amy Gutmann ed., 1997); see also West
Virginia v. EPA, No. 15-1363, Oral Arg. Tr. at 111 (Kavanaugh,
71

App. 197
expression—a “scrivener’s error”—is typically viewed
as a typo.73 Where the reading “makes entire sense
grammatically but produces a disposition that makes
no substantive sense,” a “drafter’s error” may exist.74
That said, the distinction between a scrivener’s error
and a drafter’s error “is generally not a principled
one.”75 Here, the Senate and House Amendments do
not have obvious typos or mistakes, but some may
think that including both in the statute “makes no substantive sense”—in the same way that a single order
to “always drive fast” and “never drive fast” makes no
substantive sense.
In these rare circumstances, judges may read the
text in a way that accounts for these errors. In doing
so, “we are not revising the apparent meaning of the
text.”76 Instead, we give the text “the meaning that it
would convey to a reasonable person, who would understand that misprints had occurred.”77 But the
“meaning genuinely intended but inadequately expressed must be absolutely clear; otherwise we might

J.) (“When [a conflict] happens[,] you [may] have a scrivener’s error.”).
73
See ANTONIN SCALIA & BRYAN A. GARNER, Reading Law:
The Interpretation of Legal Texts 234 (2012) (quoting Daniel A.
Farber, Statutory Interpretation and Legislative Supremacy, 78
Geo. L.J. 281, 289 (1989)).
74
Id. at 235.
75
Id.
76
Id.; see also id. at 234 (quoting Grey v. Pearson, [1857] 6
H.L. Cas. 61, 106 (per Lord Wensleydale)) (cleaned up).
77
Id. at 235.

App. 198
be rewriting the statute rather than correcting a technical mistake.”78
How then to discover the “meaning genuinely intended”?
Some might say “defer to the EPA” because of the
text’s ambiguity. But unintentional ambiguity from a
drafter’s error is nothing like the intentional ambiguity that typically receives Chevron deference. Chevron
applies to deliberate gaps for an agency to fill.79 So
deference is arguably faithful to a statute’s meaning—
at least in theory.80
In contrast, drafter’s errors are accidents. So
there’s no reason to believe deference was “genuinely
intended.” And to the extent an office or agency with
expertise is entitled to deference here—none is81—
United States v. X-Citement Video, Inc., 513 U.S. 64, 82
(1994) (Scalia, J., dissenting).
79
Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837, 862 (1984); cf. Pereira v. Sessions, 138 S. Ct.
2105, 2121 (2018) (Kennedy, J., concurring) (“Given the concerns
raised by some Members of this Court it seems necessary and appropriate to reconsider, in an appropriate case, the premises that
underlie Chevron and how courts have implemented that decision. The proper rules for interpreting statutes and determining
agency jurisdiction and substantive agency powers should accord
with constitutional separation-of-powers principles and the function and province of the Judiciary.”) (cleaned up).
80
But see Gutierrez-Brizuela v. Lynch, 834 F.3d 1142, 1153
(10th Cir. 2016) (Gorsuch, J., concurring) (“The fact is, Chevron’s
claim about legislative intentions is no more than a fiction—and
one that requires a pretty hefty suspension of disbelief at that.”).
81
Ganem v. Heckler, 746 F.2d 844, 851 (D.C. Cir. 1984)
(“[T]he changes made by the codifiers, whose choice, made
78

App. 199
Congress’s Office of the Law Revision Counsel is the
leading candidate. Its whole job is to produce the
United States Code, and it dismissed the Senate
Amendment as a drafter’s error.
Others might say the default should be freedom
from regulation when a drafter’s error creates ambiguity over an agency’s authority to promulgate a major
rule. After all, if Congress doesn’t clearly endorse a major regulation, there can be no major regulation.82
But as with Chevron, the major-rules doctrine
draws meaning from ambiguity: Because Congress
does not hide elephants in mouseholes, we presume the
absence of clarity means Congress intentionally chose
not to endorse a major regulation. So as with Chevron’s
premise, the premise of the major-rules doctrine is inapplicable to a drafter’s error. Here, to the extent an
elephant’s in a mousehole, we don’t know whether the
misprint is the mousehole or the elephant.
That leaves us with a third option: inquiring into
legislative history. True, as a general matter, courts
should reject any significant reliance on legislative

without the approval of Congress[,] should be given no weight, are
of no substantive moment.”) (cleaned up).
82
See MCI Telecommunications, 512 U.S. at 230-31; Brown
& Williamson Tobacco, 529 U.S. at 126-27, 133; Gonzales, 546
U.S. at 267; Utility Air Regulatory Group, 573 U.S. at 322-25.

App. 200
history. Hamilton did.83 So did Marshall.84 And Madison.85 And Story.86 “From the beginnings of the republic, American law followed what is known as the ‘norecourse doctrine’—that in the interpretation of a text,
no recourse may be had to legislative history.”87 And
although many judges abandoned the no- recourse doctrine by the second half of the twentieth century,88
leading textualists like Justice Scalia have made important progress in reviving it.
But “[w]hen you have a scrivener’s error[,] everyone, including Justice Scalia, would look at the legislative history.”89 Indeed, he “believed that the only
time it was appropriate for a court to use legislative
history was when there was a credible claim of scrivener’s error.”90 For example, concurring in the judgment
in Green v. Bock Laundry Machine Co., Justice Scalia
considered “it entirely appropriate to consult . . .
ANTONIN SCALIA & BRYAN A. GARNER, Reading Law: The
Interpretation of Legal Texts 370 (2012).
84
Id. at 370-71.
85
Id. at 371.
86
Id. at 371-72.
87
Id. at 369.
88
Id. at 388.
89
West Virginia v. EPA, No. 15-1363, Oral Arg. Tr. at 111
(Kavanaugh, J.); see also John Copeland Nagle, CERCLA’s Mistakes, 38 WM. & MARY L. REV. 1405, 1414 (1997) (“[E]ven textualists like Justice Scalia acknowledge that the courts can remedy a
‘scrivener’s error’ notwithstanding plain statutory language.”).
90
Megan McDermott, Justice Scalia’s Bankruptcy Jurisprudence: The Right Judicial Philosophy for the Modern Bankruptcy
Code?, 2017 UTAH L. REV. 939, 974 (2017) (emphasis added).
83

App. 201
legislative history . . . to verify that what seems . . . an
unthinkable disposition . . . was indeed unthought of,
and thus to justify a departure from the ordinary
meaning of the word” at issue.91
So, to recap: (1) The House and Senate Amendments may conflict; (2) if they do, there may have been
a drafter’s error; and (3) legislative history can illuminate a drafter’s error.
What then, if anything, does the legislative history
tell us? (Buckle up.)
In 1990, the House passed a bill with many
amendments to the Clean Air Act. The Senate passed
a different bill. A Conference Committee reconciled
them. But it made (at least) two drafter’s errors—assuming again our two amendments conflict.
First, the Conference Committee put both the
House and Senate Amendments in the Conference Report, which became the final bill.92
91

490 U.S. 504, 527 (1989) (Scalia, J., concurring in the judg-

ment).
92

The Conference Report says “[t]hat the Senate recede[s]
from its disagreement to the amendment of the House to the text
of the bill and agree[s] to the same with an amendment as follows:
In lieu of the matter proposed to be inserted by the House amendment insert the following: . . . Sec. 108. Miscellaneous provisions.”
H.R. Rep. No. 101-952, 101st Cong., at 1 (1990) (cleaned up).
Section 108(g) under “Miscellaneous provisions” was the House
Amendment that struck “or 112(b)(1)(A)” and inserted “or emitted
from a source category which is regulated under section 112.” Id.
at 73. But later in the report we find the Senate’s original proposed amendment replacing “112(b)(1)(A)” with “112(b).” Id. at

App. 202
Second, the Conference Committee botched the
“Joint Explanatory Statement of the Committee of
Conference.”93
The Joint Statement said, “The House amendment
to the text of the bill struck out all of the Senate bill
after the enacting clause and inserted a substitute
text.”94 That “amendment” refers to the House’s entire
set of amendments to the Clean Air Act. Clear enough
so far.
The Joint Statement then said, “The Senate recedes from its disagreement to the amendment of the
House. . . .”95 Again, that seems straightforward.
But the Joint Statement didn’t stop there. The full
sentence excerpted just above says:
The Senate recedes from its disagreement to
the amendment of the House with an amendment which is a substitute for the Senate bill
and the House amendment.96
That is drivel. The Senate recedes with an amendment? What amendment? And how is that receding?
And did the House recede to the Senate’s amendment
to the House’s amendment that the Senate receded to?

183. So the Senate says it receded to the House, and yet we still
see the Senate’s original language in the document.
93
Id. at 335-55.
94
Id. at 335.
95
Id.
96
Id.

App. 203
The next day, the bill’s Senate Managers issued a
statement attempting to clarify the previous day’s
materials. The statement notes that for two unrelated
portions of the § 111 amendments, the House receded
to the Senate.97 But it said the Senate receded to the
House regarding all other § 111 changes, including the
change at issue in this case.98
To the extent a statement by Senate Managers can
ever clear up a question of statutory meaning—count
me skeptical99—theirs did.
Here’s where that leaves me. I’m frankly not convinced the House and Senate Amendments are the
product of a drafter’s error. But if they are, the most
lucid piece of legislative history says the Senate intended to recede to the House.
That would leave the House Amendment as the
last man standing. And under the House Amendment,
the EPA can’t regulate air pollutants from coal-fired
power plants under § 111 when the plants are already
Chafee-Baucus Statement of Senate Managers, S. 1630, the
Clean Air Act Amendments of 1990, 136 Cong. Rec. 36007, 36067
(Oct. 27, 1990).
98
Id. The full sentence about the two amendments at issue
here reads: “Conference agreement. The Senate recedes to the
House except that with respect to the requirement regarding judicial review of reports, the House recedes to the Senate and with
respect to transportation planning, the House recedes to the Senate with certain modifications.” In other words, except for judicial
review of reports (immaterial here) and transportation planning
(immaterial here), the Senate receded to the House.
99
Environmental Defense Fund, Inc. v. EPA, 82 F.3d 451,
460 n.11 (D.C. Cir. 1996).
97

App. 204
regulated under § 112. Therefore, if the House and
Senate Amendments conflict, the 2015 Rule and the
2019 Rule are invalid.100
C.
As for the second (and more likely) of the two
scenarios: Assume the House and Senate Amendments do not conflict. In that case, we don’t strike the
Senate Amendment as a drafter’s error.101 But even
then, the House Amendment retains its full effect.
Recall that each amendment does two things.
First, it creates a category of air pollutants. And second, it excludes that category from regulations authorized under § 111.
For the House Amendment, that category covers
any pollutant “emitted from a source category which
is regulated under section 112.” And for the Senate
100

The EPA doesn’t like that result. For thirty years it has
either ignored or misconstrued the House Amendment. But the
EPA’s long-running error is no reason to ignore plain text. To the
extent I glean anything from the EPA’s thirty-year mistake, it’s
that the EPA might be entitled to less deference than it thinks it
deserves.
101
For the reader’s convenience, here again is the codified
version of § 111(d): “The Administrator shall prescribe regulations which shall establish a procedure . . . under which each
State shall submit to the Administrator a plan which (A) establishes standards of performance for any existing source for any
air pollutant (i) for which air quality criteria have not
been issued or which is not included on a list published
under [§ 108(a)] or emitted from a source category which
is regulated under [§ 112]. . . .” (emphasis added).

App. 205
Amendment, that category covers any pollutant “published under section . . . 112(b).”
So to see what’s in the House Amendment’s category, you’d start by making a list of every source regulated under § 112. As far as § 111 regulation goes, any
air pollutants from those sources—including coal-fired
power plants—are forbidden fruit under the House
Amendment.
To create the Senate Amendment’s list, you’d
simply pull the 180 or so pollutants from § 112(b), as
modified by the EPA since 1990. As far as § 111 regulation goes, those pollutants—mercury compounds,
asbestos, and more than 180 others—are forbidden
fruit under the Senate Amendment.102
In general, the House Amendment sweeps more
broadly than the Senate Amendment. For example,
the House Amendment’s list includes pollution from
coal-fired power plants, since they are regulated for
mercury. So under the House Amendment, § 111 cannot be used to regulate coal-fired power plants at all.
In contrast, the Senate Amendment’s list includes
mercury, but it does not include all other pollution
from sources that emit mercury. So under the Senate
Amendment, § 111 cannot be used to regulate coalfired power plants’ emissions of mercury. But the
Senate Amendment does not by itself stop the EPA
Initial List of Hazardous Air Pollutants with Modifications, EPA, https://www.epa.gov/haps/initial-list-hazardous-airpollutants-modifications.
102

App. 206
from using § 111 to regulate coal-fired power plants’
emissions of pollutants like carbon, since carbon isn’t
on the Senate Amendment’s list.
That the House Amendment generally sweeps
more broadly than the Senate Amendment, however,
does not mean that fidelity to the House Amendment
fails to give full effect to the Senate Amendment. For
example, imagine two parents choosing a name for
their child. The father says, “There’s no way we’re naming our baby after a president from Virginia.” And the
mother says, “There’s no way we’re naming our baby
after any president.”
Just like the House and the Senate each took certain regulations off § 111’s table, the mother and father
have each taken certain names off the table. And just
as the House Amendment excludes from § 111 every
regulation excluded by the Senate Amendment (and
then some), the mother has said no way to every name
excluded by the father (and then some).
When you give full effect to the mother’s no-way
list, you are not ignoring the father’s no-way list—because the father’s list only excludes names and thus
does not require the inclusion of any names. And for
the same reason, when you give full effect to the father’s list, you are not ignoring the mother’s—because
the mother’s no-way list does not require the inclusion
of names excluded by the father.
Like the father’s list, the Senate Amendment has
a lot to say about what’s excluded from § 111. But like
the father’s list, the Senate Amendment says nothing

App. 207
about what’s included. So when the House Amendment
excludes coal-fired power plants from § 111’s scope, it
doesn’t ignore the Senate Amendment. It supplements
it—by excluding from § 111’s scope a category of regulations not already excluded by the Senate Amendment.
That’s the situation that will occur most often—
air pollutants excluded from § 111 regulation because
they’re on the Senate Amendment’s list will also be excluded from § 111 regulation because they’re on the
House Amendment’s list.
But there may exist situations, at least in theory,
when only the Senate Amendment does any work.
For example, consider a hazardous air pollutant
listed under § 112 but “emitted by sources that Section
does not reach.”103 That pollutant is barred from § 111
regulation by the Senate Amendment (because it’s a
pollutant listed under § 112), but it is arguably not
barred by the House Amendment (because it’s emitted
from a source not regulated under § 112). In that scenario, it’s possible only the Senate Amendment would
bar § 111 regulation.104

103

Majority Op. at 119-20 n.19.
As another theoretical example, consider a source that
emits a pollutant on § 112’s list and assume the EPA is required
to regulate that source based on § 112’s parameters. But now imagine that, notwithstanding that requirement, the EPA has not
yet regulated the source. After all, sometimes these things take
time. In that situation too, the Senate Amendment might exclude
104

App. 208
In other words, these § 111 exclusions might form
a Venn diagram: Some air pollutants are excluded
from § 111 regulation only because of the House
Amendment (like carbon from coal-fired power plants),
some pollutants are only excluded because of the Senate Amendment (as in the hypothetical I just described), and some pollutants are excluded because of
both amendments (like mercury from coal-fired power
plants). Recognizing both amendments as operative
gives “maximum possible effect” to each.105
The EPA says Chevron applies to this question.
Even so, the outcome is the same. At Chevron step one,
the plain text of the Senate Amendment takes nothing
away from the plain text of the House Amendment and
vice versa. And because the House Amendment expressly precludes the regulation of coal-fired power
plants under § 111, the plain text precludes the 2015
Rule and the 2019 Rule—both of which depended on
§ 111 to regulate coal-fired power plants.
In American Electric Power Co. v. Connecticut, the
Supreme Court agreed with this reading. It said the
“EPA may not employ § [111(d)] if existing stationary
sources of the pollutant in question are regulated
under the national ambient air quality standard

from § 111 regulation pollutants that the House Amendment
might not (yet).
105
Citizens to Save Spencer County v. EPA, 600 F.2d 844, 870
(D.C. Cir. 1979).

App. 209
program . . . or the ‘hazardous air pollutants’ program,
§ [112].”106
The EPA adopts a different approach to the House
Amendment. In “any air pollutant . . . emitted from a
source category which is regulated under section 112,”
the EPA reads the phrase “which is regulated under
section 112” to modify “air pollutant,” rather than
“source category.” So it would exclude from § 111’s
scope only an “air pollutant . . . which is regulated under § 112”:
The Administrator shall prescribe regulations . . . under which each State shall submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant (i) for
which air quality criteria have not been issued
or which is not included on a list published
under section 108(a) or emitted from a source
American Electric Power Co. v. Connecticut, 564 U.S. 410,
424 n.7 (2011) (citing § 7411(d)(1)). The EPA notes that this footnote was dicta and that it conflicted with national ambient air
quality standard regulations at the time. But the EPA can’t have
it both ways: It can’t dismiss an inconvenient part of American
Electric Power that is directly on point and then rely on other
parts of that case where the precise meaning and contours of
§ 111(d) were not at issue.
As for American Electric Power’s holding, it depended on the
Supreme Court’s understanding that § 111(d) “speaks directly” to
carbon emissions from fossil-fuel plants. Id. at 424. I agree that
§ 111(d) “speaks directly” to whether the EPA can or cannot regulate carbon from coal-fired power plants: The provision directly
says that the EPA can regulate pollutants from existing sources
unless the EPA already regulates those sources under § 112. Compare id. with id. at 424 n.7.
106

App. 210
category which is regulated under section
112. . . .
To get to the EPA’s preferred reading—to make
“which is regulated by section 112” modify “air pollutant”—the EPA needs to read into § 111(d)(1)(A)(i) a
triplet of three whiches:107
The Administrator shall prescribe regulations
. . . under which each State shall submit to the
Administrator a plan which (A) establishes
standards of performance for any existing
source for any air pollutant [1] for which air
quality criteria have not been issued or [2]
which is not included on a list published under § 108(a) or emitted from a source category
[3] which is [not] regulated under § 112. . . .
My alterations—including [1], [2], [3], and [not]—
reflect the tripartite division implied by the EPA. But
of course the alterations were not in the original. If
they were, the EPA’s grammatically unconventional
reading might work. They’re not, so it doesn’t.
For four reasons, the EPA’s approach is not persuasive.
First, “ordinarily, and within reason, modifiers and
qualifying phrases attach to the terms that are nearest.”108 Under that canon, a modifying phrase, such as

Cf. WILLIAM SHAKESPEARE, MACBETH act 1, sc. 1.
Grecian Magnesite Mining, Industrial & Shipping Co., SA
v. Commissioner, 926 F.3d 819, 824 (D.C. Cir. 2019); see also Lockhart v. United States, 136 S. Ct. 958, 962 (2016); ANTONIN SCALIA
107
108

App. 211
“which is regulated under section 112,” should apply to
the closest noun possible—“source category,” not “air
pollutant.”
Second, the EPA all but reads out of § 111 the following words: “emitted from a source category.” To be
sure, Congress will sometimes “include words that add
nothing of substance,” so the canon against surplusage
has limits.109 That’s why “a court may well prefer ordinary meaning to an unusual meaning that will avoid
surplusage.”110 But amputating the words “emitted
from a source category” does not clarify § 111’s “ordinary meaning.” Instead, doing so transforms that
meaning.
Third, and most importantly, Congress put a conjunction (“or”) between parts one and two of the imagined triplet, but not between parts two and three. If the
EPA’s triplet exists, Congress’s approach to English
was, to put it kindly, novel.
In formal English, you usually separate a triplet
with a conjunction between the second and third parts.
(Life, liberty, or property.) Informal English sometimes
puts a conjunction between the first and second, and
between the second and third. (Life or liberty or property.) Sometimes you see a triplet with no conjunction.
(Life, liberty, property.) But you rarely if ever see a
& BRYAN A. GARNER, Reading Law: The Interpretation of Legal
Texts 144-46 (2012).
109
ANTONIN SCALIA & BRYAN A. GARNER, Reading Law: The
Interpretation of Legal Texts 176 (2012).
110
Id.

App. 212
triplet’s conjunction separate the first and second
parts without also separating the second and third
parts. (Life or liberty property). That’s why it’s not:
•

Stop and drop roll; or

•

Red and white blue; or

•

Reduce and reuse recycle; or

•

Blood and sweat tears; or

•

Huey and Dewey Louie.

Thus, the EPA would require us to read into § 111
a triplet written in a way no one writes.111
Fourth and finally, the EPA says a plain-text reading of the House Amendment would leave § 111 almost
111

Whatever else the savings clause in § 112(d)(7) might
save, it can’t save that. Cf. 42 U.S.C. § 7412(d)(7) (“No emission
standard or other requirement promulgated under this section
shall be interpreted, construed or applied to diminish or replace
the requirements of a more stringent emission limitation or other
applicable requirement established pursuant to section 7411 of
this title, part C or D, or other authority of this chapter or a standard issued under State authority.”).
Note that § 112(d)(7) applies only to requirements “established pursuant to” § 111. And even the EPA says regulations
cannot be established pursuant to § 111 if they target pollutants
already regulated under § 112. See also American Electric Power,
564 U.S. at 424 n.7. So everyone agrees the § 111 amendments
exclude something from § 111 based on § 112. And § 112(d)(7)
does not cover whatever is excluded.
What’s more, § 111(d)’s exclusion is more specific than
§ 112(d)(7)’s generalities, and the specific usually controls the
general. See ANTONIN SCALIA & BRYAN A. GARNER, Reading Law:
The Interpretation of Legal Texts 183 (2012).

App. 213
no work to do. But if so, that was a choice for Congress.
After all, the 1990 Clean Air Act Amendments added
more than one hundred pollutants to § 112’s scope,
with a mechanism for the EPA to add even more
later.112 Maybe Congress thought § 111(d) shouldn’t
be much more than a rarely used gap-filler in light of
a beefed up § 112—at least until Congress passed another law saying otherwise.
Of course, in the end, it doesn’t matter what Congress was thinking.113 “It is the law that governs, not
the intent of the lawgiver.”114 That’s because, among
other reasons, “it is simply incompatible with democratic government, or indeed, even with fair government, to have the meaning of a law determined by
what the lawgiver meant, rather than by what the lawgiver promulgated.”115
Thus, an oddity of timing doesn’t trigger Chevron deference.116 Nor does ambiguity arise every time
an agency wishes a statutory provision did more
work than it does. When statutory text informed by
112

Pub. L. No. 101-549, § 301, 104 Stat. 2399, 2532-37 (1990).
Cf. Gutierrez-Brizuela, 834 F.3d at 1153 (Gorsuch, J., concurring) (“Trying to infer the intentions of an institution composed of 535 members is a notoriously doubtful business under
the best of circumstances.”).
114
Antonin Scalia, Common-Law Courts in a Civil-Law System: The Role of United States Federal Courts in Interpreting the
Constitution and Laws, in A MATTER OF INTERPRETATION: FEDERAL
COURTS AND THE LAW 3, 17 (Amy Gutmann ed., 1997).
115
Id.
116
Cf. Public Health & Environmental Respondent-Intervenors’ Br. at 10-11.
113

App. 214
structure and context is clear, “that is the end of the
matter.”117
***
This case touches on some of administrative law’s
most consequential, unresolved issues. What is the
reach of Massachusetts v. EPA? What is the meaning of
a major question? What are the limits of congressional
delegation?
Each of those issues—and a dozen or two more—
might have mattered if the EPA had relied on a section
of the Clean Air Act other than § 111 to promulgate
both rules at issue in this case. But a 1990 amendment
to § 111 excluded a category of regulations from § 111’s
scope. And because that category covers the regulations challenged today, those other legal questions are
academic.
Both houses of Congress voted that amendment—
the House Amendment—into law. And as explained
above, if it conflicts with the Senate-proposed amendment to § 111, the Senate Amendment was a drafter’s
error.
On the other hand, if the House and Senate
Amendments can coexist, the House Amendment
simply excludes from § 111’s scope a category of regulations in addition to the regulations excluded by
the Senate Amendment.

117

Chevron, 467 U.S. at 842.

App. 215
Either way, the law precludes what the House
Amendment precludes. And the House Amendment
precludes § 111 regulations of coal-fired power plants
already covered by § 112.
Therefore, the EPA correctly repealed the 2015
Rule, but its replacement rule improperly applied
§ 111 to coal-fired power plants already regulated under § 112.
Those conclusions lead to this respectful concurrence in part, concurrence in the judgment in part, and
dissent in part.118

118

The majority’s thoughtful opinion (I) describes this case’s
regulatory and procedural history; (II) vacates the 2019 Rule;
(DIA) rejects most of the Coal Petitioners’ arguments, including
their contention that the EPA cannot use § 111 to regulate carbon
emissions from power plants already regulated under § 112;
(III.B) dismisses the Robinson Petitioners’ challenge for lack of
standing; (IV) vacates the EPA’s implementing regulations for
emission guidelines promulgated under § 111(d); (V) describes
the remedy; and (VI) concludes. I concur in part of the judgment
with respect to Part II, concur with respect to Part III.B, and concur in the judgment with respect to Part IV.

App. 216
APPENDIX B
42 U.S.C. § 7411. Standards of
performance for new stationary sources
(a)

Definitions

For purposes of this section:
(1) The term “standard of performance” means a
standard for emissions of air pollutants which reflects
the degree of emission limitation achievable through
the application of the best system of emission reduction which (taking into account the cost of achieving
such reduction and any nonair quality health and
environmental impact and energy requirements)
the Administrator determines has been adequately
demonstrated.
(2) The term “new source” means any stationary
source, the construction or modification of which is
commenced after the publication of regulations (or, if
earlier, proposed regulations) prescribing a standard of
performance under this section which will be applicable to such source.
(3) The term “stationary source” means any building,
structure, facility, or installation which emits or may
emit any air pollutant. Nothing in subchapter II of this
chapter relating to nonroad engines shall be construed
to apply to stationary internal combustion engines.
(4) The term “modification” means any physical
change in, or change in the method of operation of, a
stationary source which increases the amount of any
air pollutant emitted by such source or which results

App. 217
in the emission of any air pollutant not previously
emitted.
(5) The term “owner or operator” means any person
who owns, leases, operates, controls, or supervises a
stationary source.
(6) The term “existing source” means any stationary
source other than a new source.
(7) The term “technological system of continuous
emission reduction” means –
(A) a technological process for production or operation by any source which is inherently low-polluting or nonpolluting, or
(B) a technological system for continuous reduction of the pollution generated by a source before
such pollution is emitted into the ambient air, including precombustion cleaning or treatment of
fuels.
(8) A conversion to coal (A) by reason of an order under section 2(a) of the Energy Supply and Environmental Coordination Act of 1974 or any amendment
thereto, or any subsequent enactment which supersedes such Act, or (B) which qualifies under section
7413(d)(5)(A)(ii) of this title, shall not be deemed to be
a modification for purposes of paragraphs (2) and (4) of
this subsection.

App. 218
(b) List of categories of stationary sources;
standards of performance; information on pollution control techniques; sources owned or
operated by United States; particular systems;
revised standards
(1)(A) The Administrator shall, within 90 days after
December 31, 1970, publish (and from time to time
thereafter shall revise) a list of categories of stationary
sources. He shall include a category of sources in such
list if in his judgment it causes, or contributes significantly to, air pollution which may reasonably be anticipated to endanger public health or welfare.
(B) Within one year after the inclusion of a category
of stationary sources in a list under subparagraph (A),
the Administrator shall publish proposed regulations,
establishing Federal standards of performance for new
sources within such category. The Administrator shall
afford interested persons an opportunity for written
comment on such proposed regulations. After considering such comments, he shall promulgate, within one
year after such publication, such standards with such
modifications as he deems appropriate. The Administrator shall, at least every 8 years, review and, if
appropriate, revise such standards following the procedure required by this subsection for promulgation of
such standards. Notwithstanding the requirements of
the previous sentence, the Administrator need not
review any such standard if the Administrator determines that such review is not appropriate in light of
readily available information on the efficacy of such
standard. Standards of performance or revisions

App. 219
thereof shall become effective upon promulgation.
When implementation and enforcement of any requirement of this chapter indicate that emission limitations and percent reductions beyond those required
by the standards promulgated under this section are
achieved in practice, the Administrator shall, when revising standards promulgated under this section, consider the emission limitations and percent reductions
achieved in practice.
(2) The Administrator may distinguish among classes, types, and sizes within categories of new sources
for the purpose of establishing such standards.
(3) The Administrator shall, from time to time, issue
information on pollution control techniques for categories of new sources and air pollutants subject to the
provisions of this section.
(4) The provisions of this section shall apply to any
new source owned or operated by the United States.
(5) Except as otherwise authorized under subsection
(h), nothing in this section shall be construed to require, or to authorize the Administrator to require, any
new or modified source to install and operate any particular technological system of continuous emission reduction to comply with any new source standard of
performance.
(6) The revised standards of performance required
by enactment of subsection (a)(1)(A)(i) and (ii) shall be
promulgated not later than one year after August 7,
1977. Any new or modified fossil fuel fired stationary

App. 220
source which commences construction prior to the date
of publication of the proposed revised standards shall
not be required to comply with such revised standards.
(c) State implementation and enforcement of
standards of performance
(1) Each State may develop and submit to the Administrator a procedure for implementing and enforcing standards of performance for new sources located
in such State. If the Administrator finds the State procedure is adequate, he shall delegate to such State any
authority he has under this chapter to implement and
enforce such standards.
(2) Nothing in this subsection shall prohibit the Administrator from enforcing any applicable standard of
performance under this section.
(d) Standards of performance for existing
sources; remaining useful life of source
(1) The Administrator shall prescribe regulations
which shall establish a procedure similar to that provided by section 7410 of this title under which each
State shall submit to the Administrator a plan which
(A) establishes standards of performance for any existing source for any air pollutant (i) for which air quality
criteria have not been issued or which is not included
on a list published under section 7408(a) of this title or
emitted from a source category which is regulated under section 7412 of this title but (ii) to which a standard

App. 221
of performance under this section would apply if such
existing source were a new source, and (B) provides for
the implementation and enforcement of such standards of performance. Regulations of the Administrator
under this paragraph shall permit the State in applying a standard of performance to any particular source
under a plan submitted under this paragraph to take
into consideration, among other factors, the remaining
useful life of the existing source to which such standard applies.
(2)
–

The Administrator shall have the same authority
(A) to prescribe a plan for a State in cases where
the State fails to submit a satisfactory plan as he
would have under section 7410(c) of this title in
the case of failure to submit an implementation
plan, and
(B) to enforce the provisions of such plan in
cases where the State fails to enforce them as he
would have under sections 7413 and 7414 of this
title with respect to an implementation plan.

In promulgating a standard of performance under a
plan prescribed under this paragraph, the Administrator shall take into consideration, among other factors,
remaining useful lives of the sources in the category of
sources to which such standard applies.
(e)

Prohibited acts

After the effective date of standards of performance
promulgated under this section, it shall be unlawful for

App. 222
any owner or operator of any new source to operate
such source in violation of any standard of performance applicable to such source.
(f )

New source standards of performance

(1) For those categories of major stationary sources
that the Administrator listed under subsection (b)(1)(A)
before November 15, 1990, and for which regulations
had not been proposed by the Administrator by November 15, 1990, the Administrator shall –
(A) propose regulations establishing standards
of performance for at least 25 percent of such categories of sources within 2 years after November
15, 1990;
(B) propose regulations establishing standards
of performance for at least 50 percent of such categories of sources within 4 years after November
15, 1990; and
(C) propose regulations for the remaining categories of sources within 6 years after November
15, 1990.
(2) In determining priorities for promulgating standards for categories of major stationary sources for the
purpose of paragraph (1), the Administrator shall consider –
(A) the quantity of air pollutant emissions which
each such category will emit, or will be designed to
emit;

App. 223
(B) the extent to which each such pollutant may
reasonably be anticipated to endanger public
health or welfare; and
(C) the mobility and competitive nature of each
such category of sources and the consequent need
for nationally applicable new source standards of
performance.
(3) Before promulgating any regulations under this
subsection or listing any category of major stationary
sources as required under this subsection, the Administrator shall consult with appropriate representatives
of the Governors and of State air pollution control
agencies.
(g)

Revision of regulations

(1) Upon application by the Governor of a State
showing that the Administrator has failed to specify in
regulations under subsection (f )(1) any category of major stationary sources required to be specified under
such regulations, the Administrator shall revise such
regulations to specify any such category.
(2) Upon application of the Governor of a State,
showing that any category of stationary sources which
is not included in the list under subsection (b)(1)(A)
contributes significantly to air pollution which may
reasonably be anticipated to endanger public health or
welfare (notwithstanding that such category is not a
category of major stationary sources), the Administrator shall revise such regulations to specify such category of stationary sources.

App. 224
(3) Upon application of the Governor of a State showing that the Administrator has failed to apply properly
the criteria required to be considered under subsection
(f )(2), the Administrator shall revise the list under
subsection (b)(1)(A) to apply properly such criteria.
(4) Upon application of the Governor of a State showing that –
(A) a new, innovative, or improved technology or
process which achieves greater continuous emission reduction has been adequately demonstrated
for any category of stationary sources, and
(B) as a result of such technology or process, the
new source standard of performance in effect under this section for such category no longer reflects
the greatest degree of emission limitation achievable through application of the best technological
system of continuous emission reduction which
(taking into consideration the cost of achieving
such emission reduction, and any non-air quality
health and environmental impact and energy requirements) has been adequately demonstrated,
the Administrator shall revise such standard of performance for such category accordingly.
(5) Unless later deadlines for action of the Administrator are otherwise prescribed under this section, the
Administrator shall, not later than three months following the date of receipt of any application by a Governor of a State, either –

App. 225
(A) find that such application does not contain
the requisite showing and deny such application,
or
(B) grant such application and take the action
required under this subsection.
(6) Before taking any action required by subsection
(f ) or by this subsection, the Administrator shall provide notice and opportunity for public hearing.
(h) Design, equipment, work practice, or operational standard; alternative emission limitation
(1) For purposes of this section, if in the judgment
of the Administrator, it is not feasible to prescribe or
enforce a standard of performance, he may instead
promulgate a design, equipment, work practice, or
operational standard, or combination thereof, which
reflects the best technological system of continuous
emission reduction which (taking into consideration
the cost of achieving such emission reduction, and any
non-air quality health and environmental impact and
energy requirements) the Administrator determines
has been adequately demonstrated. In the event the
Administrator promulgates a design or equipment
standard under this subsection, he shall include as
part of such standard such requirements as will assure
the proper operation and maintenance of any such element of design or equipment.
(2) For the purpose of this subsection, the phrase
“not feasible to prescribe or enforce a standard of
performance” means any situation in which the

App. 226
Administrator determines that (A) a pollutant or
pollutants cannot be emitted through a conveyance
designed and constructed to emit or capture such pollutant, or that any requirement for, or use of, such a
conveyance would be inconsistent with any Federal,
State, or local law, or (B) the application of measurement methodology to a particular class of sources is not
practicable due to technological or economic limitations.
(3) If after notice and opportunity for public hearing,
any person establishes to the satisfaction of the Administrator that an alternative means of emission limitation will achieve a reduction in emissions of any air
pollutant at least equivalent to the reduction in emissions of such air pollutant achieved under the requirements of paragraph (1), the Administrator shall permit
the use of such alternative by the source for purposes
of compliance with this section with respect to such
pollutant.
(4) Any standard promulgated under paragraph (1)
shall be promulgated in terms of standard of performance whenever it becomes feasible to promulgate and
enforce such standard in such terms.
(5) Any design, equipment, work practice, or operational standard, or any combination thereof, described
in this subsection shall be treated as a standard of performance for purposes of the provisions of this chapter
(other than the provisions of subsection (a) and this
subsection).

App. 227
(i)

Country elevators

Any regulations promulgated by the Administrator under this section applicable to grain elevators shall not
apply to country elevators (as defined by the Administrator) which have a storage capacity of less than two
million five hundred thousand bushels.
(j) Innovative technological systems of continuous emission reduction
(1)(A) Any person proposing to own or operate a new
source may request the Administrator for one or more
waivers from the requirements of this section for such
source or any portion thereof with respect to any air
pollutant to encourage the use of an innovative technological system or systems of continuous emission reduction. The Administrator may, with the consent of
the Governor of the State in which the source is to be
located, grant a waiver under this paragraph, if the Administrator determines after notice and opportunity
for public hearing, that –
(i) the proposed system or systems have not been
adequately demonstrated,
(ii) the proposed system or systems will operate
effectively and there is a substantial likelihood
that such system or systems will achieve greater
continuous emission reduction than that required
to be achieved under the standards of performance
which would otherwise apply, or achieve at least
an equivalent reduction at lower cost in terms of

App. 228
energy, economic, or nonair quality environmental
impact,
(iii) the owner or operator of the proposed source
has demonstrated to the satisfaction of the Administrator that the proposed system will not
cause or contribute to an unreasonable risk to
public health, welfare, or safety in its operation,
function, or malfunction, and
(iv) the granting of such waiver is consistent
with the requirements of subparagraph (C).
In making any determination under clause (ii), the Administrator shall take into account any previous failure of such system or systems to operate effectively or
to meet any requirement of the new source performance standards. In determining whether an unreasonable risk exists under clause (iii), the Administrator
shall consider, among other factors, whether and to
what extent the use of the proposed technological system will cause, increase, reduce, or eliminate emissions
of any unregulated pollutants; available methods for
reducing or eliminating any risk to public health, welfare, or safety which may be associated with the use of
such system; and the availability of other technological
systems which may be used to conform to standards
under this section without causing or contributing to
such unreasonable risk. The Administrator may conduct such tests and may require the owner or operator
of the proposed source to conduct such tests and provide such information as is necessary to carry out
clause (iii) of this subparagraph. Such requirements
shall include a requirement for prompt reporting of the

App. 229
emission of any unregulated pollutant from a system if
such pollutant was not emitted, or was emitted in significantly lesser amounts without use of such system.
(B) A waiver under this paragraph shall be granted
on such terms and conditions as the Administrator determines to be necessary to assure –
(i) emissions from the source will not prevent attainment and maintenance of any national ambient air quality standards, and
(ii) proper functioning of the technological system or systems authorized.
Any such term or condition shall be treated as a standard of performance for the purposes of subsection (e) of
this section and section 7413 of this title.
(C) The number of waivers granted under this paragraph with respect to a proposed technological system
of continuous emission reduction shall not exceed such
number as the Administrator finds necessary to ascertain whether or not such system will achieve the
conditions specified in clauses (ii) and (iii) of subparagraph (A).
(D) A waiver under this paragraph shall extend to
the sooner of –
(i) the date determined by the Administrator, after consultation with the owner or operator of the
source, taking into consideration the design, installation, and capital cost of the technological system or systems being used, or

App. 230
(ii) the date on which the Administrator determines that such system has failed to –
(I) achieve at least an equivalent continuous emission reduction to that required to be
achieved under the standards of performance
which would otherwise apply, or
(II) comply with the condition specified in
paragraph (1)(A)(iii),
and that such failure cannot be corrected.
(E) In carrying out subparagraph (D)(i), the Administrator shall not permit any waiver for a source or portion thereof to extend beyond the date –
(i) seven years after the date on which any
waiver is granted to such source or portion thereof,
or
(ii) four years after the date on which such
source or portion thereof commences operation,
whichever is earlier.
(F) No waiver under this subsection shall apply to
any portion of a source other than the portion on which
the innovative technological system or systems of continuous emission reduction is used.
(2)(A) If a waiver under paragraph (1) is terminated
under clause (ii) of paragraph (1)(D), the Administrator shall grant an extension of the requirements of this
section for such source for such minimum period as
may be necessary to comply with the applicable standard of performance under this section. Such period

App. 231
shall not extend beyond the date three years from the
time such waiver is terminated.
(B) An extension granted under this paragraph shall
set forth emission limits and a compliance schedule
containing increments of progress which require compliance with the applicable standards of performance
as expeditiously as practicable and include such
measures as are necessary and practicable in the interim to minimize emissions. Such schedule shall be
treated as a standard of performance for purposes of
subsection (e) of this section and section 7413 of this
title.

App. 232
APPENDIX C
NO. 15A ___
----------------------------------------------------------------------------------------------------------------------------

IN THE SUPREME COURT
OF THE UNITED STATES
-----------------------------------------------------------------------

STATE OF NORTH DAKOTA,
Applicant,
v.
UNITED STATES ENVIRONMENTAL
PROTECTION AGENCY,
Respondent.
-----------------------------------------------------------------------

APPLICATION BY THE STATE OF
NORTH DAKOTA FOR IMMEDIATE
STAY OF FINAL AGENCY ACTION
PENDING APPELLATE REVIEW
-----------------------------------------------------------------------

DIRECTED TO THE HONORABLE
JOHN G. ROBERTS, JR., CHIEF JUSTICE
OF THE UNITED STATES AND
CIRCUIT JUSTICE FOR THE UNITED STATES
COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT
-----------------------------------------------------------------------

App. 233
STATE OF
NORTH DAKOTA
WAYNE STENEHJEM
ATTORNEY GENERAL
Paul M. Seby
Special Assistant
Attorney General
State of North Dakota
Counsel of record
Greenberg Traurig LLP
1200 17th Street,
Suite 2400
Denver, CO 80202
Tel (303) 572-6500
Fax (303) 572-6540
sebyp@gtlaw.com

Margaret Olson
Assistant Attorney General
North Dakota Attorney
General’s Office
500 N. 9th Street
Bismarck, ND 58501
Tel (701) 328-3640
maiolson@nd.gov

Counsel for Applicant State of North Dakota
January 29, 2016
TABLE OF CONTENTS
Table Of Authorities ............................................

2

Introduction .........................................................

1

Opinion Below ......................................................

4

Jurisdiction ..........................................................

5

Constitutional, Statutory And Regulatory Provisions ..................................................................

5

Statement ............................................................

6

Reasons For Granting The Application ............... 14

App. 234
I.

North Dakota Will Continue To Suffer Irreparable Harm If The Existing Source
Rule Is Not Stayed ..................................... 15

II.

North Dakota Is Likely To Prevail In Establishing That The Existing Source Rule
Is Unlawful ................................................ 22
A. EPA Does Not Have Authority To Impose Binding CO2 Emission Reduction
Requirements In North Dakota .......... 23
B. The Final Rule Deprives North Dakota Of Authority To Consider The Remaining Useful Lives Of Regulated
Sources ................................................ 25

III.

The Equities And Balance Of Harms Require A Stay Of The Existing

Source Rule .......................................................... 26
Conclusion............................................................ 27
TABLE OF AUTHORITIES
Cases
Arkansas Elec. Coop. Corp. v.
Arkansas Pub. Serv. Comm’n,
461 U.S. 375 (1983) .................................................18
California State Bd. of Optometry v. FTC,
No. 89-1190, 1989 U.S. App. LEXIS 16067
(D.C. Cir. Aug. 15, 2009) ..........................................19
Gen. Motors Corp. v. United States,
496 U.S. 530 (1990) ...................................................6
Hollingsworth v. Perry,
558 U.S. 183 (2010) ..................................... 15, 22, 26

App. 235
Kansas v. United States,
249 F.3d 1213 (10th Cir. 2001) ................................16
Lucas v. Townsend,
486 U.S. 1301 (1988).................................... 15, 22, 26
Maryland v. King,
133 S. Ct. 1 (2012) ...................................................16
Michigan v. EPA,
135 S.Ct. 2699 (2015) ..............................................22
Mori v. Int’l Bhd. Of Boilermakers,
454 U.S. 1301 (1981).......................................... 19, 21
New Motor Vehicle Bd. Of Cal. v. Orrin W. Fox Co.
434 U.S. 1345 (1977).......................................... 16, 19
New York v. United States, 505 U.S. 144 (1992) .........16
Oklahoma ex rel. Oklahoma Tax Com’n
v. Int’l Registration Plan, Inc.,
264 F. Supp. 2d 990 (W.D. Okla. 2003) ............. 20, 21
Pac. Gas & Elec. Co. v., State Energy
Res. Conservation & Dev. Comm’n,
461 U.S. 190 (1983) ........................................... 16, 19
Phillip Morris USA Inc. v. Scott,
131 S.Ct. 1 (2010) ........................................ 15, 19, 21
Thunder Basin Coal Co. v. Reich,
510 U.S. 200 (1994) .................................................20
Toomer v. Witsell,
334 U.S. 385 (1948) .................................................21
United States v. Minnkota Power Coop., Inc.,
831 F. Supp. 2d 1109 (D. N.D. 2011) .......................17
Univ. of Tex. v. Camenisch,
451 U.S. 390 (1981) .................................................15

App. 236
Statutes
5 U.S.C. § 705 .......................................................... 5, 14
16 U.S.C. § 808(d)(2)(A) ..............................................19
16 U.S.C. § 824(a) ........................................................18
16 U.S.C. § 824(b)(1) ...................................................18
28 U.S.C. § 1254(1) ........................................................5
28 U.S.C. § 1651 ...................................................... 5, 15
42 U.S.C. § 7401(a)(3) ...................................................3
42 U.S.C. § 7410 ............................................................6
42 U.S.C. § 7411(a)(1) ...................................................6
42 U.S.C. § 7411(d) .............................................. passim
42 U.S.C. § 7411(d)(1) ............................................... 5, 6
42 U.S.C. § 7411(d)(1)(B) .................................. 7, 17, 25
42 U.S.C. § 7411(d)(2) ...................................................7
N.D. CENT. CODE § 17-05 et seq...................................18
N.D. CENT. CODE § 49-01, et seq. .................................18
N.D. CENT. CODE § 54-17.5-01 ......................................1
Rules
Carbon Pollution Emission Guidelines for Existing Stationary Sources: Electric Utility Generating Units, 80 Fed. Reg. 64,661 (Oct. 23,
2015) ................................................................ passim

App. 237
Regulations
40 C.F.R. § 60.21(e) .....................................................24
40 C.F.R. § 60.22(a) .....................................................24
40 C.F.R. § 60.24(f) ............................................... 25, 26
Constitutional Provisions
N.D. Const. art. 5, § 2 ..................................................18
Other Authorities
Mine Yearly Production Information, U.S. DEPT.
OF LABOR, MINE SAFETY AND HEALTH ADMINISTRATION, http://www.msha.gov/drs/drshome.
htm .............................................................. 12, 13, 14
North Dakota Department of Health Air Quality, 2014 Annual Emissions Inventory Report
for M.R. Young Station, http://www.ndhealth.
gov/AQ/EmissionInventory/AEIR2014/MinnkotaM.R.YoungStationT5F76009AEIR2014.pdf ...........13
North Dakota Department of Health Air Quality, 2014 Annual Emissions Inventory Report
for the Coal Creek Station, http://www.
ndhealth.gov/Aq/EmissionInventory/AEIR2014/
GRECoalCreekStation-T5F82006AEIR2014.
pdf ............................................................................14
North Dakota Department of Health Air Quality, 2014 Annual Emissions Inventory Report
for the Coyote Station, http://www.ndhealth.
gov/AQ/EmissionInventory/AEIR2014/OtterTail
CoyoteStationT5F84011AEIR2014.pdf ..................11

App. 238
North Dakota Department of Health Air Quality, 2014 Annual Emissions Inventory Report
for the R.M. Heskett Station, http://www.
ndhealth.gov/AQ/EmissionInventory/AEIR2014/
MDUHeskett-T5F76001AEIR2014.pdf ............ 12, 14
North Dakota Department of Health Air Quality, 2014 Annual Emissions Inventory Report
for the Spiritwood Station, http://www.ndhealth.
gov/Aq/EmissionInventory/AEIR2014/GRE
SpiritwoodStation-PTC07026AEIR2014.pdf ...........13
USEPA, Analysis of the Clean Power Plan, http://
www2.epa.gov/airmarkets/analysis-clean-powerplan ...................................................................... 9, 10
USEPA, Documentation for EPA Base Case v.5.13
Using the Integrated Planning Model (November 2013), http://www.epa.gov/sites/production/
files/2015-08/documents/chapter_7_set-up_
parameters_and_rules.pdf ........................................9
USEPA, REGULATORY IMPACT ANALYSIS FOR THE
CLEAN POWER PLAN FINAL RULE, http://www.
epa.gov/sites/production/files/2015-08/documents/
cpp-final-rule-ria.pdf .................................................9
TO THE HONORABLE JOHN G. ROBERTS, JR.,
CHIEF JUSTICE OF THE UNITED STATES AND
CIRCUIT JUSTICE FOR THE UNITED STATES
COURT OF APPEALS FOR THE DISTRICT OF
COLUMBIA CIRCUIT:
North Dakota respectfully requests an immediate stay of the final rule of the United States Environmental Protection Agency (“EPA”) entitled Carbon

App. 239
Pollution Emission Guidelines for Existing Stationary
Sources: Electric Utility Generating Units, 80 Fed.
Reg. 64,661 (Oct. 23, 2015) (“Existing Source Rule” or
“Rule”). North Dakota sought a stay of the Rule, also
known as EPA’s “Clean Power Plan” (“Power Plan”),
from the D.C. Circuit, but its motion for a stay was denied on January 21, 2016, together with the stay motions filed by other states and parties.
INTRODUCTION
Like the other states seeking comparable relief,
North Dakota requests a stay of the Existing Source
Rule in order to preserve the status quo and halt the
ongoing irreparable harm the Rule is causing to North
Dakota’s several sovereign and financial interests. As
a major energy producing state (from significant lignite coal, oil, natural gas, and wind resources), North
Dakota has an unmistakable sovereign interest in regulating such resources and their use. In fact, the North
Dakota legislature has declared it to be an essential
government function and public purpose to foster and
encourage the wise use and development of North Dakota’s vast lignite coal resources to maintain and enhance the economic and general welfare of North
Dakota. N.D. CENT. CODE § 54-17.5-01.
The Existing Source Rule, in an affront to North
Dakota’s sovereign interests, imposes a particularly stringent compliance requirement on the State
because of its development and use of its own lignite
coal resources. EPA’s Rule requires North Dakota to

App. 240
reduce its carbon dioxide (CO2) emission rate by 44.9%,
more than all but two other states and four times more
than the emissions reduction EPA originally would
have required for North Dakota in its proposed rule.
EPA’s draconian mandate, specific to North Dakota, requires a dramatic and immediate shift away from lignite coal-powered electric generating plants in favor of
gas-powered plants or renewable sources.
EPA’s Rule thus usurps the authority and discretion of North Dakota and its respective agencies responsible for implementing environmental and energy
policy. The Rule dictates North Dakota’s energy policy,
and it dictates a policy that is contrary to North Dakota’s statutory support for lignite coal-fueled electricity. Indeed, according to EPA’s own modeling, the
dramatic emissions reductions the Rule requires will
lead to the closure in 2016 and 2018 of specific coalpowered electric generating plants in North Dakota,
which in turn will require multiple lignite coal mines
in the State to close and at least one mine to severely
curtail production. The Rule therefore not only denies
North Dakota its sovereign authority to administer energy and environmental policies within its borders, but
also deprives North Dakota of very substantial tax
and coal royalty payments, which can never be recovered.
The Existing Source Rule’s particularly severe impact on North Dakota’s sovereign and financial interests is a classic case of irreparable harm requiring a
stay of the Rule during the pendency of this litigation.
That many other states are also suffering ongoing

App. 241
irreparable harm from the Rule, as set forth in the
stay application filed by 29 states on January 26, 2016
(“Joint State Application”), underscores the need to
stay the Rule.
Further, the Rule is contrary to the clear text of
the applicable Clean Air Act (“CAA”) provision, section
111(d), 42 U.S.C. § 7411(d), as it vastly exceeds EPA’s
limited authority under that provision. As such, the
Rule is likely to come before this Court for review. By
establishing federal emissions limits for CO2 and mandating that North Dakota and other states establish
plans to meet those limits, the Rule turns on its head
the federal-state relationship that Congress carefully
built into the CAA, under which “air pollution prevention . . . and air pollution control at its source is the primary responsibility of States and local governments. 42
U.S.C. § 7401(a)(3) (emphasis added). That principle is
expressly reflected in Section 111(d), which provides
that states – not the federal government – shall establish performance standards for air pollutants like CO2.
See id. § 7411(d) (“[EPA] shall prescribe regulations
. . . under which each State shall submit to the Administrator a plan which (A) establishes standards of
performance for any existing source for any air pollutant. . . .”) (emphasis added.) The draconian CO2 emissions limit that EPA’s Existing Source Rule mandates
for North Dakota (and each other state) is contrary to
that statutory directive.
In addition, the Existing Source Rule disregards
Section 111(d)’s requirement that EPA regulations under that provision “shall permit” states to take into

App. 242
consideration the remaining useful life of existing
sources. The Rule makes no accommodation for the remaining useful life of existing plants, but rather is
completely silent on the subject.
The Existing Source Rule is also invalid for several other reasons. Because those other reasons are
well explained in the Joint State Application, and in
order to avoid undue repetition, North Dakota does not
repeat those reasons in this Application but instead
adopts the arguments supporting them set forth in the
Joint State Application.
OPINION BELOW
The D.C. Circuit’s January 21, 2016, Order denying North Dakota’s motion for a stay of the Existing
Source Rule (App. A-1) is unpublished.
JURISDICTION
This Court has jurisdiction over this Application
pursuant to 28 U.S.C. § 1254(1), and has authority to
grant North Dakota relief under the Administrative
Procedure Act, 5 U.S.C. § 705, and the All Writs Act, 28
U.S.C. § 1651(a).
CONSTITUTIONAL, STATUTORY
AND REGULATORY PROVISIONS
Set forth below is the text of Section 111(d)(1) of
the Clean Air Act, 42 U.S.C. § 7411(d)(1), which is the
primary provision involved in this Application. All

App. 243
other pertinent constitutional, statutory, and regulatory provisions are reprinted in the Appendix . (App. A80).
42 U.S.C. § 7411(d)(1):
(d) Standards of performance for existing sources; remaining useful life of
source
(1) The Administrator shall prescribe regulations which shall establish a procedure similar to that provided by section 7410 of this
title under which each State shall submit to
the Administrator a plan which (A) establishes standards of performance for any existing source for any air pollutant (i) for which
air quality criteria have not been issued or
which is not included on a list published under section 7408(a) of this title or emitted
from a source category which is regulated under section 7412 of this title but (ii) to which
a standard of performance under this section
would apply if such existing source were a
new source, and (B) provides for the implementation and enforcement of such standards
of performance. Regulations of the Administrator under this paragraph shall permit the
State in applying a standard of performance
to any particular source under a plan submitted under this paragraph to take into consideration, among other factors, the remaining
useful life of the existing source to which such
standard applies.

App. 244
STATEMENT
1. The Clean Air Act “made the States and the
Federal Government partners in the struggle against
air pollution.” Gen. Motors Corp. v. United States, 496
U.S. 530, 532 (1990). As to stationary sources of emissions, the CAA contains several programs under which
EPA sets standards, such as for the concentration of
certain pollutants in ambient air, that are then implemented and administered by the states through State
Implementation Plans (“State Plan”) prepared by the
states. See generally 42 U.S.C. § 7410.
CAA § 111(d) is one program that implements this
cooperative approach for setting “standards of performance” for certain existing stationary sources of air
pollutants. 42 U.S.C. § 7411(d)(1). But unlike other
programs under which EPA sets emissions for air pollutants, CAA 111(d) provides for EPA to prescribe regulations which “establish a procedure” for states to
submit plans that “establish[ ] standards of performance for [certain] existing source for any air pollutant[s]”. . . . Id. A “standard of performance” is defined
as “a standard for emissions of air pollutants which reflects the degree of emission limitation achievable
through the application of the best system of emission
reduction which (taking into account the cost of achieving such reduction and any nonair quality health
and environmental impact and energy requirements)
[EPA] determines has been adequately demonstrated.”
42 U.S.C. § 7411(a)(1). EPA’s regulations must also
permit a state, “in applying a standard of performance
to any particular source under a plan,” to “take into

App. 245
consideration, among other factors, the remaining useful life of the existing source to which such standard
applies.” 42 U.S.C. § 7411(d)(1)(B). Only if a state “fails
to submit a satisfactory plan,” or fails “to enforce the
provisions of such plan,” may EPA step in and regulate
itself by setting and enforcing standards. 42 U.S.C.
§ 7411(d)(2).
2. Rather than merely establishing a procedure
for states to submit plans that establish “standards of
performance” for existing coal-fueled power plants under CAA § 111(d), the Existing Source Rule requires
North Dakota (under pain of a federal takeover of
significant State authority) to submit a State Plan
that fundamentally transforms North Dakota’s energy
economy, in order to substantially reduce North Dakota’s usage of coal-fueled electricity. The Rule’s requirements for North Dakota are based on three
“building blocks”:
(Block 1) increasing efficiency at coal-fueled power
plants;
(Block 2) shifting statewide demand for coalfueled power to natural gas generation; and
(Block 3) shifting statewide demand for coalfueled power to renewable sources. 80 Fed. Reg. at
64,745.
Only the first building block involves imposing
emissions control measures on coal-fueled power
plants. The remaining building blocks require broad

App. 246
changes away from coal-fueled electricity. 80 Fed. Reg.
at 64,745.
By September 6, 2016, North Dakota must submit
an initial State Plan that contains: (1) “an identification of final plan approach or approaches under consideration, including a description of progress made”;
(2) an acceptable explanation for why the State requires
more time to submit a final plan; and (3) demonstration or description of opportunity for public comment
on the initial submittal and meaningful engagement
with stakeholders. 80 Fed. Reg. at 64,669. As EPA says,
the requirements in the Existing Source Rule are intended “to assure that states begin to address the urgent needs for reductions quickly.” 80 Fed. Reg. at
64,675. If North Dakota satisfies these EPA requirements, North Dakota will have until September 6,
2018 to submit a final Plan. 80 Fed. Reg. at 64, 669.
3. The Existing Source Rule requires North Dakota to reduce its carbon dioxide emission rate by
44.9%. Glatt Decl. ¶ 6; see Christmann Decl. ¶¶ 7-8.1
EPA projected the impacts of the Rule on power generation, capacity, emissions, and compliance costs using
the Integrated Planning Model (“IPM”). Glatt Decl.
¶ 14; Christmann Decl. ¶ 12.
EPA describes its IPM model analysis of the
Final Rule as “illustrative” of the impacts of the Final Rule. USEPA, REGULATORY IMPACT ANALYSIS FOR
1

Fact statements in this Application are supported by 10
declarations from various North Dakota officials and others
which are included in the Appendix. (App. A-3).

App. 247
CLEAN POWER PLAN FINAL RULE, Table ES-3 at
ES-7, http://www.epa.gov/sites/production/files/2015-08/
documents/cpp-final-rule-ria.pdf (“RIA”). In the RIA,
EPA presented two scenarios designed to achieve compliance with the Final Rule: the “rate-based” illustrative plan and the “mass-based” illustrative plan. These
scenarios are designed for each state to comply with
the corresponding state limits (rate-based and massbased) in the Final Rule. USEPA, Analysis of the Clean
Power Plan, http://www2.epa.gov/airmarkets/analysisclean-power-plan.

THE

EPA did not run the IPM model for each year, but
rather uses individual years to reflect the impacts on
individual states in multi-year periods, as stated by
EPA in the model documentation:
Although IPM is capable of representing
every individual year in an analysis time horizon, individual years are typically grouped
into model run years to increase the speed of
modeling. While the model makes decisions
only for run years, information on non-run
years can be captured by mapping run years
to the individual years they represent.2
Although not displayed in the RIA, the IPM model
also calculated impacts for years prior to 2020 and after 2030. As noted, while EPA only presented the results for the model years 2020, 2025 and 2030 in the
2

USEPA, Documentation for EPA Base Case v.5.13 Using
the Integrated Planning Model, 7-1 (November 2013), http://www.
epa.gov/sites/production/files/2015-08/documents/chapter_7_set-up_
parameters_and_rules.pdf.

App. 248
RIA, the supporting files available on EPA’s website all
contain the IPM model results for other model years,
including 2016 and 2018.
This analysis by EPA of the impact of the Existing
Source Rule shows that several coal-fueled power
plants in North Dakota will close immediately in 2016
and 2018 due to the Rule.3 While EPA did not reveal
these immediate impacts in the RIA, EPA’s IPM modeling results confirm that the North Dakota’s lignite
coal-fueled power plant capacity will be lower in 2016
due to the Rule. EPA’s results are publicly available
and can be found in tables provided on EPA’s website.4
In addition, further information on the specific coalfueled power plants which EPA projects will close early
due to the Rule can be determined from additional IPM
model documentation files, which are also available on
EPA’s website. See note 4, supra; see also Christmann
Decl. ¶ 12.

3

The IPM model was run for years 2016 and 2018, but not
2017. The run year 2016 is intended to be representative of 2017
also. EPA, IPM model run files, “Base Case DAT Replacement
File.xlx”, “Rate-Based DAT.xlsx”, and “Mass-Based DAT.xlsx”,
available at http://www2.epa.gov/airmarkets/analysis-cleanpowerplan (follow “IPM Run Name” hyperlinks in chart at the end of
the page). See note 4, infra; see also Gaebe Decl. ¶12.
4
EPA, IPM model documentation and run files, system support resources, “Base Case SSR.xls”, “Rate-Based SSR.xls”, and
“Mass-Based SSR.xls”, Summary and Tables 1-16 tabs, available
at USEPA, Analysis of the Clean Power Plan, http://www2.epa.
gov/airmarkets/analysis-clean-power-plan. The Addendum to this
Application explains how to access these files to ascertain the
plant shutdown dates that EPA has projected.

App. 249
Although EPA’s expectations regarding the closure of coal-fuel power plants in North Dakota are buried deeply in complex “zip” files accessible on EPA’s
website, see note 4, supra; Addendum to this Application, EPA’s analysis unmistakably projects the closure
in 2016 and 2018 of six coal-fuel power in North Dakota, as discussed further below. Despite this lack of
transparency, there is little doubt that EPA will expect
North Dakota to comply with the Existing Source Rule
by closing coal-fueled plants in the manner EPA has
projected.
4. In North Dakota, EPA projects the 427 MW
Coyote Station to close in 2016 in its rate-based case.
See note 4, supra; Christmann Decl. ¶ 12; Glatt Decl.
¶ 14. The Coyote Station is the primary customer for
the Beulah lignite mine owned by Westmoreland Coal
and that mine will also have to close if the Coyote Station is closed in 2016. Binder Decl. ¶ 6. The Beulah
mine produced a total of 2,763,576 tons in 2014,
Christmann Decl. ¶ 12; Glatt Decl. ¶ 14, of which
2,248,483 tons (81%) were consumed at the Coyote
Station. North Dakota Department of Health Air Quality, 2014 Annual Emissions Inventory Report for the
Coyote Station, http://www.ndhealth.gov/AQ/Emission
Inventory/AEIR2014/OtterTailCoyoteStationT5F8401
1AEIR2014.pdf. The closure of Coyote Station will
force the layoff of all of the 80 employees at the
mine See Binder Decl. ¶ 6(A); Christmann Decl. ¶ 12;
Glatt Decl. ¶ 14.5 The EPA scenario also includes the
5

NACCO Industries has won a coal supply contract to replace Beulah mine at Coyote, so one could argue that Beulah will

App. 250
shutdown of Unit 1 at the R.M. Heskett Station in
2016. See note 4, supra; Christmann Decl. ¶ 12; Glatt
Decl. ¶ 14. This unit also consumed 120,991 tons of
lignite from the Beulah Mine in 2014. North Dakota
Department of Health Air Quality, 2014 Annual Emissions Inventory Report for the R.M. Heskett Station, http://
www.ndhealth.gov/AQ/EmissionInventory/AEIR2014/
MDU-Heskett-T5F76001AEIR2014.pdf.
In addition, EPA projects the 250 MW Milton R.
Young Station (MRYS) Unit 1 will close in EPA’s 2016
base and rate-based cases. See note 4, supra; Christmann Decl. ¶ 12, Glatt Decl. ¶ 14. MRYS Unit 1 is supplied by the adjacent lignite mine in Center, North
Dakota. Christmann Decl. ¶ 12; Glatt Decl. ¶ 14. MRYS
Units 1 and 2 are the only customers for the Center
mine and the mine will have to cut production significantly if Unit 1 is closed in 2016. Christmann Decl.
¶ 12; Glatt Decl. ¶ 14. The Center mine produced a total of 3,975,634 tons of lignite coalin 2014,6 of which
1,545,190 tons (39%) were used to fuel the MRYS Unit
1. North Dakota Department of Health Air Quality,
2014 Annual Emissions Inventory Report for M.R.
have to forgo that production anyway. However, then the impact
of the closure of Coyote plant will fall on the new Coyote Creek
mine, which is under construction and already has 52 employees
building the mine, so the impact is similar. See Neumann Decl.
¶¶ 6-8; Binder Decl. ¶ 6(A).
6
Mine Yearly Production Information, U.S. DEPT. OF LABOR,
MINE SAFETY AND HEALTH ADMINISTRATION, http://www.msha.gov/
drs/drshome.htm (search MSHA Mine ID for “3200218”, then select “Get Report” in Employment/Production Reports for this
Mine at end of webpage).

App. 251
Young Station, http://www.ndhealth.gov/AQ/Emission
Inventory/AEIR2014/Minnkota-M.R.YoungStationT5F760
09AEIR2014.pdf. The EPA-projected closure of MRYS
Unit 1 will force the layoff of approximately 63 of Center Mine’s 162 employees.7
EPA also projects the closure of the Spiritwood
Station in 2016. See note 4, supra; Christmann Decl.
¶ 12; Glatt Decl. ¶ 14. In 2014, this plant combusted
91,017 tons of lignite from the Falkirk Mine. North Dakota Department of Health Air Quality, 2014 Annual
Emissions Inventory Report for the Spiritwood Station,
http://www.ndhealth.gov/Aq/EmissionInventory/AEIR
2014/GRESpiritwoodStation-PTC07026AEIR2014.pdf.
EPA further projects the 558 MW Coal Creek Station (CCS) Unit 1 in North Dakota will close in 2018 in
EPA’s rate-based case. See note 4, supra; Christmann
Decl. ¶ 12; Glatt Decl. ¶ 14. CCS is supplied by the
adjacent Falkirk lignite mine Erickson Decl. ¶ 4. CCS
Units 1 and 2 and the Spiritwood Station, which as
noted above EPA also specifically projects will close,
are the only customers for the Falkirk lignite mine,
which will have to cut production if Unit 1 is closed
in 2018. Christmann Decl. ¶ 12; Glatt Decl. ¶ 14. The
Falkirk mine produced a total of 7,985,648 tons in

7

Mine Yearly Production Information, U.S. DEPT. OF LABOR,
MINE SAFETY AND HEALTH ADMINISTRATION, http://www.msha.gov/
drs/drshome.htm (search MSHA Mine ID for “3200218”, then
select “Get Report” in Employment/Production Reports for this
Mine at end of webpage).

App. 252
2014,8 of which 3,407,090 tons (43%) were combusted
at CCS Unit 1. Neumann Decl. ¶ 13. North Dakota Department of Health Air Quality, 2014 Annual Emissions Inventory Report for the Coal Creek Station, http://
www.ndhealth.gov/Aq/EmissionInventory/AEIR2014/
GRECoalCreekStation-T5F82006AEIR2014.pdf. The
closure of CCS Unit 1 will necessarily force the layoff
of 207 of its 482 employees. Neumann Decl. ¶ 14.
EPA also projects the closure of Unit 2 at North
Dakota’s R.M. Heskett Station in 2018. See note 4, supra; Christmann Decl. ¶ 12; Glatt Decl. ¶ 14. This unit
combusted 396,712 tons of lignite from the Beulah
Mine in 2014. North Dakota Department of Health Air
Quality, 2014 Annual Emissions Inventory Report for
the R.M. Heskett Station, http://www.ndhealth.gov/AQ/
EmissionInventory/AEIR2014/MDU-Heskett-T5F76001
AEIR2014.pdf.
REASONS FOR GRANTING THE APPLICATION
The Court should stay the Existing Source Rule
because it is an unprecedented power grab by EPA that
unlawfully impairs North Dakota’s several sovereign
and financial interests. Under 5 U.S.C. § 705, this
Court “may issue all necessary and appropriate process to postpone the effective date of an agency
8

Mine Yearly Production Information, U.S. DEPT. OF LABOR,
MINE SAFETY AND HEALTH ADMINISTRATION, http://www.msha.gov/
drs/drshome.htm (search MSHA Mine ID for “3200491”, then
select “Get Report” in Employment/Production Reports for this
Mine at end of webpage).

App. 253
action.” The Court also has the authority to issue a
stay under the All Writs Act. 28 U.S.C. § 1651. And under “well settled” principles, such equitable relief is appropriate here. See Lucas v. Townsend, 486 U.S. 1301,
1304 (1988) (Kennedy, J., in chambers). There is “a reasonable probability” that four Justices will eventually
vote to review the validity of the Existing Source Rule,
a “fair prospect” that a majority of the Court will decide
the Rule is invalid and “a likelihood” that irreparable
harm will result from denial of a stay. Hollingsworth v.
Perry, 558 U.S. 183, 190 (2010); see Phillip Morris USA
Inc. v. Scott, 131 S.Ct. 1, 2 (2010) (Scalia, J., in Chambers); Lucas, 486 U.S. at 1304-05. A stay of the Existing
Source Rule, and its overreaching expansion of federal
regulatory authority, will “preserve the relative position of the parties” until this litigation is finally resolved. See Univ. of Tex. v. Camenisch, 451 U.S. 390, 395
(1981).
I.

NORTH DAKOTA WILL CONTINUE TO SUFFER IRREPARABLE HARM IF THE EXISTING SOURCE RULE IS NOT STAYED.

The ongoing irreparable harm to North Dakota
caused by the Existing Source Rule rests on two independent bases: (1) the Rule deprives North Dakota of
its sovereign authority, interests, and policies, and deprivation of these interests during the pendency of this
action is irreparable; (2) the Rule is causing economic
loss to North Dakota’s budget in current and future
budget years, and even if it is successful on the merits of its challenge to the Rule, North Dakota will

App. 254
not be able to recover economic damages from the federal government.
First, the Existing Source Rule runs roughshod
over North Dakota’s sovereign interests in administering its own comprehensive regulatory programs governing air quality, public utility regulation and energy
generation and use within its borders. When a federal
agency “use[s] the States as implements of regulation,”
it infringes upon state sovereignty, New York v. United
States, 505 U.S. 144, 161 (1992), which constitutes irreparable harm. See Maryland v. King, 133 S. Ct. 1, 3
(2012) (Roberts, J, in chambers); New Motor Vehicle Bd.
Of Cal. v. Orrin W. Fox Co. 434 U.S. 1345, 1352 (1977)
(Rehnquist, J., in chambers). That is particularly true
here, because the Existing Source Rule intrudes on
North Dakota’s “traditional authority over the need for
additional generating capacity, the type of generating
facilities to be licensed, land use, ratemaking, and the
like.” Pac. Gas & Elec. Co. v., State Energy Res. Conservation & Dev. Comm’n, 461 U.S. 190, 212 (1983); see
Kansas v. United States, 249 F.3d 1213, 1227 (10th Cir.
2001) (when a federal agency’s action places a state’s
“sovereign interests and public policies at stake, . . .
the harm the State stands to suffer is irreparable if [it
is] deprived of those interests without first having a
full and fair opportunity to be heard on the merits.”).
The North Dakota Department of Health (NDDH)
is the agency charged with implementing and enforcing North Dakota’s laws and regulations implementing North Dakota’s Air Quality Control Act and the
federal CAA. Glatt Decl. ¶ 3. Specifically, the NDDH

App. 255
oversees programs to implement New Source Performance Standards (NSPS) and the State’s permitting
programs for stationary sources under Titles I and V of
the CAA. Id. at ¶ 3; see also United States v. Minnkota
Power Coop., Inc., 831 F. Supp. 2d 1109 (D. N.D. 2011).
Even if EPA has authority to issue CAA § 111(d)
regulations pertaining to CO2 emissions from coalfueled electric generating units, the Existing Source
Rule impermissibly intrudes on North Dakota’s express authority under CAA § 111(d) to “establish”
standards of performance. Under CAA § 111(d), EPA’s
authority is limited to adopting a “procedure” under
which “each State shall submit to the Administrator
a plan which (A) establishes standards of performance. . . .” The Rule usurps North Dakota’s authority
to “establish” performance standards by dictating
what the standards must be. Glatt Decl. ¶¶ 6-9. Additionally, the Rule prevents North Dakota from, as
provided in CAA § 111(d)(1)(B), considering “the remaining useful life of the existing source” to which a
performance standard applies, standards which EPA
has set specifically for North Dakota. Glatt Decl. ¶ 9.
Remaining useful plant life is irrelevant under the
Rule if closing a particular plant is necessary to meet
EPA’s prescribed emissions standard. The Rule will
also interfere with North Dakota’s significant and ongoing air quality improvement efforts. Helms Decl.
¶¶ 11-14.
Further, the Existing Source Rule infringes upon
North Dakota’s sovereign authority over intrastate energy production and consumption. Christmann Decl.

App. 256
¶¶ 16-17; Hamman Decl. ¶¶ 13-14. The North Dakota
Public Service Commission (Commission) is a state
agency created by the North Dakota Constitution to
regulate and oversee intrastate energy production and
consumption. N.D. Const. art. 5, § 2. The specific authority of the Commission is set forth in the North Dakota Century Code § 49-01, et seq. The North Dakota
Transmission Authority was created by the North Dakota legislature and its purpose and authority are set
forth in North Dakota Century Code § 17-05 et seq.
Hamman Decl. ¶¶ 4-6 North Dakota’s authority over
the intrastate generation and consumption of electricity is “one of the most important functions traditionally
associated with the police powers of the States.” Arkansas Elec. Coop. Corp. v. Arkansas Pub. Serv. Comm’n,
461 U.S. 375, 377 (1983). Congress recognized State authority over these “important functions” in the Federal
Power Act (“FPA”), which confines federal authority
over electricity markets to “the transmission of electric
energy in interstate commerce and the sale of such energy at wholesale in interstate commerce.” 16 U.S.C.
§ 824(a); see also id. § 824(b)(1). The FPA and other federal energy statutes respect the States’ “traditional responsibility in the field of regulating electrical utilities
for determining questions of need, reliability, cost and
other related state concerns.” Pac. Gas & Elec. Co., 461
U.S. at 205 ; cf. 16 U.S.C. § 808(d)(2)(A).
Absent a stay, North Dakota will be irreparably injured by EPA’s abrogation of North Dakota’s cooperative-federalism rights under both the CAA and the
FPA. See New Motor Vehicle Bd., 434 U.S. at1351 (a

App. 257
State’s interest “is infringed by the very fact that the
state is prevented from engaging in” its regulatory process); see California State Bd. of Optometry v. FTC, No.
89-1190, 1989 U.S. App. LEXIS 16067, at *1 (D.C. Cir.
Aug. 15, 2009) (“[A]ny time a state is enjoined from effectuating statutes enacted by representatives of the
people, it suffers . . . irreparable injury.”).
Second, the Existing Source Rule has irreparable
and far-reaching consequences on North Dakota’s economic interests in the form of substantially decreased
revenues. Schmidt Decl. ¶¶ 13-14; Rauschenberger
Decl. ¶ 11-12; Gaebe Decl. ¶ 13. While economic loss –
on its own – does not ordinarily constitute irreparable
harm, “that is because money can usually be recovered. . . . [But if ] expenditures cannot be recouped, the
resulting loss may be irreparable.” Phillip Morris,
131 S.Ct. at 2 (Scalia, J., in chambers); see Mori v.
Int’l Bhd. Of Boilermakers, 454 U.S. 1301, 1303 (1981)
(Rehnquist, J., in chambers). In the same vein, lower
courts have held that when a state alleges economic
harm occasioned from the loss of tax income, the appropriate test is “whether the financial loss is temporary or not.” See Oklahoma ex rel. Oklahoma Tax
Com’n v. Int’l Registration Plan, Inc., 264 F. Supp. 2d
990, 996 (W.D. Okla. 2003).
North Dakota generates significant revenue from
taxes on coal conversion and coal severance. Rauschenberger Decl. ¶ 9. North Dakota also generates significant revenue from royalty and lease payments from
coal on state lands. Gaebe Decl. ¶¶ 6-9. Over the last
ten years, North Dakota has received more than $250

App. 258
million under the coal conversion tax and $110 million
under the coal severance tax. Rauschenberger Decl.
¶ 9. North Dakota also collects substantial royalties
from coal extracted from state lands. Gaebe Decl. ¶ 9.
Because of the coal-fueled power plant closures and reduced lignite coal mining in North Dakota caused by
the Existing Source Rule, the State will be deprived of
these substantial revenue sources.
In addition, North Dakota also will needlessly expend substantial taxpayers’ dollars to analyze and attempt to implement the complex and onerous Existing
Source Rule, which is likely to be overturned by the
courts. Substantial economic and human resources
would be required to develop a State Plan in an effort to implement the Rule. Glatt Decl. ¶¶ 13, 16-17;
Christmann Decl. ¶¶ 18-19. See Thunder Basin Coal
Co. v. Reich, 510 U.S. 200, 220-21 (1994) (Scalia, J., in
chambers) (“[A] regulation later held invalid almost always produces the irreparable harm of nonrecoverable
compliance costs.”). The Rule will also cause severe adverse economic and social impacts. Erickson Decl. ¶ 6;
Binder Decl. ¶ 10; Neumann Decl. ¶¶ 11-19.
North Dakota’s economic harm is irreparable because its significant ongoing expenditures to comply
with the Rule and its reduced tax and royalty revenue
cannot be recovered from EPA. Neither the CAA or
APA (nor any other statute) affords North Dakota a
mechanism for recovering economic damages caused
by the Rule following a successful adjudication of
the merits of North Dakota’s claims. Those damages
therefore are considered to be “irreparable.” Toomer v.

App. 259
Witsell, 334 U.S. 385, 391-92 (1948) (“[W]e conclude
that appellants sufficiently showed the imminence of
irreparable injury for which there was no plain, adequate and complete remedy at law.”); accord Phillip
Morris, 131 S.Ct. at 2 (Scalia, J. in chambers); Mori,
454 U.S. at 1303 (Rehnquist, J., in chambers).
In addition, as in Oklahoma Tax Commission,
these irreparable economic losses will directly impact
funding for the provision of “critical state services.” 264
F. Supp. 2d at 997. The funds that North Dakota collects from taxes and royalties are distributed into
funds which make financial distributions to school districts and townships, and for public facilities and services and infrastructure construction. Schmidt Decl.
¶ 8. These funds finance health districts, emergency
management, human services, infrastructure construction, schools, and law enforcement. Gaebe Decl. ¶ 10;
Schmidt Decl. ¶ 8; Binder Decl. ¶ 10. That those essential North Dakota services are being deprived of
funding underscores the Rule’s irreparable impact on
North Dakota’s financial and sovereign interests.
II.

NORTH DAKOTA IS LIKELY TO PREVAIL
IN ESTABLISHING THAT THE EXISTING
SOURCE RULE IS UNLAWFUL.

Turning to the legal issues, as an initial matter
there is a “reasonable probability” this Court will eventually review the validity of the Existing Source Rule,
regardless of how the court of appeals decides that
question. See. e,g, Hollingsworth, 558 U.S. at 190. “The

App. 260
substantiality of the federal questions presented by
the case cannot be doubted.” Lucas, 486 U.S. at 1304
(Kennedy, J. in chambers). The Rule is one of the most,
if not the most, far-reaching attempts to regulate air
emissions ever attempted by EPA. Just as this Court
has reviewed a number of EPA’s major CAA rules in
recent years, see, e.g., Michigan v. EPA, 135 S.Ct. 2699
(2015); Utility Air Regulatory Group v. EPA,134 S.Ct.
2427 (2014), there is a good probability at least four
Justices will vote to review the Existing Source Rule.
It is also likely that North Dakota and the other
states and parties challenging the Existing Source
Rule will succeed on the merits of their claims. Certainly there is a “fair prospect” of success, which is all
this Court requires to support a stay. See, e,g, Hollingsworth, 558 U.S. at 190. North Dakota emphasizes
below two important reasons for its likely success
in establishing the Existing Source Rule is unlawful.
With respect to the several other substantial reasons
the Rule is contrary to Section § 111(d) and otherwise
invalid, as noted previously, to avoid undue repetition
North Dakota endorses those reasons and adopts the
arguments supporting them that are set forth in the
Joint State Application.

App. 261
A. EPA Does Not Have Authority To Impose Binding CO2 Emission Reduction
Requirements In North Dakota.
Under the plain text of CAA § 111(d), North Dakota,
not EPA, has the authority to “establish” standards of
performance. The Existing Source Rule nevertheless
establishes performance standards for CO2 emissions,
and is therefore contrary to EPA’s statutory authority.
CAA § 111(d) provides that EPA “shall prescribe
regulations which shall establish a procedure . . . under which each State shall submit to the Administrator
a plan which (A) establishes standards of performance
for any existing source for any air pollutant. . . .” Under this clear statutory text, EPA may not set emission
reduction requirements for states. EPA instead is only
authorized to “establish a procedure” for states to submit plans containing state-established standards, and
EPA may review those plans to determine if they are
“satisfactory.” But EPA’s power to disapprove a State
Plan is limited and cannot be used, as it is in the Existing Source Rule, to dictate a minimum required
level of emissions reduction for North Dakota.
Under the Rule, whatever State Plan North Dakota submits must ensure that emissions from the regulated source category must decline to the level of
EPA’s specific and stringent requirements for North
Dakota. 80 Fed. Reg. at 64,953. Thus, directly or indirectly, EPA is dictating the level of emission reduction that power plants in North Dakota must make,

App. 262
and it has determined that level by applying EPA’s
“best system of emission reduction” factors. 80 Fed.
Reg. at 64,717. As a result, EPA has promulgated
performance standards within the meaning of CAA
§ 111(a). Under CAA § 111(d), however, Congress gave
states, not EPA, authority to establish those standards.
In the court of appeals, EPA argued that the emissions targets in the Existing Source Rule are merely
“substantive guidelines,” EPA Opp’n. 50, but that severely mischaracterizes the Rule. The Rule prescribes hard emissions limits, see 80 Fed. Reg. at
64,961-64, that North Dakota’s and other states’
plans must achieve in a legally-enforceable way. 80
Fed. Reg. at 64,832 n. 781. EPA also asserted below
that the argument that the Rule unlawfully prescribes performance standards is actually an untimely challenge to two 1975 regulations, EPA Opp’n
50 (citing 40 C.F.R. §§ 60.21(e), 60.22(a)). But those
regulations refer only to “guideline[s]” and “guideline
documents;” they do not allow EPA to dictate, contrary to Section 111(d)’s plain text, specific emissions limits that regulated sources in a state must
meet.

App. 263
B. The Final Rule Deprives North Dakota
Of Authority To Consider The Remaining Useful Lives Of Regulated Sources.
Under CAA § 111(d)(1)(B), “Negulations . . . under
this paragraph shall permit the State in applying a
standard of performance to any particular source under a plan submitted under this paragraph to take into
consideration, among other factors, the remaining
useful life of the existing source to which such standard applies.” EPA previously complied with this requirement in its general CAA § 111(d) regulations, by
providing that states may deviate from EPA-mandated
guidelines for a specific facility based on, among other
factors, “[u]nreasonable cost of control resulting from
plant age.” See 40 C.F.R. § 60.24(f). The Existing
Source Rule, by contrast, fails to provide North Dakota
and other states with the authority and discretion the
statute requires to accommodate the remaining useful
lives of existing sources. This is a serious deficiency
with particularly severe impact on North Dakota, because of the number of existing coal-powered plants in
the State that have to be retired prematurely under
the Rule.
In the court of appeals, EPA responded to this
point in one cursory paragraph that asserted the Existing Source Rule does permit states to take account
of the remaining useful lives of regulated sources because states have “flexibilities” in developing implementation plans. EPA Opp’n 50. By that logic, any
statutory directive requiring an agency to promulgate

App. 264
regulations that permit a party to “take into consideration” a specific factor would be satisfied anytime
the regulated parties have flexibility in responding.
But the plain import of CAA § 111(d)’s directive that
EPA’s regulations must allow states to take account
of remaining useful lives is that the regulations must
contain a specific provision addressing the accommodation of remaining useful life. EPA recognized
that in its general regulations under § 111(d), which
contain such a specific provision. See 40 C.F.R.
§ 60.24(f ). The Existing Source Rule contains no such
specific provision, and therefor contravenes the statute.
III. THE EQUITIES AND BALANCE OF HARMS
REQUIRE A STAY OF THE EXISTING
SOURCE RULE.
When this Court considers a stay application, “[i]n
close cases the Circuit Justice or the Court will balance
the equities and weigh the relative harms to the applicant and to the respondent.” Hollingsworth, 558 U.S. at
189 (citing Lucas, 486 U.S. at 1304). This is not a close
case, however, because for reasons set forth above, the
basic and “well settled” requirements for a stay, see
Lucas, 486 U.S. at 1304 (Kennedy, J., in chambers),
are met: there is “a reasonable probability” that four
Justices will eventually vote to review the validity of
the Existing Source Rule, a “fair prospect” that a majority of the Court will decide the Rule is invalid and
“a likelihood” that irreparable harm will result from

App. 265
denial of a stay. See, e.g., Hollingsworth, 558 U.S. at
190.
Nonetheless, here the equities and relative harms
to the parties also strongly support issuing a stay of
the Existing Source Rule. Granting a stay will freeze
the status quo, and halt the significant ongoing irreparable harm that the Rule is causing. If the Rule is not
stayed, North Dakota and its citizens will continue to
suffer that irreparable harm. North Dakota will be
forced to expend significant State resources to comply
with the Rule even though it is likely to be invalidated.
North Dakota will also lose significant State revenues
from taxes and royalties associated with the use of coal
for electric generation. Moreover, ratepayers in North
Dakota will see their electricity bills increase as a result of the Rule.
Conversely, staying the Existing Source Rule during the pendency of this litigation will cause EPA no
harm. And the public interest also favors granting a
stay of the Rule. There is no public interest in subjecting North Dakota – or the other stay applicants – to
the irreparable harms being caused by the Rule.
CONCLUSION
For the foregoing reasons, the State of North Dakota respectfully requests that this Court enter an order staying the Existing Source Rule.

App. 266
Respectfully submitted,
STATE OF NORTH DAKOTA
WAYNE STENEHJEM
ATTORNEY GENERAL
/s/ Paul M. Seby
Paul M. Seby
Special Assistant
Attorney General
State of North Dakota
Counsel of record
Greenberg Traurig LLP
1200 17th Street,
Suite 2400
Denver, CO 80202
Tel (303) 572-6500
Fax (303) 572-6540
sebyp@gtlaw.com

Margaret Olson
Assistant Attorney General
North Dakota Attorney
General’s Office
500 N. 9th Street
Bismarck, ND 58501
Tel (701) 328-3640
maiolson@nd.gov

Counsel for Applicant State of North Dakota
January 29, 2016

ADDENDUM
EPA’s plant shutdown projections can be found in
the following files available at USEPA, Analysis of
the Clean Power Plan, http://www.epa.gov/airmarkets/
analysis-clean-power-plan: EPA, [PM model run files,
EPA Base Case for the Clean Power Plan (ZIP), Rate
Based Analysis of the CPP (zipped file), and Mass
Based Analysis of the CPP (zipped file). The units can
be identified by: 1) go to the base case, rate based and
mass based RPT Files.zip within the zipped files listed

App. 267
above, 2) go to the CapacityRetrofits.xlsx file within
base case, rate based and mass based RPT Files.zip
files, determine the megawatts per year projected to retire, the year of retirement and the unique identifying
number associated with the unit, 3) for the identifying
number in the CapacityRetrofits.xlsx file, go to DAT
File.xlsx and determine the date the unit came on line,
and 4) match the state, capacity and year on-line data
to the data in the NEEDS_v515.xlsx file, which will
provide the name of the unit. The unit name can then
be matched to the year of retirement determined in
step 2 above.
[Certificate Of Service Omitted]

